<html>
<title> - SPACE EXPLORATION</title>
<body><pre>[Senate Hearing 108-977]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-977
 
                           SPACE EXPLORATION 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON SCIENCE, TECHNOLOGY
                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 30, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

88-583 PDF                       WASHINGTON : 200?

  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                       Washington, DC 20402-0001 



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2003....................................     1
Statement of Senator Brownback...................................     1
Statement of Senator Nelson......................................     2

                               Witnesses

Belton, Ph.D., Michael J. S., Chairman, NRC Solar System 
  Exploration (Decadal) Survey; Emeritus Astronomer, National 
  Optical Astronomy Observatory, and President, Belton Space 
  Exploration Initiatives, LLC...................................    17
    Prepared statement...........................................    19
Figueroa, Orlando, Director, Mars Exploration Program Office, 
  Office of Space Science, National Aeronautics and Space 
  Administration Headquarters....................................     7
Lanzerotti, Louis J., Distinguished Research Professor, New 
  Jersey Institute of Technology, Consulting Physicist, Bell 
  Laboratories, Lucent Technologies, and Chairman, Solar and 
  Space Physics Survey Committee, National Research Council......    23
    Prepared statement...........................................    25
Withee, Gregory W., Assistant Administrator for Satellite and 
  Information Services, National Oceanic and Atmospheric 
  Administration (NOAA), U.S. Department of Commerce.............    10
    Prepared statement...........................................    12
Zilmer, Brigadier General Richard C., Director, Strategy and 
  Plans Division, Plans, Policies, and Operations Department, 
  Headquarters, Marine Corps.....................................     3
    Prepared statement...........................................     5

                                Appendix

Article entitled ``Setting Priorities in U.S. Space Science'' by 
  Joseph K. Alexander, Space Studies Board, National Research 
  Council........................................................    55
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey, prepared 
  statement......................................................    53
Letter dated April 4, 2003 to Gary L. Martin, NASA Space 
  Architect from Michael J. S. Belton, Ph.D., Belton Space 
  Exploration Initiatives, LLC...................................    53
Response to written question submitted by Hon. Frank R. 
  Lautenberg to:
    Michael J. S. Belton, Ph.D...................................    61
    Gregory W. Withee............................................    61
    Richard C. Zilmer............................................    61


                           SPACE EXPLORATION

                              ----------                              


                        WEDNESDAY, JULY 30, 2003

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Well, thank you all for joining us here 
today. I'm sorry for being late. I was over on the floor and 
had an amendment on the floor, and so I was unfortunately 
detained. I do appreciate you being here today, and I look 
forward to your presentation.
    Since becoming Chairman of this Subcommittee, I've been 
fortunate to meet with people from all across the board in the 
realm of space science, and I've always been drawn toward the 
big ideas and the vision of visionaries. And I thought that 
working with the space exploration field would give me the 
opportunity to work closely with those big dreamers. In many 
cases, I have been able to; although, in others, unfortunately, 
I've been experiencing the opposite.
    I hope that today's hearing will bring a little more 
creativity to the issue of space exploration as we look 
forward. With activities and responsibilities in space being 
spread across several governmental agencies, I think it's 
important that we take a comprehensive look at the totality of 
U.S. involvement in space exploration.
    Throughout meetings with NASA and other space industry 
representatives, I've become aware of the burden of bureaucracy 
that, in some cases, plagues American science and space 
programs. I hope that our witnesses here today will be able to 
break out of this bureaucracy and will share with us a unifying 
vision for America in space exploration, utilization, and 
development.
    The U.S. must dominate the Earth-moon orbit for 
exploration, discovery, scientific research, commercialization, 
environmental reasons, and national security purposes. This 
Subcommittee is in the unique position to help shape the 
American space program and increase the number and purposes of 
U.S. entrants into space science. But to do that, we need to 
have an accurate assessment of where we are currently in space 
exploration and determine where we need to go in the future. 
NASA is a key agency. But so, too, will be other agencies, such 
as the Department of Defense, the National Oceanic and 
Atmospheric Administration, and the Federal Aviation 
Administration. As we move forward in this Committee with the 
reauthorization of NASA, I want to involve all governmental 
agencies involved in space exploration.
    Today, we're joined by representatives from DOD, NOAA, and 
NASA. Each of these agencies are involved in space exploration, 
and each of these agencies plays a unique role. Federal 
Aviation Administration's Associate Administrator for 
Commercial Space Transportation was invited today, but, 
unfortunately, is unable to join us. That office will be 
submitting testimony to the record, which I look forward to 
seeing.
    I'm excited to hear from each of you, from a group such as 
the Marine Corps and what it's currently doing in space 
exploration. I understand they have some creative potential 
uses for space travel. Additionally, we are joined by NOAA, who 
will speak with us about their involvement with weather 
satellites and other ventures in space exploration. With us, 
also, is a representative from NASA, who will speak with us 
about the goal of exploring the solar system and the universe 
beyond. And we have been joined, as well, by two private sector 
individuals, Drs. Belton and Lanzerotti, who will share with us 
some of their findings and research in the space exploration 
field.
    What I hope to get out of this hearing, gentlemen, is 
really that broad cross-section and the vision of visionaries 
to steer where the United States and all of its various 
agencies should be going in the area of space exploration. I 
don't think it's any secret that right now we're really in the 
middle of reassessing our involvement and our activity in space 
exploration--where we should be going, where we should be 
investing the dollars, in looking forward. When the Gehman 
Report comes out early fall, I expect that report to really 
ignite a strong move on the part of Congress to really assess 
what we should be doing.
    The purpose of these hearings, ahead of that time, is to 
set some of the groundwork and understanding about: Where are 
we, as a country, and with respect to the various agencies? 
We've had a hearing, last week, on private-sector involvement 
in space exploration and where we should be going. And these 
hearings are all in anticipation of the Gehman Report and the 
broad and wide-open discussion that I think Congress really 
needs to have on the future of space exploration by this 
country.
    So that's the nature of the hearing we'll have. I'll look 
forward to the testimony. Before we get to that, Senator and 
Astronaut Bill Nelson would be invited to make an opening 
statement if you'd like.
    Bill?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    It's interesting that you made reference to the Gehman 
Report, because that, of course, is very important. I've been 
spending some time going through the testimonies on the Gehman 
Report. I've spent some time with Admiral Gehman and his staff. 
He has an excellent set of Commission members. They're very 
dedicated to this task. I think that they are going to come out 
and point out the mistakes that were made and some of the 
processes that should be changed. I think, also, they are going 
to comment on the culture in NASA, the lack of communication, 
particularly from the bottom up, in NASA; and, as a result of 
that, hopefully we will be a lot better off.
    But it brings us to the subject of this hearing, that NASA 
can be the most efficiently run, most cost-effective, highly 
energized and communicating agency, which it has to be, on the 
cutting edge of what it's doing all the time, all of the 
exciting work, but unless it has a goal, unless it has a 
vision, unless it has the next major project, then there's too 
much of an opportunity for it to drift.
    Now, you and I know the importance of the Space Station. We 
know the importance of getting to and from the Space Station 
and all of the research that's going on, on the Space Station, 
but it's time for us to look beyond. It's time for us to dream 
again. It's time for us to have that can-do spirit reignited 
that caused this country, in the 1960s, when a President said, 
``We're going to the moon and safely return in this decade,'' 
and all of the excitement in science and mathematics and 
technology that that caused to explode in our schools, in our 
colleges, in our universities. And America's space program is 
uniquely situated to cause that kind of explosion of 
technology. But you've got to have a dream, and you've got to 
have a goal.
    And so, as you search for it here, Mr. Chairman, thank you 
very much for calling this hearing.
    Senator Brownback. Thank you, Senator Nelson. I look 
forward to working with you on this.
    I think we'll run the clock at 7 minutes, gentlemen. If you 
don't mind, we will take your full statement into the record as 
if presented, and you're welcome to read from it or to 
summarize any way that you would like to.
    We'll start with Brigadier General Richard C. Zilmer. He's 
the U.S. Marine Corps Director of Strategy and Plans Divisions, 
Plans, Policy, Operation, Headquarters for the Marine Corps. 
And then we'll go on down the group. And I think what I'll do 
is, I'll--just before each of you present, I'll introduce you 
so that people can have an overview of what you do prior to 
your presentation.
    So, General Zilmer, why don't you go ahead, and then we'll 
proceed on down the panel. You need to get those microphones up 
pretty close to you, if you would.

       STATEMENT OF BRIGADIER GENERAL RICHARD C. ZILMER,

         DIRECTOR, STRATEGY AND PLANS DIVISION, PLANS,

POLICIES, AND OPERATIONS DEPARTMENT, HEADQUARTERS, MARINE CORPS

    General Zilmer. Mr. Chairman, Members of the Subcommittee, 
it's an honor to be with you today. I have submitted a written 
statement, but I'd like to summarize from that statement, if I 
may.
    It's an honor to represent to you today the Marine Corps' 
perspective on how NASA's vitality in space exploration 
capabilities will be critical to the Marine Corps' warfighting 
strategies of the future. Your sustained interest in and 
commitment to fully exploiting the opportunities offered by 
space for commerce, science, and transportation will contribute 
directly to the preservation of our Marine Corps expeditionary 
character and our nation's security.
    Today, we have significant equities in space for military 
advantage, global expeditionary reach, strategic surprise, and 
some that are related directly to space exploration technology. 
In this regard, an energized NASA will become an important 
enabler for the Marine Corps.
    In 1964, our 23rd Commandant of the Marine Corps, General 
Wallace Greene, foresaw the use of suborbital space to 
transport marines. In 2002, Lieutenant General Emil ``Buck'' 
Bedard inherited that vision and signed the Small Unit Space 
Transport and Insertion Universal Needs Statement. Hopefully, 
within the time-frame of 2025 to 2030, this capability will 
provide the Marines and joint forces heretofore unimaginable 
assault support, speed, range, altitude, and strategic 
surprise. The concept includes a range of strategic 
capabilities from autonomous weapons payloads to the actual 
insertion of marines on the ground. The objective, manned 
capability, reflects our belief that machines and munitions 
alone cannot replace the value of marines on the ground for 
many missions.
    We do not look to space for its own sake, but, rather, 
because of the constraints of thick air travel and 
nonpermissive airspace, these constraints lead to a space-
related solution that exploits NASA's space exploration 
technology and capability road maps. We intend to approach the 
U.S. Special Operations Command and the Air Force Space Command 
to refine a joint requirement for this capability.
    It is imaginable that the Marine Corps could develop a 
close operational relationship with the Air Force, executive 
agencies for space, similar to our traditional Navy bond, in 
this future global-strike capability. SUSTAIN would truly be 
joint and reflect the Secretary of Defense's reorganization of 
national security space.
    The SUSTAIN need relates directly to our advocacy for 
NASA's space exploration activities, as Marine Corps and NASA 
manned and unmanned technology interests will over overlap 
significantly. It is this type of synergy that will mitigate 
the otherwise prohibitive expense of a solo Department of 
Defense or NASA technology capability development thrust. 
Accordingly, we are using the early expression of our formal 
requirements as the mechanism to pull the technologies forward.
    We thank you for inviting us to participate in this 
important forum. The Marine Corps stands ready to work with 
NASA to meet the national-security challenges of the 21st 
century on land, at sea, in the air, and through space.
    Mr. Chairman, Members of the Subcommittee, at this time I 
stand ready to answer your questions that you may have.
    Thank you.
    [The prepared statement of General Zilmer follows:]

 Prepared Statement of Brigadier General Richard C. Zilmer, Director, 
     Strategy and Plans Division, Plans, Policies, and Operations 
                 Department, Headquarters, Marine Corps

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Brownback, Senator Breaux, distinguished members of the 
Committee; it is my honor to present to you the Marine Corps' 
perspective on how NASA's space exploration capabilities are critical 
to the Marine Corps' warfighting strategies of the future. Your 
sustained interest in and commitment to fully exploiting the 
opportunities offered by space for commerce, science, and 
transportation will contribute directly to the preservation of our 
Marine Corps' expeditionary character, and our Nation's security.
I. Introduction
    In recent years many have asked why the terrestrially-oriented 
Marine Corps takes such an interest in contributing to the roadmaps for 
national security, commercial, and scientific space in the future. It 
is true, that unlike National Aeronautics and Space Administration 
(NASA) and other DOD entities, the Marine Corps has neither 
programmatic nor fiscal equities in space. Yet our operational equities 
in space exploitation for both military advantage and expeditionary 
reach are at least equal to those of other users. These needs lead us 
to exploit space-related capabilities. For affordability, we must 
coordinate and synthesize our technology needs with other DOD and non-
military users having similar requirements related to space 
exploration. Multiple customers having fully coordinated needs and 
objectives to avoid duplication are critical for the national 
affordability of any bold space vision today and in the future. We are 
therefore determined to remain engaged and contribute constructively to 
the challenges and opportunities of space, to seek out developmental 
partnerships, and to avoid cost-prohibitive duplications of effort. An 
energized NASA will be an important enabler for the Marine Corps in 
realizing such capabilities.
II. Background
    With regards to the Marine Corps' role in space exploration and 
manned space flight, we are proud of the historic role we have played 
in opening up space as a medium of great practical utility. It is 
notable that the Honorable John Glenn, a Marine, was the first American 
in space to orbit the earth. Many Marines have followed in his 
footsteps, participating as trained astronauts and crewmembers in 
several manned space programs over the years. For example, just last 
year Major General Bolden retired after a career that included his 
participation as an astronaut in the Space Shuttle Program.
    From the earliest days of our involvement, we have made both 
intellectual and inspirational contributions to the Space Program. We 
have and will continue to help define the critical roles that space 
will play in national security. Interestingly, it was our 23rd 
Commandant, General Wallace Greene, who first marked Marines as true 
space visionaries. In 1964 he accurately foresaw the use of suborbital 
space to transport Marines at hypersonic speeds for responsive global 
assault support. Though his vision was technologically ahead of his 
time, the Marine Corps did take a major step towards realization prior 
to his passing earlier this year. On 22 July 2002, Lieutenant General 
Emil (Buck) Bedard signed the Small Unit Space Transport and Insertion 
(SUSTAIN) need statement, blazing a trail to a new expeditionary 
assault support capability for the next chapter of Marine Corps 
history. Its eventual operationalization could fulfill Commandant 
Greene's vision, enabling speed of response, range, altitude, and 
strategic surprise unimaginable even by today's expeditionary response 
standards.
III. USMC Operational Concepts As They Relate to NASA Initiatives
    Mission areas related to Space Control and Global Strike are 
currently being adopted into Marine Corps warfighting concepts and 
capabilities. As a result, we established a Marine Component in support 
of United States Strategic Command (USSTRATCOM), namely MARFORSTRAT. As 
the Marine Corps matures these advanced capabilities in the years and 
decades ahead, MARFORSTRAT will provide a transformational 
expeditionary capability that projects the most psychologically 
effective component of our traditional character, the Marine on the 
ground.
    The SUSTAIN need frames a capability to transport a strategic 
capability from CONUS to any other point on the globe within two hours 
of an execution decision. It is important to note that SUSTAIN does not 
deliberately seek out a space transit capability for its own sake. 
However, we are also aware that the hypersonic transport speeds 
requirement, combined with the need to overfly non-permissive airspace 
en route may necessarily drive the material solution into space.
    The SUSTAIN concept includes strategic capabilities options that 
span the spectrum from autonomous weapons payloads to the landing of 
Marines on the ground. The range of force application options reflects 
the validated warfighting assumption that frequently machines and 
munitions alone will not be able to replace the effectiveness of 
``situationally curious'' soldiers in theater, and the persuasive 
psychological value of their presence to the mission at hand.
    The SUSTAIN capability includes a need to insert, execute, and 
extract composited modular and relatively self-sufficient and supported 
larger capability sets without the need to violate any uncooperative or 
physically non-permissive airspace en route. This challenging 
requirement is projected for initial operational capability (IOC) 
between 2025 and 2030. We intend to approach members of United States 
Special Operations Command (USSOCOM) and Air Force Space Command 
(AFSPC) to refine a Joint requirement, by means of translating the 
SUSTAIN need into an Initial Capabilities Document (ICD). This need 
will heavily leverage on going manned and unmanned Air Force, DARPA, 
and NASA initiatives and programs, with NASA's manned programs being 
the key to fulfilling our objective capability. The USMC has also made 
an effort to make the SUSTAIN need a user-pull foundation piece of the 
National Aerospace Initiative. While the USMC does not expect to manage 
a space transport program in the future, our continuing expressions of 
need will help to steer and integrate the diverse technologies and 
demonstrations more rapidly and rationally, in the same spirit as 
Commandant Greene's earlier proposals.
IV. Marine Corps Needs and NASA Technology Leveraging
    The SUSTAIN need relates directly to our Service Advocacy for the 
reinvigoration of NASA's scientific space exploration activities. While 
the core missions of the Marine Corps and NASA differ fundamentally, 
the technology sets they will require to accomplish their respective 
missions share significant commonalities. To the extent that our 
technology and capability roadmaps overlap with those of NASA and other 
commercial space transport interests, there exists a tremendous 
potential developmental synergy that will mitigate the otherwise 
prohibitive expense of a solo-DOD technology/capability thrust. The 
Nation can likely only afford one such large, ambitious 
transformational and/or manned space program at a given time. But that 
one program can simultaneously serve many customers in commerce, 
science, and other governmental and civil applications. The key is the 
early expression of user pull on the technologies and capabilities, 
combined with their earliest coordination and synthesis. By these means 
NASA will oversee the development of a large percentage of the military 
requirements, ensuring successful transition and at relatively lower 
cost to the other customers. The key again is the earliest validation 
of the expressed needs.
V. Conclusion
    In conclusion, the USMC is pleased with the recent changes to 
national security space that have provided us a greater voice in space-
related warfighting technologies and capabilities, and we thank you for 
inviting us to participate in this forum. Considering our possible 
emerging space transportation and warfighting equities, it is important 
that we coordinate with a reinvigorated NASA as early as possible. 
Because our needs lean forward ahead of the technology acceleration 
curve, we desire a NASA that is both energized and unafraid of the 
space exploration-related science and technology challenges that lie 
ahead. Whether it is in conjunction with the Air Force Executive Agent 
for Space or an eventual Space Force or Space Service, the Marine Corps 
stands ready to work with NASA and others to meet the national security 
challenges of the 21st Century on land, at sea, in the air, and through 
space.

    Senator Brownback. Well, you posed some very exciting 
ideas, and I can't wait to get back around to you to ask some 
of the questions, because that's quite a incredible vision 
that's quite exciting.
    We'll be going on down through the rest of the panelists. 
So, first, Mr. Orlando Figueroa. Is that correct?
    Mr. Figueroa. Figueroa.
    Senator Brownback. Figueroa. Pardon me. Director of Mars 
Exploration Program, Office of Space Science of NASA, 
headquarters here in Washington, D.C.
    Delighted to have you here.

            STATEMENT OF ORLANDO FIGUEROA, DIRECTOR,

        MARS EXPLORATION PROGRAM OFFICE, OFFICE OF SPACE

    SCIENCE, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION 
                          HEADQUARTERS

    Mr. Figueroa. Thank you.
    Chairman Brownback, distinguished Members of the 
Subcommittee, thank you for the opportunity to present elements 
of a NASA space science perspective on space exploration.
    With your permission, I want to take advantage of my 
position as Director of the Mars Exploration Program to present 
a unique perspective of the exploration of the solar system and 
the universe, understanding the origins and evolution of life, 
and the search for evidence of life elsewhere. All these are 
elements reflected in the NASA 2003 strategic plan, which you 
have before you today.
    I would like to bring to your attention Goal 5, on page A-
11 of the plan, that addresses the theme of today's hearing, 
space exploration. To this end, Goal 5 states that NASA will, 
``explore the solar system and the universe beyond, understand 
the origins and evolution of life, and search for evidence of 
life elsewhere.'' Directly tied to this goal are three major 
objectives, outlined on page A-12 of the plan, that are 
associated with the Mars Exploration Program. I will present 
today a unique perspective of this goal and the key objectives 
that relate to NASA Mars exploration and other future space 
science missions.
    Technological advances and scientific discoveries over the 
past several years have revolutionized our understanding of the 
formation of the universe and the origins of life within it. We 
know now that the basic ingredients of life are common 
throughout the universe, having been formed within star systems 
and disseminated through their violent explosions.
    Thanks to the incredible advances in life sciences over the 
past couple of decades, our basic understanding and 
perspectives of the nature and evolution of terrestrial life 
has also changed. Life on earth has demonstrated incredible 
tenacity, resilience, and perseverance in finding ways to take 
hold and survive even in the most harshest and extreme 
environments. In fact, we know now that, on Earth, wherever 
there are basic nutrients, a source of energy, and liquid 
water, there are life forms.
    In addition, recent discoveries indicate that many of these 
same environments have been present and may still be present 
today in planets and moons in our solar system. The prospects, 
thus, of life elsewhere and habitable zones within those, among 
the trillions and trillions of stars in the universe are quite 
high, indeed. Now, looking for it and confirming its past or 
actual presence is a challenge that will take every ounce of 
human ingenuity, creativity, intuition, and commitment to 
search and explore to, from, and in space.
    Closer to the Mars Exploration Program, you know, Mars, we 
all know, is a tangible frontier that has captivated humanity's 
curiosity, scientific imagination, and spirit of exploration 
for ages. It is the first and most accessible planet in the 
solar system, therefore, playing a vital role in answering the 
key questions of how planets evolve into possible habitable 
worlds and the origins and preservation of life. It is the only 
planet, other than Earth, that shows strong evidence of liquid 
water having coursed over its surface. Contributing the current 
view of Mars as a once wet and warm place are numerous channels 
that presumably are the product of flowing water on its 
surface. There are sedimentary deposits similar to those that, 
on Earth, are indicative of persistent and cyclic water 
activity. There is subsurface ice and surface features that 
suggest permafrost and periglacial forms.
    Now, although our current understanding of life in the 
universe may be limited, we believe that the features we see on 
Mars today are the relics of environments that may have once 
been habitable and that might have actually harbored some form 
of life. Mars is the most Earth-like planet in the solar 
system. It has diurnal and seasonal cycles similar to our own. 
There are water-based polar caps that wax and wane, vast 
volcanoes, deep canyons, shifting dunes, and other features 
that are analogous to those on Earth. And, last but not least, 
Mars has always beckoned as the first and, in the foreseeable 
future, perhaps the only planet suitable for human exploration 
and possible habitation.
    We presently have two assets around Mars, Mars Global 
Surveyor and Odyssey, that continue to rewrite the books about 
the Red Planet. They will soon be joined by two robotic 
geologists, so aptly named as ``Spirit'' and ``Opportunity,'' 
by Sofi Collis, the 19-year-old winner of the ``name the 
rovers'' contest, because they reminded her of the dreams and 
aspirations, having come to this country from Russia with her 
adopted mother when she was younger.
    In January of next year, Spirit and Opportunity will land 
on the Martian surface. After the air bags cushion their 
landing and they're settled on the surface and opened, the 
rover will roll out to present unprecedented panoramic images 
of the Martian terrain. These first images will set the stage 
for scientists to select promising geological targets that will 
tell part of a story of water in Mars' past and perhaps as a 
proxy for possible habitable environments.
    So over a period of 90 days, the rovers will drive to 
multiple locations to perform onsite scientific investigations 
and send to Earth what promise to be breathtaking views and new 
perspectives of Mars that we will share with the public. As you 
may be aware, our partners in the European Space Agency and 
Japan, also have spacecraft on their way to Mars. Clearly, this 
coming December and January will be quite a busy and exciting 
time for all of us.
    Now, the rovers will complete the first cycle of 
reconnaissance and validation. It's only the beginning of 
setting a stage for much higher resolution measurements to 
search for compelling sites, to be followed by principal 
investigator-led missions, and concluding this decade with the 
first in situ analytical laboratory since the Viking era. They 
will be enhanced significantly by long-range mobility, 
hopefully nuclear power, and far more sensitive and precise 
instruments as we search for basic building blocks of life.
    Now, the next decade of Mars exploration will witness a 
transition from a search for habitats to the search for 
definitive measurements of life. And, with the help of the 
science community, we have, over the past year, developed 
several alternate pathways of investigations that promise to 
respond to the unknown and unpredictable discoveries of this 
decade. All the pathways show common threads--an emphasis on 
intensive in situ analysis and the analysis of Mars samples in 
Earth laboratories. Now, they will be complemented by other 
missions from the science community, principal investigator-
led.
    Now, we expect that this legacy in capability and 
understanding of a Martian environment will set in motion the 
transformation for all-robotic to robotic-and-human exploration 
of Mars.
    Now, there is compelling evidence elsewhere in the solar 
system that there may be water also present in other solar 
bodies--Europa, Callisto, and Ganymede, the Jupiter moons--and, 
therefore, the Jupiter Icy Moons Orbiter within the Prometheus 
Project offers the opportunity for a highly efficient nuclear-
electric propulsion system that will visit all three in a 
single mission. Now, this represents a major step in the 
understanding of the nature and extent of habitable 
environments in our solar system.
    The large propulsive capability will enable high energy 
missions that are otherwise impossible, and efficient power 
supply will allow increased data return, as well as new types 
of scientific measurements.
    But the search for life doesn't end there for us. Over the 
past few years, and using Earth-based observations, the 
discovery of Jupiter-sized planets around stars like our own 
has increased dramatically, to over a hundred today.
    Now, operating above Earth's largely opaque atmosphere, 
with robotic observatories, we will view the heavens in a 
variety of new wavelengths to understand the nature of the 
stars, galaxy, and the objects in the universe and what they 
can tell us about our origins and destiny. So we're developing 
technologies and techniques, such as space interferometry to 
enable us to detect and study extra-solar planets, Earth-sized 
planets within those, and certainly search for telltale 
chemical signatures of life.
    Thank you for the opportunity to address you, and I hope 
this presents a compelling vision for exploration of the solar 
system and beyond.
    Senator Brownback. It's certainly a very interesting 
introduction to possible options, quite an interesting set of 
programs. I look forward to questioning you and discussing 
more.
    Mr. Gregory Withee is the Assistant Administrator for 
Satellite and Information Services of the National Oceanic and 
Atmospheric Administration, Department of Commerce.
    Mr. Withee, delighted to have you here.

           STATEMENT OF GREGORY W. WITHEE, ASSISTANT

          ADMINISTRATOR FOR SATELLITE AND INFORMATION

           SERVICES, NATIONAL OCEANIC AND ATMOSPHERIC

       ADMINISTRATION (NOAA), U.S. DEPARTMENT OF COMMERCE

    Mr. Withee. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, as Director 
of the Nation's Civil Operational Environmental Satellite 
Program, which resides in NOAA, I'm pleased to have the 
opportunity to testify before you today on NOAA's activities 
related to U.S. space exploration.
    Vice Admiral Conrad Lautenbacher, my boss, has asked me--
and administrator of NOAA--has asked me to convey to the 
Subcommittee his strong support of NOAA's programs that 
supports space exploration and our contributions to space 
weather.
    My written testimony provides additional details, however, 
I'd like to highlight some select items.
    The nation is accruing substantial benefits from the 
products and services that NOAA provides to support civilian 
and military space exploration. These services are critical to 
enhancing U.S. economic, national, and homeland security. 
Within NOAA's National Weather Service, the Spaceflight 
Meteorological Group based in Houston, has provided 
meteorological support to NASA's human spaceflight program 
since 1962. This group provides weather forecasts and briefings 
to NASA personnel that support space shuttle launches and 
landings and activities at the International Space Station.
    NOAA's Space Environment Center is a partnership between 
NOAA and the U.S. Air Force. The Space Environment Center's 
space weather warnings and forecasts provide critical support 
to civilian and military aviation and communications systems on 
Earth and the NASA astronaut health and safety at the Space 
Station.
    The Space Environment Center implements its mission by 
continually monitoring the sun's atmosphere using data from 
NOAA's Polar Orbiting Operational Environmental Satellites--we 
call those POES--and Geostationary Operational Environmental 
Satellite, and we call those satellites GOES.
    With respect to the contribution from NOAA GOES, through 
its interagency collaboration with the U.S. Air Force, funded 
the first--the Air Force funded the first Solar X-ray Imager, 
which we call SXI, which was build by NASA, and it's now flying 
in operational mode on GOES-12, as we speak, above the Atlantic 
and eastern part of the United States. By flying this 
instrument, the SXI, or Solar X-ray Imager, simultaneously 
meets civilian and military needs for timely data on solar 
activity and the locations of solar flares at substantial cost 
savings to the U.S. taxpayer. The instrument greatly advances 
NOAA's space weather forecasting and research capabilities and 
expands the ability of the NOAA GOES satellites to monitor, not 
only the Earth's environment, but also the sun and space 
weather disturbances caused by violent solar activity. The 
instrument's data and derived products are extremely important 
to satellite operators, electrical power grid operators, 
astronauts, airline dispatchers, GPS users, radio 
communicators, and I could go on. On data from NASA's research 
spacecraft, such as ACE, Image, SOHO--those are various 
ventures put forward in space by NASA, and the U.S. Defense 
Department's Defense Meteorological Satellite Program are also 
used in our forecast and warning services.
    We further collaborate with NASA to use unique positions in 
space, such as the La Grange points, which are balance points 
between the sun and the Earth, to meet our operational needs.
    We are further exploring advanced propulsion technology 
such as solar sails that will allow us to operate operational 
platforms in even more useful, but more difficult orbits.
    NOAA engages in a number of research and development 
activities to support our operational requirements, and these 
partnerships have allowed us to test and integrate new 
technology and models into our activities that meet our mission 
requirements to better serve the American public.
    In looking at future satellite systems, NOAA has 
incorporated validated requirements from civilian and military 
users alike to support the U.S.-based weather and human 
spaceflight programs into its future satellite systems. NOAA 
will continue to fly the instrument I already addressed, the 
solar X-ray imager, on subsequent GOES spacecraft. With respect 
to our polar orbiting satellites, in collaboration with DOD and 
NASA we are moving forward with the development of the first 
National Polar Orbiting Operational Environmental Satellite 
system--short name is NPOESS--which is a convergence of NOAA 
and DOD spacecraft scheduled for launch in 2009. Instruments on 
this spacecraft, NPOESS, will significantly enhance civilian 
and military space weather activities and better support the 
U.S. space exploration program.
    Now, tomorrow, I will join colleagues on a related topic 
across the U.S. Government with 34 nations from across the 
world at the Earth Observing Summit, where Ministerial-level 
delegates from 30 countries will meet the U.S. Department of 
State--meet at the U.S. Department of State to seek global 
agreement to initiate a ten-year program to coordinate our 
collective space and in situ observation programs. I'm pleased 
to say that Space Weather, which supported space exploration, 
is a part of these discussions.
    The premise of the summit is that by developing a global 
strategy and partnership using space-based observations with in 
situ, or ground-based, measurements, we will better understand 
the short-term and long-term trends and natural cycles of the 
environment. These partnerships will also enhance U.S. space-
related activities.
    In conclusion, NOAA joins our partners here today to 
reiterate our full commitment to supporting collaboration among 
U.S. Federal agencies, the private sector, and academia to 
support the U.S. space exploration and the critical role of 
space weather. NOAA appreciates this Subcommittee's interest in 
our activities and seeks your support to ensure full funding of 
the President's 2004 budget request. This will allow us to 
support all aspects of our mission to protect and enhance the 
U.S. economic, national, and homeland security interests.
    So, in conclusion, thank you, Mr. Chairman, Members of the 
Subcommittee, for this opportunity to testify on this important 
matter to NOAA and the Nation. I stand ready to answer any 
questions you may have.
    [The prepared statement of Mr. Withee follows:]

 Prepared Statement of Gregory W. Withee, Assistant Administrator for 
 Satellite and Information Services, National Oceanic and Atmospheric 
           Administration (NOAA), U.S. Department of Commerce
    Thank you, Mr. Chairman and Members of the Subcommittee, for the 
opportunity to testify before you regarding the National Oceanic and 
Atmospheric Administration's (NOAA) activities with other U.S. 
Government agencies in the area of space exploration. I am Gregory 
Withee, Assistant Administrator for NOAA's Satellite and Information 
Services and am responsible for end-to-end management of NOAA's 
satellite, data and information programs.
    Space, and our ability to access, operate in and explore it, 
continues to capture the imagination. The human concept of space has 
evolved over the past 60 years from a place to gaze at in wonderment to 
realizing a valuable real-estate that supports a multi-billion dollar 
private sector. In the 1940s and 1950s, the U.S. military led space 
development with its research on rockets and sensors. This provided the 
foundation for the work that we do at NOAA as the U.S. civilian 
operational environmental satellite service, as well as the research 
and development work conducted by the National Aeronautics and Space 
Agency (NASA). These activities also support a growing communications 
and remote sensing industry, both within the U.S. and foreign 
countries.
    Today, I will highlight some of the work we undertake at NOAA in 
space as well as the critical partnerships with NASA, the Department of 
Defense (DOD), the private sector, and international partnerships that 
enable us to accomplish our mission in service to the American public.
NOAA's Contribution to Space Exploration
    Space, from the Sun to Earth's upper atmosphere, is a strategic and 
economic frontier. This space environment influences a multitude of 
human activities and presents numerous scientific challenges. NOAA's 
Space Environment Center (SEC) has a central role in conducting 
research to understand the space environment, and performs critical 
space weather operations for the Nation.
    SEC continually monitors and forecasts Earth's space environment. 
The Center provides accurate, reliable, and useful solar-terrestrial 
information; conducts and leads research and development programs to 
understand the environment and to improve services; advises policy 
makers and planners; plays a leadership role in the space weather 
community; and fosters the commercial space weather services industry.
    While NASA continues its lead role in deep space exploration, space 
is the arena within which NOAA's Geostationary Operational 
Environmental Satellites (GOES), Polar-orbiting Operational 
Environmental Satellites (POES), and the forthcoming National Polar-
orbiting Operational Environmental Satellite System (NPOESS) operate. 
NOAA works very closely with NASA, DOD, and the private sector to 
build, launch, and operate satellites at various levels in space--GOES 
at 22,000 miles and POES at 520 miles above the Earth's surface--to 
support our Earth observing mission. These satellites also have special 
sensors on-board that contribute to the operational exploration of near 
Earth space--the Solar X-ray Imager and the Space Environment Monitor--
which tell us of operating conditions such as solar flares or ionic 
storms, and provide information essential to the health and safety of 
our spacecraft and to human life on Earth.
    With the successful recent launch of a Solar X-ray Imager on the 
GOES spacecraft, SEC has moved the country into a new era of solar 
observational capabilities and forecasting of solar disturbances. The 
Solar X-ray Imager (SXI), the first operational solar imager ever flown 
in space, was launched on GOES-12. Rather than having redundant 
military and civilian solar X-ray imagers, the first SXI was funded by 
the U.S. Air Force and built by NASA for flight on NOAA's GOES. SXI 
greatly advances NOAA's space weather forecasting and research 
capabilities and expands the ability of the NOAA GOES satellites to 
monitor not only Earth's environment, but also the Sun and space 
weather disturbances caused by violent solar activity.
    We also receive data from NASA and DOD satellites that are combined 
with NOAA's satellite data to provide the basis of space weather 
forecasts. These forecasts are provided to other satellite operators 
and users on Earth, allowing preventive action to protect vital 
infrastructure. NOAA provides critical weather and space-based support 
to NASA and DOD during satellite and Space Shuttle launches and 
landings, and for operations at the International Space Station (ISS). 
In fact, without the critical data the SEC provides, NASA astronauts 
would be unable to safely take spacewalks to work outside of the Space 
Station. The protection of life and property from space weather is a 
key requirement that NOAA will continue to support with future GOES and 
NPOESS systems.
    SEC is striving to utilize and enhance the observational 
capabilities of NOAA for the Nation's benefit. Observations from 
satellites such as GOES, POES, NPOESS are essential to improve our 
understanding of the solar-terrestrial system and to provide timely and 
accurate forecasts. SEC invests significant effort evaluating the need 
for new data, and participating in other agency, institution, or 
international programs that hold promise for providing data crucial for 
improving space weather services.
    SEC performs a vital role for the Nation in conducting and 
coordinating research and its application. As described in the recent 
National Research Council report--A Decadal Research Strategy in Solar 
and Space Physics (2003), NOAA should assume full responsibility for 
space-based solar wind measurements, expand its facilities for 
integrating data into space weather models, and with NASA should plan 
to transition research instrumentation into operations. As discussed in 
the National Space Weather Program Implementation Plan (2000), 
interagency programs cannot succeed in meeting the Nation's needs 
without NOAA SEC observations, research, model development, and 
transition to operations. And, as emphasized in DOD's National Security 
Space Architect Study (2000), NOAA's current and planned activities are 
essential to meet Department of Defense's space weather needs.
NOAA's Collaboration with Other Space Operators
    The collaboration among space operators is closely coordinated and 
mutually beneficial. NASA and DOD conduct critical research and 
development activities, that NOAA assesses and incorporates, as needed, 
onto its civil operational spacecraft. The space industry provides 
expertise to assist us in our respective missions. Increasingly, 
collaboration with private sector and foreign remote sensing operators 
provides data and information from their platforms that NOAA and other 
government agencies, such as U.S. Department of Agriculture, U.S. 
Department of Energy and the U.S. Department of the Interior, use to 
implement their respective missions.
    Collaboration requires a great deal of coordination within the U.S. 
and internationally. Within the U.S. Government, the Office of Science 
and Technology Policy provides a mechanism for space policy 
coordination. Internationally, the Committee on Earth Observing 
Satellites, and the World Meteorological Organization provide venues 
for coordinating with other civil space operators. Because building, 
launching and operating in space is a very expensive undertaking, these 
coordination mechanisms provide an opportunity for all members to 
ensure data access and archive from their individual platforms without 
duplication of effort.
    The premise of the Earth Observing Summit that will occur at the 
U.S. State Department on July 31 among thirty Ministerial level 
delegates is that by developing a global strategy and partnership using 
space based observations with in situ measurements, we will be able to 
better understand short-term and long-term trends in natural cycles and 
the environment.
NOAA's Coordination with NASA and DOD
    NOAA works very closely with NASA and DOD in all aspects of our 
mission. For nearly 60 years, the U.S. Government has been successfully 
developing and applying space based Earth remote sensing to meet the 
information needs of Federal and state agencies, and the general 
public. Today NOAA, NASA, and DOD are planning the next generation 
environmental operational satellites, and they are working with other 
Federal and non-Federal users (including the private sector and foreign 
remote sensing systems partners) to reduce the cost and provide maximum 
benefit to the U.S.
    Historically, NOAA's satellite program has been built and operated 
primarily to support the needs of NOAA's National Weather Service's 
forecasting and warning responsibilities. However, NOAA's satellite 
systems, address numerous climate and global change requirements needed 
for atmospheric, terrestrial, and oceanic applications. For example, 
satellite data are an important component in the emerging ocean 
observing system. In addition, information from NOAA and non-NOAA 
satellites produced and distributed by NOAA play a vital support role 
to U.S. economic, homeland, and national security. A recent example of 
this was the use of NOAA imagery products that supported operations 
during Operation Enduring Freedom, and Operation Iraqi Freedom, in 
particular detecting and monitoring dust storm events in Afghanistan 
and Iraq.
NOAA, NASA and DOD Partnerships in Future Spacecraft Systems
Polar-orbiting Systems
    On 5 May 1994, the President directed the convergence of the NOAA's 
POES program and DOD's DMSP to become NPOESS, designed to satisfy both 
the civil and national security operational requirements. NASA 
contributes to this effort through the new remote sensing and 
spacecraft technologies of its Earth Observing System (EOS) mission. 
The President also directed the DOD, DOC, and NASA to establish an 
Integrated Program Office (IPO) to manage this converged system. On May 
26, 1995, DOD, DOC, and NASA signed the Memorandum of Understanding 
that provides the guidelines under which the IPO operates. Under the 
terms of the MOU, NOAA has overall responsibility for the converged 
system, as well as satellite operations; DOD has the lead on the 
acquisition; and NASA has primary responsibility for facilitating the 
development and incorporation of new technologies into the converged 
system. NOAA and DOD equally share NPOESS costs, while NASA funds 
specific technology projects and studies.
    NPOESS is a major system acquisition estimated to save 
approximately $1.6 billion to the taxpayer compared to the cost of 
operating 2 separate systems. NASA, in cooperation with NOAA, will 
launch the NPOESS Preparatory Program (NPP) satellite in 2006 as a risk 
reduction/early delivery program for 4 critical NPOESS sensors, early 
delivery, test and evaluation of the command and control and data 
retrieval for NPOESS.
Geostationary Systems
    In response to validated user requirements from Federal, state, and 
local government agencies, private sector, and academia, NOAA is 
developing its next generation of geostationary and polar-orbiting 
satellites. The GOES R-Series will continue the NOAA-NASA partnership 
for geostationary satellites but with the prospect of greater 
integration of activities. To effectively and efficiently meet the GOES 
R-Series system requirements, a complete end-to-end (data sensing to 
information access) approach must be adopted. To facilitate this end-
to-end approach, the NOAA-NASA teams are being more closely integrated 
so that the space and ground systems are developed and acquired as one, 
not separately, to ensure launch by 2012. The instruments on the GOES-R 
will continue to fly the space environment monitoring sensors.
Select Examples of NOAA, NASA, and DOD Cooperation
    The 3 agencies collaborate in many efforts that are complementary 
and mutually beneficial. Highlights of select examples of NOAA, NASA, 
and DOD cooperation are listed below:
Sensor Development
    For many years, NOAA and NASA had a unique relationship developing 
instruments for Earth observing satellites. NASA funded and conducted 
the Operational Satellite Improvement Program (OSIP) from 1964 to 1982. 
The specific purpose of the OSIP was to improve NOAA's operational 
system by developing, testing, and demonstrating new components of the 
operational system, or improving the existing components, before NOAA 
made them integral to the operational system. The program funded 
``first unit developments'', bringing research and development to the 
level needed for hand-off to NOAA operations. Under this program, NASA 
funded the first of the series of polar orbiters--Television and 
Infrared Observation Satellite (TIROS-N) and Improved TIROS Operational 
System (ITOS-I)--and NOAA funded the follow-ons. NASA also funded the 2 
prototype GOES, and the addition of an atmospheric sounding capability 
to the GOES imager system.
    Continuing the sensor development activities discussed above for 
GOES, POES, and NPOESS, NOAA's research Environmental Technology 
Laboratory has been involved in studies of various remote sensors such 
as microwave sounders, lidars and radar systems and has worked with DOD 
on the properties of ocean surfaces, and their interaction with radio 
waves. NOAA's ocean laboratories and university partners have developed 
systems that are used to calibrate ocean measurements from satellites.
Research to Operations
    NOAA and NASA have recognized the value of definitive plans for the 
process of handling research to operations. Working closely with NASA, 
NOAA is working to develop its own technology infusion roadmaps, as a 
follow-up to NASA's Earth Science Enterprise Research Strategy and 
Application Strategy roadmaps. NASA's Moderate-resolution Imaging 
Spectroradiometer (MODIS) (a multichannel imager flying on NASA's TERRA 
and AQUA satellites) is the research predecessor for NPOESS' 
operational Visible/Infrared Imaging Radiometer Suite (VIIRS) 
instrument. NASA's Atmospheric Infra-red Radiation Sounder (AIRS) is 
now flying on NASA's AQUA satellite and providing atmospheric profiles 
of temperature and humidity. Information from the NPOESS Cross-track 
Infra red Sounder (CrIS) and the GOES Hyperspectral Environmental Suite 
(HES) will be used by NOAA customers much in the same fashion as AIRS 
is today.
    NOAA and NASA jointly funded a study by the National Academy of 
Sciences/National Research Council Committee on NASA-NOAA Transition 
from Research to Operations (CONNTRO). The May 2003 final report is 
called ``Satellite Observations of the Earth's Environment, 
Accelerating the Transition from Research to Operations.'' 
Recommendations from that report are being examined and jointly 
considered by NASA and NOAA. In an effort to maintain cognizance of 
technologies being undertaken by DOD agencies, NOAA participates in 
regular meetings with the intelligence community, the U.S. Air Force 
Space Technology organization (called National Space Architecture), and 
the U.S. Navy Space Experiments Review Board (SERB).
Collaborative Activities in Ground Systems Support
    NOAA operates two Command and Data Acquisition Stations (CDAS), one 
in Wallops, Virginia (WCDAS), and the other in Fairbanks, Alaska 
(FCDAS), and a Satellite Operations Control Center in Suitland, 
Maryland. The primary responsibility of the CDAS is to track, command, 
and receive telemetry and imagery data from NOAA's geostationary and 
polar orbiting spacecraft. In addition to supporting the NOAA 
spacecraft, the CDAS provide a wide range of cooperative support 
services for NASA and DOD. The FCDAS is a primary site for acquiring 
data from DMSP on a cost reimbursable basis.
    NOAA is also partnering with the U.S. Navy in the acquisition of 
data from the Windsat/Coriolis mission. Beginning in January 2003, 
FCDAS began acquiring data from this spacecraft which provides ocean 
surface wind information and important risk-reduction for similar 
instruments planned for NPOESS. The FCDAS is also a telecommunications 
hub for the NASA EOS spacecraft AQUA, flowing data from the NASA 
antennas at Poker Flats, Alaska to processing centers in the lower 48 
states. FCDAS and WCDAS also track and gather space environmental data 
from the NASA IMAGE and ACE spacecraft to support NOAA's Space 
Environment Center's operations in Boulder, Colorado.
    NASA and NOAA also are exploring mutual backup agreements for 
spacecraft data acquisitions at both Fairbanks and Wallops to provide a 
more robust ground to satellite network.
Products and Services Developed Through Collaborative NOAA, NASA, and 
        DOD Efforts
    There are a number NOAA products and services that are developed 
using data from NOAA, NASA, and DOD. Select examples include:
Search and Rescue Satellite-Aided Tracking (SARSAT) System
    SARSAT operates on the NOAA POES and GOES spacecrafts. The purpose 
of the SARSAT program is to relay distress alert and location 
information to search and rescue organizations worldwide. In order to 
coordinate U.S. activities in support of this program, NOAA has 
established a partnership with the U.S. Air Force, the U.S. Coast 
Guard, and NASA for the operation of the system. To date, the SARSAT 
program is credited with rescuing approximately 14,000 people 
worldwide.
Satellite Data Assimilation
    The Joint Center for Satellite Data Assimilation (the Center) is a 
formal tri-agency program among NOAA, NASA, and DOD to improve 
utilization of satellite data, and prepare for future instruments in 
numerical weather prediction models. The goal of the Center is to 
accelerate and improve the scientific methods for assimilating 
satellite observations into operational numerical models. Established 
in FY2002, the Center now has critical mass of scientists from NASA, 
NOAA, and DOD are collocated in a new joint facility at the World 
Weather Building in Camp Springs, Maryland. Through explicit 
coordination and joint funding of research, the agencies have realized 
several improvements to operational forecasts, for example, by 
incorporating NASA research satellite data and improving radiative 
transfer methods.
Human Space Flight Support
    The NOAA's National Weather Service has a long history of providing 
weather support for NASA. In the past, NOAA provided direct weather 
support to NASA for the Mercury, Gemini, Apollo, and other programs. 
The Spaceflight Meteorology Group (SMG) of NOAA's National Weather 
Service provides meteorological support for launches and landings of 
the Space Shuttle and other programs. SMG provides unique world-class 
weather support to the U.S. Human Spaceflight effort by providing 
weather forecasts and briefings to NASA personnel. Space radiation 
information and forecasts used in the flight operations for both the 
Space Shuttle and the Space Station, comes directly from NOAA's Space 
Environment Center to NASA before and during all Shuttle flights.
Space-based Oceanography
    NOAA utilizes data from DOD and NASA spacecraft to implement its 
ocean and coastal mission. Extensive use of Sea-viewing, Wide-Field-of-
view Sensor (SeaWiFS) data from a joint NASA-Orbital Imaging mission is 
used to support biological oceanography. Data from the JASON missions 
operated by NASA and the European Space Agency, measures sea surface 
height. These data are used in hurricane forecasting models. Sea 
surface temperature remains a critical requirement of many agencies to 
support their respective missions.
    NOAA's Coastal Remote Sensing Program (CRS) includes activities 
such as the Coastal Change Analysis Program and other marine 
applications of satellite data such as harmful algal blooms, ocean 
color, and sea surface temperature. Other activities include NOAA's 
Coastal Change Analysis Program, land cover analysis, benthic habitat 
mapping, estuarine habitat, coastal water quality, harmful algal bloom 
forecasts, and topographic change mapping.
    In conclusion, Mr. Chairman and members of the Subcommittee, NOAA 
is pleased to have had the opportunity to provide you an overview of 
our collaborative activities with NASA and DOD in the area of space 
exploration and space activities. A key element to our strategy is 
partnering with other agencies, such as NASA and DOD, the space 
industry, our international partners, and academia. These partnerships 
have proved to be wise investments for NOAA and the Nation.
    Mr. Chairman and Subcommittee members, this concludes my testimony. 
I would be happy to answer any questions.

    Senator Brownback. Thank you, Mr. Withee, very much.
    Dr. Michael J.S. Belton, Ph.D., is the Chair of the Solar 
System Exploration Survey Committee of the National Research 
Council in Washington, is also president of Belton Space 
Exploration Initiatives and emeritus astronomer at the National 
Optical Astronomy Observatory, in Tucson, Arizona.
    Delighted to have you with us. Dr. Belton?

      STATEMENT OF MICHAEL J. S. BELTON, Ph.D., CHAIRMAN,

         NRC SOLAR SYSTEM EXPLORATION (DECADAL) SURVEY;

        EMERITUS ASTRONOMER, NATIONAL OPTICAL ASTRONOMY

            OBSERVATORY AND PRESIDENT, BELTON SPACE

                  EXPLORATION INITIATIVES, LLC

    Dr. Belton. Thank you very much, Mr. Chairman, Members of 
the Committee. I'm very happy to be here to discuss the future 
of solar system exploration with you.
    The survey was actually finished--the Decadal Survey on 
Solar System Exploration was actually finished about a year ago 
and will finally hit the streets as a published thing in a very 
short period of time. But, nevertheless, in that one year, what 
we have seen is, NASA developed the strategic plan, the new 
three-year plan, and most of the things--in fact, essentially 
all of the things that the space exploration--well, solar 
system exploration community put in their report are, in fact, 
co-opted in the NASA plan. And I have to tell you that we're 
exceedingly pleased about that. It's a very exciting plan.
    The survey, itself, was a grassroots activity, although it 
was initiated through the NRC by NASA, but basically everybody 
in the community, one way or another, was involved. We spent a 
lot of time in various committees funneling down the 
information through five panels, and then finally to my group 
that put together the final recommendations.
    Since that time, not only has NASA picked up and coopted 
most of our recommendations, but essentially all of the major 
groups, official groups, within the community have given strong 
endorsements to the survey.
    Its recommendations are for a very strong and competitive 
flight program based on a few key scientific questions and a 
sound infrastructure, research infrastructure, and also 
including public outreach. We also put great store on a very 
forward-looking technology program, which we also see reflected 
in the NASA plans for the next 5 years.
    Solar system exploration remains a compelling activity, 
because within our grasp are the answers to some very, very 
significant and what we believe are profound questions. So is 
life--does life exist or did it exist beyond the Earth? Are we 
alone? That's one of the questions that we believe we can 
answer with the Mars Exploration Program that Dr. Figueroa's 
already described to you. Where did we come from? How did life 
get established on the Earth? We believe that we can contribute 
to that one, that question, also. And then, finally, what is 
our destiny? There are aspects of the future of human 
civilization which depend upon random events occurring from the 
population of objects in the vicinity of the Earth.
    We put our report together around four integrating themes 
that we believe should guide this endeavor for the next 10 
years. The first billion years of solar system history is a 
critical element of that. We know very little about it, how the 
planets were put together and the time, in that first billion 
years, when life finally found its way to the Earth and became 
established there. We're trying to learn about that. And the 
program has elements within it to address some of those 
questions.
    Volatiles and organics throughout the solar system, we know 
they exist in great abundance in the far reaches of the solar 
system. We want to know how they got to the Earth and the inner 
solar system. They're the ``stuff of life,'' if you like.
    And then we'd want to have some emphasis on the topic of 
the origin and evolution of habitable worlds. We want to know 
why Mars and why Venus is so different from the Earth, even 
though the processes that were involved in their formation were 
presumably quite similar.
    And then, finally, we're very interested in just processes, 
in trying to understand how the laws of physics apply on these 
large scales within the solar system and how the things that we 
see in space can be properly explained in terms of those laws.
    So this program of vital spaceflight has to have a mix of 
small missions, of medium-sized missions to do more complex 
things, and then just a few very complicated missions. Perhaps 
once a decade we feel they ought to be flown. We've suggested 
to NASA that they maintain their Discovery Program, which is a 
small mission program that basically invites individuals within 
the community, within the country, to use their cleverness and 
excitedness about this kind of exploration to invent new 
missions and not have everything done by committee.
    We also want a New Frontiers Program, which is in the 
President's budget for 2003 and 2004, and we've suggested a 
system of flight missions that is exceedingly exciting, and 
prioritized those for them. We want to see an exploration of 
the Kuiper Belt and its largest member, the Pluto-Charon 
System. We want to get back to the moon and bring some samples 
back from near the South Pole, which can tell us a lot about 
what happened in the Earth-moon vicinity in the first billion 
years. We want to go to Jupiter. We want to go to Venus, and we 
want to go to a comet and bring back some of these organics and 
really take a look at them in the laboratory to understand 
exactly what they are and how they're made up.
    So the future of solar system exploration, to us, looks 
very, very bright in the community. NASA is taking all of the 
technological and programmatic steps we think necessary to 
support future missions that'll provide the answers to a lot of 
the questions that I posed right at the very beginning.
    I think that if we can find it within ourselves in this 
country to support this program in the way that it's now being 
laid out for the next 10 years, or 5 years, by NASA, we'll be 
able to really get to grips with these fundamental questions 
that I talked about early on.
    So thank you very much for inviting me here. I'm very 
excited about this, and so are my colleagues in the community.
    [The prepared statement of Dr. Belton follows:]

Prepared Statement of Michael J. S. Belton, Ph.D., Chairman, NRC Solar 
  System Exploration (Decadal) Survey; Emeritus Astronomer, National 
      Optical Astronomy Observatory, and President, Belton Space 
                      Exploration Initiatives, LLC
    Good afternoon, Mr. Chairman and members of the Committee. My name 
is Michael Belton, and I served as Chairman of the Solar System 
Exploration (Decadal) Survey for the Space Studies Board of the 
National Research Council. The NRC is the operating arm of the National 
Academy of Sciences, chartered by Congress in 1863 to advise the 
government on matters of science and technology. I am also an Emeritus 
Astronomer at the National Optical Astronomy Observatory and President 
of Belton Space Exploration Initiatives, LLC, in Tucson, Arizona. I 
have been involved in space exploration for most of my professional 
life and have been an investigator on several NASA flight missions 
including Mariner Venus-Mercury, Voyager, Galileo, Contour and Deep 
Impact.
    The Office of Space Science of the National Aeronautics and Space 
Administration sponsored the SSE Survey to chart a bold strategy for 
general solar system and Mars exploration over the next decade. The 
Survey, which reported in July 2002, derived its recommendations and 
priorities by looking even farther into the future and is based on 
direct and well-considered inputs from the scientific community and 
interested public organizations. It has, achieved a broad consensus of 
opinion in these communities. Its recommendations are for a strong, 
competitive, flight program based on a few key scientific questions, a 
sound research infrastructure including public outreach, and a forward 
looking technology program that I expect will obtain the most 
innovative and cost effective mission solutions.
    A critical element of the charge to the Survey was to formulate a 
``big picture'' of solar exploration--what it is, how it fits into 
other scientific endeavors, and why it is a compelling goal today. We 
were also tasked to develop an inventory of top-level scientific 
questions and provide a prioritized list of the most promising avenues 
for flight investigations and supporting ground-based activities for 
the period 2003-2013.
    In performing the Survey we took care to trace the relationships 
between basic motivational questions of interest to the public at large 
and the scientific objectives, integrating themes, key scientific 
questions, and prioritized mission list that form the core of our 
recommendations. Solar system exploration remains a compelling activity 
because it places within our grasp answers to basic questions of 
profound human interest--Are we alone? Where did we come from? What is 
our destiny? Mars and icy satellite explorations may soon provide an 
answer to the first question; exploration of comets, primitive 
asteroids and Kuiper Belt objects may have much to say about the 
second; surveys of near-Earth objects will say something about the 
third.
    Although the scientific goals of NASA's Solar System Exploration 
program have been quite stable, in recent years the emphasis has 
increased in two areas--the search for the existence of life, either 
past or extant, beyond Earth, and the development of detailed knowledge 
of the near-Earth environment in order to understand what potential 
hazards to the Earth may exist. The field of astrobiology has become an 
important element in solar system exploration and there is an 
increasing interest in learning more about objects that could collide 
with the Earth at some future time.
    The Survey developed four integrating themes to guide solar system 
exploration in the coming decade:

  <bullet> The First Billion Years of Solar System History.--This 
        formative period propelled the evolution of Earth and the other 
        planets, including the emergence of life on Earth, yet this 
        epoch in our Solar System's history is poorly known.

  <bullet> Volatiles and Organics; The Stuff of Life.--Life requires 
        organic materials and volatiles, notably liquid water, 
        originally condensed from the solar nebula and later delivered 
        to the planets by organic-rich cometary and asteroidal debris.

  <bullet> The Origin and Evolution of Habitable Worlds.--Our concept 
        of the ``habitable zone'' is being expanded by recent 
        discoveries on Earth and elsewhere in the Solar System. 
        Understanding our planetary neighborhood will help to trace the 
        evolutionary paths of the planets and the fate of our own.

  <bullet> Processes; How Planets Work.--Understanding the operation of 
        fundamental processes is the firm foundation of planetary 
        science, providing insight to the evolution of worlds within 
        our Solar System, and planets around other stars.

    With these four themes agreed to, the Survey was able to prioritize 
among the literally hundreds of scientific questions of interest to the 
community. The resulting set of twelve key questions with high 
scientific merit should guide the selection of flight missions over the 
next decade. We measure the scientific merit of a question by asking 
whether its answer has the possibility of creating or changing a 
paradigm, whether the new knowledge might have a pivotal effect on the 
direction of future research, and to what degree the knowledge that 
might be gained would substantially strengthen the factual basis of our 
understanding.
    The twelve key questions, grouped within the four themes, are:

        The First Billion Years of Solar System History.

     1.  What processes marked the initial stages of planet and 
            satellite formation?

     2.  How long did it take the gas giant Jupiter to form, and how 
            was the formation of the ice giants different from that of 
            the gas giants?

     3.  What was the rate of decrease in the impactor flux throughout 
            the solar system, and how did it affect the timing of the 
            emergence of life?

        Volatiles and Organics; The Stuff of Life.

     4.  What is the history of volatile material; especially water, in 
            our Solar System?

     5.  What is the nature and history of organic material in our 
            Solar System?

     6.  What planetary processes affect the evolution of volatiles on 
            planetary bodies?

        The Origin and Evolution of Habitable Worlds.

     7.  Where are the habitable zones for life in our Solar System, 
            and what are the planetary processes responsible for 
            producing and sustaining habitable worlds?

     8.  Does (or did) life exist beyond the Earth?

     9.  Why did the terrestrial planets diverge so dramatically in 
            their evolution?

    10.  What hazards do Solar System objects present to Earth's 
            biosphere?

        Processes; How Planets Work.

    11.  How do the processes that shape the contemporary character of 
            planetary bodies operate and interact?

    12.  What does our solar system tell us about other solar systems, 
            and vice versa?

    To advance the subject these scientific themes and key questions 
must be addressed by a series of spaceflights of different sizes and 
complexities. Also, as resources are finite, these proposed new flight 
missions must be prioritized.
    It is important at this juncture to understand that the foundation 
on which the Survey's priorities rest must also be maintained and 
secured. The top-level programmatic priorities that are required to 
provide the foundation for productivity and continued excellence in 
solar system exploration are:

  <bullet> Continue approved Solar System Exploration programs, such as 
        the Cassini-Huyens mission to Saturn and Titan, those in the 
        Mars Exploration Program, the Discovery Program of low-cost 
        missions, and ensure a level of funding that is adequate for 
        both the successful operations and the analysis of the data and 
        publication of the results of these missions.

  <bullet> Assure adequate funding for fundamental research programs, 
        follow-on data analysis programs and technology development 
        programs that support these missions.

  <bullet> Continue to support and upgrade the technical expertise and 
        infrastructure in implementing organizations that provide vital 
        services to enable and support Solar System exploration 
        missions.

  <bullet> Continue to encourage, facilitate and support international 
        cooperation in its Solar System exploration flight programs.

    Maintaining a mix of mission size is also important. For example, 
many aspects of the key science questions can be met through Discovery 
class missions (<$325 M), while other high-priority science issues will 
require larger, more expensive projects. Particularly critical in our 
strategy is the New Frontiers line of missions ($325-650 M), which are 
Principal-Investigator (PI) led, medium class, competed missions. This 
line was proposed in the President's FY 2003 budget submission before 
the Survey was completed. The Survey strongly supported the proposal to 
establish a New Frontiers line of competitively procured flight 
missions with a total mission cost of approximately twice the Discovery 
cap.
    Experience has also shown that large missions that enable extended 
and scientifically multi-faceted experimentation are an essential 
element of the mission mix. The Survey recommended that the development 
and implementation of Flagship (>$650M) missions, comparable to Viking, 
Voyager, Galileo, and Cassini-Huygens, be at a rate of about one per 
decade to provide for the comprehensive exploration of science targets 
of extraordinarily high priority.
    Within this structure the Survey recommended the following 
prioritized flight program of missions in general solar system 
exploration in the period 2003-2013. It must be emphasized that, at 
NASA's request, the prioritization was done within cost classes and not 
over the entire list. Also by NASA's request, the priorities for the 
Mars Exploration Program were kept separate from the priorities for the 
Solar System Exploration Division.

        Small Class

    1.  Discovery missions (at a frequency of approximately 1 every 18 
            months)

    2.  Cassini Extended Mission

        Medium Class

    1.  Kuiper Belt/Pluto

    2.  South Pole Aitkin Basin Sample Return

    3.  Jupiter Polar Orbiter with Probes

    4.  Venus In-situ Explorer

    5.  Comet Surface Sample Return

        Large Class (at a frequency of approximately 1 every decade)

    1.  Europa Geophysical Explorer

    For the Mars exploration program the Survey recommended that in the 
coming decade the flight program should focus on missions that get down 
onto the surface of the planet with the ultimate goal of implementing 
Mars Sample Return missions in the period immediately following the 
current decade. It is believed that such samples are necessary to 
settle the question of the presence of life. The Survey recommended the 
following flight mission priorities for Mars exploration in the period 
2006--2013:

        Small Class

    1.  Mars Scout line

    2.  Mars Upper Atmosphere Orbiter

        Medium Class

    1.  Mars Smart Lander

    2.  Mars Long-lived Lander Network

        Large Class

    1.  Mars Sample Return (Preparation for flight missions in the next 
            decade)

    In addition the Survey committee counseled that NASA should seek to 
engage international partners at an early stage in the planning and 
implementation of Mars Sample Return; that the Mars Smart Lander (MSL) 
while addressing high priority science goals, should take advantage of 
the opportunity to validate technologies required for sample return, 
and that the Scout program should be structured like the Discovery 
program, with PI leadership and competitive missions. The Survey 
advocated that a Scout mission should be flown at every other Mars 
launch opportunity.
    This future program for solar system exploration laid out above 
clearly requires a mix of Medium and Large class missions to adequately 
challenge current scientific paradigms. It also requires that small 
missions whether Discovery class, Mars Scout, or mission extensions, 
provide focused ways of responding quickly to discoveries made or 
provide vehicles for entrepreneurial creativity and new scientific 
ideas. Our proposed Kuiper Belt-Pluto mission may well be the last 
great reconnaissance mission within solar system exploration and, with 
it completed, we can expect that the program will rapidly enter a phase 
of large and medium class missions operating on the surfaces of planets 
or within their atmospheres and plasma environments. These missions 
will utilize technologies, yet to be practically developed, that will 
enable long sojourns, power advanced instrumentation, and return 
samples to the Earth. The inclusion of Project Prometheus and the 
optical communications initiative in the President's FY 2004 budget 
submission are two excellent examples of the type of technology 
development that is needed to move solar system exploration forward.
    The Survey recognized that a significant investment in advanced 
technology development is needed in order for both the recommended 
flight missions to succeed and to provide a basis for increased science 
return from future missions. The following list of future possible 
missions (unprioritized) with high science value was noted by the 
Survey and gives some idea of the technical challenges that lie ahead:




Terrestrial Planet Geophysical Network                     Trojan/Centaur Reconnaissance Flyby

Asteroid Rover/Sample Return                               Io Observer

Ganymede Observer                                          Europa Lander

Titan Explorer                                             Neptune Orbiter with Probes

Neptune Orbiter/Triton Explorer                            Uranus Orbiter with Probes

Saturn Ring Observer                                       Venus Sample Return

Mercury Sample Return                                      Comet Cryogenic Sample Return



    The Survey identified the following areas in which we believe that 
technology development is appropriate:
 Power:                          Advanced RTGs and in-space nuclear
                                 fission reactor power sourcePropulsion:                     Nuclear electric propulsion, advanced
                                 ion engines, aerocaptureCommunication:                  Ka band, large antenna arrays, and
                                 optical communicationArchitecture:                   Autonomy, adaptability, lower mass,
                                 lower powerAvionics:                       Advanced packaging and miniaturization,
                                 standard operating systemInstrumentation:                Miniaturization, environmental
                                 (Temperature, Pressure, radiation)
                                 toleranceEntry to Landing:               Autonomous entry, hazard avoidance,
                                 precision landingIn-Situ Ops:                    Sample gathering, handling and analysis,
                                 drilling, instrumentationMobility:                       Surface, aerial, subsurface, autonomy,
                                 hard-to-reach accessContamination:                  Forward contamination avoidanceEarth Return:                   Ascent vehicles, in-space rendezvous and
                                 Earth return systems
    These technology areas were not prioritized by the Survey. 
Nevertheless, I note that in-flight power and nuclear electric 
propulsion initiatives were included in the 2003 budget request and 
appear again in the 2004 request as Project Prometheus. Also, there are 
other elements of the above list that are, I believe, being actively 
considered for inclusion in a future mission in NASA's New Millennium 
program.
    The road that leads to the future of any endeavor is usually well 
defined only at its start. And quickly, the future becomes obscured by 
latent uncertainties: the possibility of new discoveries, of changing 
paradigms, changes in national policy, blind alleys, and funding 
pleasures and disappointments. Solar system exploration is no exception 
and in the time since the Survey was completed and published I have 
felt great excitement and considerable pleasure as important elements 
of our strategic plan have been proposed to Congress and move, 
hopefully, towards reality. The New Horizons mission, which I believe 
can fulfill our goals at the Kuiper belt and Pluto, is seeing strong 
support; the proposed Jupiter Icy Moons Mission will more than fulfill 
our goal of a flagship mission to further explore the subsurface oceans 
on Europa while simultaneously applying the new technologies that the 
Survey advocates as a basis for much of the future program. The most 
important of these new technologies--in-flight power and nuclear 
electric propulsion--are adequately covered in the proposed Project 
Prometheus. The New Frontiers program is going ahead and we await 
details of how NASA intends to implement this program to include the 
flight priorities that we have advocated. Finally, the research 
infrastructure, which underlies the flight program, also appears to be 
drawing adequate support.
    The tragic Columbia accident will no doubt have effects on this 
program in ways that I cannot anticipate. Whether these effects will be 
positive or negative remains to be seen. However, I note the old 
proverb ``much good can often come out of adversity.'' Since the end of 
the Apollo Program, the human spaceflight program has served to enable 
a number of robotic missions (the Shuttle has been needed to launch 
important spacecraft such as the Ulysses, Magellan, and Galileo probes, 
and the Hubble Space Telescope), but has not played a direct role in 
the exploration of other solar system bodies. In the distant future I 
expect that this may change in some elements of the program. Human 
exploration of Mars is a long spoken of goal but faces major technical 
challenges. A second area is the protection of the Earth from a 
potentially hazardous near-Earth object on a collision course. The role 
of humans, if any, in such an endeavor has not yet been satisfactorily 
worked out and, in my opinion, deserves attention.
    In conclusion, the future of solar system exploration appears to be 
very bright. NASA is taking the technological and programmatic steps 
necessary to support future missions that will explore our solar system 
in astounding detail. Supported by the strategy laid out in the Survey, 
future solar system exploration will enable us to answer three 
fundamental human questions: Are we alone? Where did we come from? What 
is our destiny?

    Senator Brownback. Thank you very much for that excellent 
presentation, Dr. Belton, and I look forward to some questions 
and dialogue with you a little bit later.
    Our final panelist is Dr. Louis Lanzerotti, Ph.D. He's a 
distinguished member of the technical staff, Bell Laboratories, 
Lucent Technologies, out of New Jersey.
    Delighted to have you here. And you also have other 
experiences in your background that will help you testify here 
today for us. Thanks for joining us.

        STATEMENT OF LOUIS J. LANZEROTTI, DISTINGUISHED

            RESEARCH PROFESSOR, NEW JERSEY INSTITUTE

           OF TECHNOLOGY, CONSULTING PHYSICIST, BELL

        LABORATORIES, LUCENT TECHNOLOGIES, AND CHAIRMAN,

           SOLAR AND SPACE PHYSICS SURVEY COMMITTEE,

                   NATIONAL RESEARCH COUNCIL

    Dr. Lanzerotti. Well, thank you, Mr. Chairman, and it's a 
pleasure to be here. And, Senator Nelson, glad to be here. I 
remember appearing before one of your Committees, Senator 
Nelson, when you were in the House many years ago, and it's 
good to see you again.
    I'm here to talk about solar and space physics research in 
the Nation. Solar and space physics is basically a study of the 
sun, and predominantly the environment, space environment, 
between the sun and the planets and around the Earth. And it 
has been and is a exceptionally vibrant and important field of 
research since the discovery of sunspots by Galileo in the 17th 
century, and certainly since the discovery of the Van Allen 
radiation belts around the Earth, in 1958, 40 years ago, at the 
dawn of the space age.
    But not only is a study of the sun and the Earth of 
tremendous scientific interest and continuing interest, but 
this research also has important relevance for the increasing 
number of modern technologies that fly in space that can be 
affected by the solar and space environment. And Mr. Withee 
addressed those quite well in his statement.
    And, in fact, this environment affects human spaceflight 
and the humans both in low-Earth orbit and ultimately in high-
Earth orbit and as we go back to the moon and to Mars and as 
well as airliners that fly over the polar regions at the time 
of solar disturbances, make use of--airlines make use of the 
warnings that are provided by NOAA.
    So late in the year 2000 or so, NASA, NOAA, the National 
Science Foundation, Office of Naval Research, and Air Force 
Office of Scientific Research all joined together and asked the 
National Research Council to conduct a comprehensive study of 
the current status and the future directions of U.S. ground-
based and space-based research programs in solar and space 
physics because of its scientific importance, because of its 
relevance to society, and growing relevance to society. And so 
this Decadal Survey was carried out in parallel with the Solar 
System Planetary Exploration Survey that Dr. Belton just spoke 
about.
    We really don't understand the underlying driving physical 
processes for all the temporal and cyclical changes that we see 
in the sun and that the sun produces at Earth and all those 
environmental changes that we see in the upper atmosphere, from 
the Aurora to changes in the Van Allen radiation belts.
    So this Decadal Survey sets out five broad challenges that 
define where--taking what we know now, what we have learned 
from such incredible missions as the NASA SOHO mission, for 
example, and several other NASA spacecraft missions in the 
Earth's magnetosphere--to say where we should be going in the 
next decade, and establish a specific integrated program 
prioritized both on scientific impacts, as well as societal 
relevance, and that apply to these agencies that sponsor this 
study--NOAA, NASA, NSF, and the DOD, the Office of Naval 
Research, and the Air Force Office of Scientific Research.
    And I want to emphasize that the prioritized 
recommendations fit within realistic budget guidelines, as 
well, and they are in this report that you have in front of 
you. These guidelines, we received from the several sponsoring 
agencies just to make sure that we weren't going off in crazy 
ways, in terms of budgetary implications, but, nevertheless, 
making sure that we were really addressing the key scientific 
and societal issues.
    As I said, we've had some tremendous understandings of the 
sun. We can now see the interior of the sun--infer the interior 
of the sun, its oscillations with time, but we still don't 
understand some of the fundamentals, certainly don't understand 
some of the fundamental underlying drivers of the sun.
    And so one of the five challenges that we identified was to 
significantly advanced our understanding of the sun's 
structure. And it will be addressed by a NASA solar probe 
mission that will fly closer to the sun than any spacecraft to 
date, make measurements at the very source region of the solar 
wind which flows out from the sun, fills the whole space 
environment of the solar system, and impacts Earth and Earth's 
magnetosphere.
    This challenge is also being addressed by a National 
Science Foundation initiative called the Frequency Agile Solar 
Radio Telescope, which is an array of radio telescopes on 
Earth, to understand in detail some of the phenomenology and 
details of solar activity at very small spatial scales, 
together with optical measurements that are in progress and are 
ongoing.
    Since the Van Allen belts, we have had tremendous 
understanding of the Earth space environment, but there are 
many challenges in the temporal changes. And the challenge for 
making further large understandings of the behavior of the 
Earth's environment will be addressed by a number of sequential 
NASA missions, of which the first priority is called the 
Magnetospheric Multiscale Mission. This is four spacecraft 
flying, in a coordinated fashion, to try to understand better 
and get a handle on the basic physics underlying the energy 
transfer from the sun, the solar wind, into the Earth's 
magnetosphere.
    And, in parallel, there's an NSF initiative called the 
Advanced Modular Incoherent Scatter Radar, AMISR. I'm sure all 
of you have heard about that. This radar will acquire critical 
new data from the upper atmosphere at the very high latitudes 
on the Earth. These are regions that affect radio 
communications and radar transmissions and those types of 
things.
    Finally, a third of the five challenges--I can't address 
all of them this afternoon in my oral testimony--is an 
especially important one. It's identified in a report that 
involved space weather. And, particularly, it's a development 
of a real-time predictive capability for anticipating and 
perhaps eventually being able to mitigate the impacts of solar 
disturbances on Earth. Space weather. Mr. Withee spoke about 
this. This is part of the National Space Weather Program, which 
is a joint initiative by DOD, NASA, NOAA, and NSF. And a 
central recommendation of our survey study is that NOAA, 
through its Space Environment Center, assume the responsibility 
for a new, and continuing then, spacecraft to monitor solar 
emissions before they reach Earth. At the present time, these 
studies are being carried out by a more scientifically-oriented 
spacecraft. They're doing a very good job, but their time in 
space is running out. They're old, and we need a new and 
continuing spacecraft called the Upstream Solar Wind Monitor. 
The NOAA Space Environment Center is, even now--as Mr. Withee 
pointed out, but I will say, as a civilian--is even now our 
central national resource for information on space weather, and 
NOAA, taking the responsibility for a upstream monitor for the 
solar wind in the future, will make a tremendous impact on the 
U.S.'s capability for understanding space weather.
    In summary, our survey report provides the directions for 
the next decade for this important research field. Priorities 
are established, resource requirements are realistic. Exciting 
new understandings of the Earth and the sun will result, as 
will very important practical applications for society.
    Thank you very much for being able to be here.
    [The prepared statement of Dr. Lanzerotti follows:]

   Prepared Statement of Louis J. Lanzerotti, Distinguished Research 
 Professor, New Jersey Institute of Technology, Consulting Physicist, 
 Bell Laboratories, Lucent Technologies, and Chairman, Solar and Space 
          Physics Survey Committee, National Research Council
    Good afternoon, Mr. Chairman and members of the Committee. My name 
is Louis Lanzerotti, and I served as Chairperson of the Solar and Space 
Physics Decadal Survey for the Space Studies Board of the National 
Research Council. The NRC is the operating arm of the National 
Academies, initially chartered by Congress in 1863 to advise the 
government on matters of science and technology. I am also 
Distinguished Research Professor at the New Jersey Institute of 
Technology and a consulting physicist at Bell Laboratories, Lucent 
Technologies.
    I am here today to provide an overview of the future of solar and 
space physics during the corning decade. I would like to begin by 
giving you some context for this area of science.
    The Sun is a variable, magnetic star. Solar and space physics 
research focuses on understanding the activity of our Sun and its 
effects on the Earth and the other planets. It also seeks to understand 
the physical processes that take place in the area in space around 
planets, including Earth. These planetary space environments are 
regions of ionized gas (or plasma) whose motions are subject to the 
influence of magnetic and electric fields. Solar and space physics 
seeks finally to explore and understand the interaction of the Sun with 
our galactic environment; that is, with the gas and dust between our 
solar system and near-by stars. Within this interstellar cloud, the 
solar wind, a continuous supersonic outflow of magnetized plasma from 
the Sun, not only interacts with the Earth and planets, but also 
inflates an enormous bubble, the heliosphere, whose boundaries lie far 
beyond the orbit of Pluto and have yet to be explored. It is the entire 
heliosphere that is the domain of solar and space physics.
    The knowledge that space physicists gain through their study of the 
Sun and solar system plasmas are very often applicable to the study of 
distant stars and galaxies and are related to laboratory plasma 
research. And, very importantly, in the particular case of the 
interactions of solar emissions with the Earth, this research has 
considerable practical importance for technological systems and for 
humans in space.
    The explosive release of energy from the Sun--solar storms--
produces a variety of disturbances in the Earth's space environment. 
These disturbances, known as ``space weather,'' can adversely affect 
critical space-based and ground-based technologies and pose potential 
health hazards to astronauts and to the crews and passengers of 
aircraft flying polar routes. Understanding solar activity and its 
effect on the Earth's space environment is key to developing the means 
of understanding and ultimately mitigating the adverse effects of space 
weather. Recognition of the importance of achieving this understanding 
led to the establishment during the past decade of NASA's Living with a 
Star Program and the NSF-led interagency National Space Weather 
Program.
    Another area in which solar and space physics makes important 
contributions of practical value is the study of global climate change. 
Knowledge of both long-and short term variations in the Sun's activity 
and output is critical to distinguish between natural variability in 
the Earth's climate and changes that result from human activity.
    That, in brief, is the scope and content of the field of solar and 
space physics. Since the space age began over 40 years ago, we have 
learned much about the workings of the Sun and the space environments 
of Earth and the other planets. But there are many questions still to 
be answered. In late 2000 the National Aeronautics and Space 
Administration (NASA), the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), the Office of 
Naval Research, and the Air Force Office of Scientific Research asked 
the NRC to conduct a comprehensive study of the current status and 
future directions of U.S. ground-and space-based solar and space 
physics research programs. To carry out this task, a Survey Committee 
and five specialized study panels were established. The findings of the 
study panels were presented to the Survey Committee, which prepared a 
summary report based on the recommendations of the panels as well as on 
its own deliberations. Throughout the study process, the study panels 
and Survey Committee actively sought a broad community consensus with 
input from the wider solar and space physics community.
    The Survey Committee's report, The Sun to the Earth--and Beyond: A 
Decadal Research Strategy in Solar and Space Physics, identifies five 
broad scientific challenges that define the focus and thrust of solar 
and space physics research in the decade 2003 through 2013. Further, 
the report develops specific program priorities that will be needed for 
the four sponsoring Federal agencies, NASA, NSF, NOAA, and DOD, to meet 
these challenges. The Sun to the Earth--and Beyond also identifies key 
technologies that must be developed to meet the immediate and projected 
requirements of solar and space physics research and presents policy 
recommendations designed to strengthen the solar and space physics 
research enterprise. Throughout its deliberations, the Survey Committee 
paid particular attention to the applied aspects of solar and space 
physics--to the important role that these fields play in a society 
whose increasing dependence on space-based technologies renders it ever 
more vulnerable to space weather.
    To address the five scientific challenges set forth in The Sun to 
the Earth--and Beyond, the Survey Committee devised an integrated and 
prioritized set of research initiatives to be implemented in the 2003-
2013 time frame. Nearly all of these initiatives are either planned or 
have been recommended in previous NASA and NSF planning efforts. The 
recommended initiatives fall within four categories: small programs 
(<$250 million); moderate programs ($250-$400 million); one large 
program costing (>$400 million); and ``vitality'' programs that focus 
on the infrastructure for solar and space physics research. To arrive 
at the final recommended set of initiatives, the Committee relied on 
two criteria--scientific importance and societal benefit. Based on 
these criteria, the Committee assigned priorities to the recommended 
initiatives. A complete listing of the Survey Committee's prioritized 
recommendations, along with a thumbnail description of each program, is 
given in Table ES.l of the Executive Summary of the report, which is 
attached to this testimony. Instead of going through the entire list 
with you, it would be more instructive, I think, for me to outline the 
five science challenges identified by the Committee and to indicate the 
role that the four or five highest-priority initiatives will play in 
addressing those challenges during the coming decade.
    Challenge 1: Understanding the Structure and Dynamics of the Sun. 
During the past decade, thanks to several space missions and new 
ground-based observations, we have achieved notable advances in our 
knowledge and understanding of the structure and workings of the Sun's 
interior and the structure and dynamics of the million-degree solar 
atmosphere, the corona. However, answers to certain fundamental 
questions continue to elude us. Why, for example, is the Sun's corona 
several hundred times hotter than the Sun's surface? How is the solar 
wind, which expands from the corona, accelerated to the supersonic 
velocity that is measured in the solar system? How is the very intense 
magnetic energy that is stored in the Sun released both gradually and 
explosively? What is origin of the variability (``turbulence'') 
observed in the solar wind and that affects Earth? To answer these 
questions, the Committee strongly recommends implementation of a NASA 
Solar Probe mission to undertake the first exploration of the regions 
very near the Sun, which is the birthplace of the heliosphere itself. 
Measurements made close to the Sun by a Solar Probe will revolutionize 
our basic understanding of the solar wind. In addition, the Committee 
gave strong endorsement to the development of an advanced ground-based 
radio telescope (funded by NSF), the Frequency-Agile Solar 
Radiotelescope, that will provide a revolutionary new tool to study 
explosive energy release, three-dimensional structure, and magnetic 
fields in the corona.
    Challenge 2: Understanding Heliospheric Structure a11d the 
Interaction of the Solar Wind with the Local Interstellar Medium. We 
have acquired a great deal of new knowledge during the last ten years 
about the inner heliosphere (within the distance of Jupiter's orbit) 
and its changes over the course of a solar cycle--most of our data has 
come from the joint NASA/European Space Agency Ulysses mission, which 
has provided single-point measurements over the poles of the Sun, i.e., 
out of the plane of the planets. The Survey Committee now recommends 
the implementation of a Multispacecraft Heliospheric Mission that would 
place four or more spacecraft in orbit about the Sun at different 
distances and solar longitudes to monitor changes across its entire 
globe. This mission will provide insight into the connections between 
solar activity, heliospheric disturbances, and the effects of the solar 
wind on Earth. This mission will thus represent an important addition 
to our national space weather effort.
    As I noted earlier in my statement, the solar wind inflates a giant 
bubble known as the heliosphere within the local interstellar medium. 
The outer reaches of the heliosphere and its boundary with the 
interstellar medium are among he last unexplored regions of the solar 
system. An Interstellar Probe that could directly sample these regions 
and move beyond the heliosphere to measure the material in the Sun's 
galactic environment has long been a dream of the space science 
community and would be one of the grand scientific enterprises of the 
early 21st century. Implementing such a mission exceeds our present 
technological capacity, however, particularly with respect to 
propulsion and power. The development of nuclear power capabilities in 
the next decade, as is presently planned by NASA, or the development of 
solar sails, would greatly facilitate an interstellar probe mission in 
the future.
    Challenge 3: Understanding the behavior of the space environments 
of Earth and other solar system bodies. Earth's space environment draws 
energy from its interaction with the supersonic solar wind. This 
interaction drives the flow of plasma within the magnetosphere--the 
volume of space controlled by Earth's magnetic field--and leads to the 
storage and subsequent explosive release of magnetic energy in 
disturbances known as geomagnetic storms. (The northern and southern 
auroras are dramatic manifestations of this convulsive energy release.) 
The transfer of energy from the solar wind to the magnetosphere results 
from episodic merging of Earth's geomagnetic field with the portion of 
the Sun's magnetic field that is swept along with the solar wind. This 
process is known as magnetic reconnection. While the general role of 
this energy transfer in affecting the Earth's space environment has 
long been recognized, there are numerous unanswered fundamental 
questions. Therefore the Survey Committee endorsed as its highest 
priority in the moderate program category the NASA Magnetospheric 
Multiscale (MMS) mission, a four-spacecraft Solar Terrestrial Probe 
mission that is designed to study magnetic reconnection inside the 
magnetosphere and at its boundaries.
    Some of the energy extracted from the solar wind is deposited in 
Earth's high latitude upper atmosphere, thus creating the aurora. To 
study the effects of magnetosphere disturbances on the structure and 
dynamics of the upper atmosphere, the Committee has assigned high-
priority in the small program category to the NSF's Advanced Modular 
Incoherent Scatter Radar (AMISR). AMISR's ground-based observations at 
high latitudes will provide essential contextual information for in 
situ, orbital ``snapshot'' measurements by spacecraft missions such as 
the NASA Geospace Electrodynamics Connections (GEC) mission, a Solar 
Terrestrial Probe mission also recommended by the Committee.
    The Committee also emphasizes the scientific importance of 
investigating the complex space environments of other planets. Such 
investigations serve as rigorous tests of the ideas developed from the 
study of Earth's own environment while extending our knowledge base to 
other solar system bodies. Therefore the Committee strongly recommends 
a NASA Jupiter Polar Mission (JPM), which will study energy transfer in 
a magnetosphere that, unlike Earth's, is powered principally by 
planetary rotation instead of by the solar wind. All previous missions 
to Jupiter have flown in or near the equatorial plane, leaving the 
energetically important polar regions unexplored.
    Challenge 4: Understanding the basic physical principles of solar 
and space plasma physics. The heliosphere is a natural laboratory for 
the study of plasma physics, and a number of the initiatives proposed 
by the Committee will lead to advances in understanding fundamental 
plasma physical processes. For example, as noted above, MMS is 
specifically designed to study magnetic reconnection, a physical 
process of fundamental importance in all astrophysical systems, from 
the Earth to the solar system to our galaxy and beyond. To complement 
the observational study of such fundamental processes in naturally 
occurring solar system plasmas, the Survey Committee recommends 
vigorous support of existing NASA and NSF theory and modeling programs 
as well as support for new initiatives such as the Coupling Complexity 
Research Initiative, a joint NASA/NSF theory and modeling program.
    Challenge 5: Developing a near-real time predictive capability for 
the impact of space weather on human activities. Most technologies that 
fly in space and some that are on Earth's surface are affected severely 
by the geomagnetic storms whose origins can be traced to the Sun. These 
events produce subsidiary space weather phenomena, such as the 
blackouts of high frequency communications and disturbances of 
satellite transmissions, including those from spacecraft such as the 
global positioning system. The high energy solar particles can severely 
disrupt spacecraft operations and present serious radiation hazards to 
astronauts and to the crews and passengers of aircraft flying on polar 
routes. In addition to interfering with communications and navigation 
systems, strong geomagnetic storms often disturb spacecraft orbits 
because of increased drag in the high altitude atmosphere, and they 
even have caused electric utility blackouts over wide areas.
    Both our understanding of the basic physics of space weather and 
our appreciation of its importance for human activity has increased 
considerably during recent years. Much remains to be learned, however, 
about processes--such as changes in the Earth's radiation--that affect 
the environment in which many satellites operate; about the variations 
in the properties of the highest regions of the atmosphere that can 
adversely affect GPS navigation systems and high frequency radio 
propagation; and, finally, about the changes that occur on the Sun that 
ultimately cause the detrimental effects of space weather. The Survey 
Committee has therefore ranked as its second highest priority in the 
moderate-program category the Geospace Missions of NASA's Living with a 
Star program. These missions consist of two pairs of spacecraft that 
will be instrumented to study, respectively, changes in the upper 
atmosphere and the behavior of the Earth's radiation belts during 
geomagnetic storms.
    Of critical importance both for our efforts to understand and 
predict space weather and for basic solar and space physics research is 
information about solar wind conditions prior to their reaching Earth. 
Such information is currently being provided by the NASA Advanced 
Composition Explorer (ACE) spacecraft and the NASA Wind satellite. 
However, both spacecraft are now operating beyond their design 
lifetimes. The Survey Committee considers it of paramount importance to 
ensure uninterrupted monitoring of the solar wind and therefore 
assigned high priority to the implementation of an Upstream Solar Wind 
Monitor as a replacement for ACE and Wind. Given the operational 
importance of the measurements that such a monitor would provide, the 
Committee recommends that responsibility for its implementation be 
transferred from NASA to NOAA. The importance of space weather and of 
this challenge to national needs is also reflected in the high 
prioritization that the Committee assigned to the multi-agency National 
Space Weather Program.
    In addition to specific research initiatives to address the five 
science challenges, the Survey Committee gave careful consideration to 
the ``infrastructural'' requirements for a robust solar and space 
physics research program during the coming decade. The Sun to the 
Earth--and Beyond thus offers a number of recommendations in the 
following areas: technology development, solar and space physics 
education, and space research policy and program management, including 
space weather policy. All of the recommendations in these areas are 
given in the Executive Summary attached to my statement, so I will 
summarize only a few of the key ones here.
    High-priority areas of technology development identified by the 
Committee include advanced propulsion and power, highly miniaturized 
spacecraft, advanced spacecraft subsystems, and highly miniaturized 
sensors of charged and neutral particles and photons. A number of 
initiatives in these areas are already under way within NASA such as 
the New Millennium Program, the Sun-Earth Connection and Living With a 
Star instrument development programs, and the In-Space Propulsion 
program, and the Committee strongly endorses these initiatives.
    The Survey Committee's consideration of issues related to education 
was driven by two main concerns: how to provide a sufficient number of 
trained scientists to carry out the research program set forth in The 
Sun to the Earth--and Beyond and how solar and space physics can 
contribute to the development of a scientifically and technologically 
literate public. Here I will mention only one of the Survey Committee's 
recommendations--namely, that NSF and NASA jointly establish a program 
to provide partial salary, start-up funding, and research support for 
four new faculty members a year for five years in the field of solar 
and space physics. I was pleased to learn recently that the NSF has 
already taken significant steps in this direction. Such a program will 
augment the number of university faculty in solar and space physics and 
is essential for a strong national solar and space physics research 
program during the coming decade.
    As I noted earlier, in my comments on the space weather challenge, 
the Survey Committee strongly recommends that NOAA assume 
responsibility for the implementation of an upstream solar wind 
monitor. Other Survey Committee recommendations regarding space weather 
policy address measures to facilitate the transition from research to 
operations, the acquisition and availability of data on solar activity 
and the geospace environment, and the roles of the public and private 
sectors in space weather applications. NOAA and the DOD, as the two 
operational agencies, are primarily responsible for implementing most 
of the Survey Committee's recommendations in this area.
    Finally, the Survey Committee developed a number of policy 
recommendations for strengthening the national solar and space physics 
research program. For example, a vital space research program depends 
on cost-effective, reliable, and readily available access to space that 
meets the requirements of a broad spectrum of missions. The Survey 
Committee therefore recommends revitalization of NASA's Suborbital 
Program, the development by NASA of a range of low-cost launch 
vehicles, and the establishment of procedures of ``ride shares'' on DOD 
(and possibly foreign) launch vehicles. The Committee also addressed 
the impact of export controls on solar and space physics research, 
which inevitably involves international collaboration, and recommended 
that the relevant Federal agencies implement procedures to expedite 
international collaborations involving exchanges of scientific data or 
information on instrument characteristics.
    Let me now conclude my comments with a quote from Marcel Proust: 
``The real voyage of discovery consists not in seeking new landscapes, 
but in having new eyes.'' The solar and space physics research program 
envisioned by the Survey Committee for the corning decade offers both: 
visits to new solar system landscapes--the unexplored near-Sun region, 
Jupiter's polar magnetosphere--and the ``new eyes'' of observational 
initiatives such as MMS, FASR, and AMISR and of advanced theoretical 
and computational initiatives such as the Coupling Complexity Research 
Initiative, which will enable us to ``see'' the fundamental connections 
underlying the complex phenomena captured in our observational data.
                               Attachment
                           Executive Summary
                    The Sun to the Earth--and Beyond
         A Decadal Research Strategy in Solar and Space Physics

Solar and Space Physics Survey Committee, Space Studies Board, Division 
on Engineering and Physical Sciences, National Research Council of The 
  National Academies, The National Academies Press, Washington, D.C., 
                              www.nap.edu

Science Challenges
    The Sun is the source of energy for life on Earth and is the 
strongest modulator of the human physical environment. In fact, the 
Sun's influence extends throughout the solar system, both through 
photons, which provide heat, light, and ionization, and through the 
continuous outflow of a magnetized, supersonic ionized gas known as the 
solar wind. The realm of the solar wind, which includes the entire 
solar system, is called the heliosphere. In the broadest sense, the 
heliosphere is a vast interconnected system of fast-moving structures, 
streams, and shock waves that encounter a great variety of planetary 
and small-body surfaces, atmospheres, and magnetic fields. Somewhere 
far beyond the orbit of Pluto, the solar wind is finally stopped by its 
interaction with the interstellar medium, which produces a termination 
shock wave and, finally, the outer boundary of the heliosphere. This 
distant region is the final frontier of solar and space physics.
    During the 1990s, space physicists peered inside the Sun with 
Doppler imaging techniques to obtain the first glimpses of mechanisms 
responsible for the solar magnetic dynamo. Further, they imaged the 
solar atmosphere from visible to x-ray wavelengths to expose 
dramatically the complex interaction between the ionized gas and the 
magnetic field, which drives both the solar wind and energetic solar 
events such as flares and coronal mass ejections that strongly affect 
Earth. An 8-year tour of Jupiter's magnetosphere, combined with imaging 
from the Hubble Space Telescope, has revealed completely new phenomena 
resident in a regime dominated by planetary rotation, volcanic sources 
of charged particles, mysteriously pulsating x-ray auroras, and even an 
embedded satellite magnetosphere.
    The response of Earth's magnetosphere to variations in the solar 
wind was clearly revealed by an international flotilla of more than a 
dozen spacecraft and by the first neutral-atom and extreme-ultraviolet 
imaging of energetic particles and cold plasma. At the same time, 
computer models of the global dynamics of the magnetosphere and of the 
local microphysics of magnetic reconnection have reached a level of 
sophistication high enough to enable verifiable predictions.
    While the accomplishments of the past decades have answered 
important questions about the physics of the Sun, the interplanetary 
medium, and the space environments of Earth and other solar system 
bodies, they have also highlighted other questions, some of which are 
long-standing and fundamental. This report organizes these questions in 
terms of five challenges that are expected to be the focus of 
scientific investigations during the coming decade and beyond:

  <bullet> Challenge 1: Understanding the structure and dynamics of the 
        Sun's interior, the generation of solar magnetic fields, the 
        origin of the solar cycle, the causes of solar activity, and 
        the structure and dynamics of the corona. Why does solar 
        activity vary in a regular 11-year cycle? Why is the solar 
        corona several hundred times hotter than its underlying visible 
        surface, and how is the supersonic solar wind produced?

  <bullet> Challenge 2: Understanding heliospheric structure, the 
        distribution of magnetic fields and matter throughout the solar 
        system, and the interaction of the solar atmosphere with the 
        local interstellar medium. What is the nature of the 
        interstellar medium, and how does the heliosphere interact with 
        it? How do energetic solar events propagate through the 
        heliosphere?

  <bullet> Challenge 3: Understanding the space environments of Earth 
        and other solar system bodies and their dynamical response to 
        external and internal influences. How does Earth's global space 
        environment respond to solar variations? What are the roles of 
        planetary ionospheres, planetary rotation, and internal plasma 
        sources in the transfer of energy among planetary ionospheres 
        and magnetospheres and the solar wind?

  <bullet> Challenge 4: Understanding the basic physical principles 
        manifest in processes observed in solar and space plasmas. How 
        is magnetic field energy converted to heat and particle kinetic 
        energy in magnetic reconnection events?

  <bullet> Challenge 5: Developing near-real-time predictive capability 
        for understanding and quantifying the impact on human 
        activities of dynamical processes at the Sun, in the 
        interplanetary medium, and in Earth's magnetosphere and 
        ionosphere. What is the probability that specific types of 
        space weather phenomena will occur over periods from hours to 
        days?

    An effective response to these challenges will require a carefully 
crafted program of space- and ground-based observations combined with, 
and guided by, comprehensive theory and modeling efforts. Success in 
this endeavor will depend on the ability to perform high-resolution 
imaging and in situ measurements of critical regions of the solar 
system. In addition to advanced scientific instrumentation, it will be 
necessary to have affordable constellations of spacecraft, advanced 
spacecraft power and propulsion systems, and advanced computational 
resources and techniques.
    This report summarizes the state of knowledge about the total 
heliospheric system, poses key scientific questions for further 
research, and lays out an integrated research strategy, with 
prioritized initiatives, for the next decade. The recommended strategy 
embraces both basic research programs and targeted basic research 
activities that will enhance knowledge and prediction of space weather 
effects on Earth. The report emphasizes the importance of understanding 
the Sun, the heliosphere, and planetary magnetospheres and ionospheres 
as astrophysical objects and as laboratories for the investigation of 
fundamental plasma physics phenomena. The recommendations presented in 
the main report are listed also in this Executive Summary.
An Integrated Research Strategy for Solar and Space Physics
    The integrated research strategy proposed by the Solar and Space 
Physics Survey Committee is based on recommendations from four 
technical study panels regarding research initiatives in the following 
subject areas: solar and heliospheric physics, solar wind-magnetosphere 
interactions, atmosphere-ionosphere-magnetosphere interactions, and 
theory, computation, and data exploration. Because it was charged with 
recommending a program that will be feasible and responsible within a 
realistic resource envelope, the Committee could not adopt all of the 
panels' recommendations. The committee's final set of recommended 
initiatives thus represents a prioritized selection from a larger set 
of initiatives recommended by the study panels. (All of the panel 
recommendations can be found in the second volume of this report, The 
Sun to the Earth--and Beyond: Panel Reports, in preparation.)
    The committee organized the initiatives that it considered into 
four categories: large programs, moderate programs, small programs, and 
vitality programs. Moderate and small programs comprise both space 
missions and ground-based facilities and are defined according to cost, 
with moderate programs falling in the range from $250 million to $400 
million and small programs costing less than $250 million. The 
Committee considered one large (>$400 million) program, a Solar Probe 
mission, and gave it high priority for implementation in the decade 
2003-2013. The programs in the vitality category are those that relate 
to the infrastructure for solar and space physics research; they are 
regarded by the Committee as essential for the health and vigor of the 
field. The cost estimates used by the Committee for all four categories 
are based either on the total mission cost or, for level-of-effort 
programs, on the total cost for the decade 2003-2013. FY 2002 costs are 
used in each case.
    In arriving at a final recommended set of initiatives, the 
Committee prioritized the selected initiatives according to two 
criteria--scientific importance and societal benefit. The ranked 
initiatives are listed and described briefly in Table ES.l. As 
discussed in Chapter 2, the rankings in Table ES.l, cost estimates, and 
judgments of technical readiness were then used to arrive at an overall 
program that could be conducted in the next decade while remaining 
within a reasonable budget. The committee's recommendations for 
sequencing of specific missions and initiatives for NASA and NSF are 
presented in Figures ES.l and ES.2, and Figure ES.3, respectively. 
Nearly all of the recommended missions and facilities either are 
already planned or were recommended in previous strategic planning 
exercises conducted by the National Aeronautics and Space 
Administration (NASA) and the National Science Foundation (NSF). While 
the Committee did not find a need to create completely new mission or 
facility concepts, some existing programs are recommended for 
revitalization and will require stepwise or ramped funding increases. 
These programs include NASA's Suborbital Program, its Supporting 
Research and Technology (SR&T) Program, and the University-Class 
Explorer (UNEX) Program, as well as guest investigator initiatives for 
national facilities in the NSF. In the vitality category, new theory 
and modeling initiatives, notably the Coupling Complexity initiative 
(discussed in the report of the Panel on Theory, Modeling, and Data 
Exploration) and the Virtual Sun initiative (discussed in the report of 
the Panel on the Sun and Heliospheric Physics), are recommended.

Recommendation: The committee recommends the approval and funding of 
the prioritized programs listed in Table ES.l.

    The committee developed its national strategy based on a systems 
approach to understanding the physics of the coupled solar-heliospheric 
environment. The existence of ongoing NSF programs and facilities in 
solar and space physics, of two complementary mission lines in the NASA 
Sun-Earth Connection program-the Solar Terrestrial Probes (STP) for 
basic research and Living With a Star (LWS) for targeted basic 
research--and of applications and operations activities in the National 
Oceanic and Atmospheric Administration (NOAA) and the Department of 
Defense (DOD) facilitates such an approach.
    As a key first element of its systems-oriented strategy, the 
Committee endorsed three approved NASA missions: Solar-Band the Solar 
Terrestrial Relations Observatory (STEREO), both part ofSTP, and the 
Solar Dynamics Observatory (SDO), part of LWS. Together with ongoing 
NSF-supported solar physics programs and facilities as well as the 
start of the Advanced Technology Solar Telescope (ATST), these missions 
constitute a synergistic approach to the study of the inner heliosphere 
that will involve coordinated observations of the solar interior and 
atmosphere and the formation, release, evolution, and propagation of 
coronal mass ejections toward Earth. Later in the decade covered by the 
survey, overlapping investigations by the SDO (LWS), the ATST, and 
Magnetospheric Multiscale (MMS) (part of STP), together with the start 
of the Frequency-Agile Solar Radio (FASR) telescope, will form the 
intellectual basis for a comprehensive study of magnetic reconnection 
in the dense plasma of the solar atmosphere and the tenuous plasmas of 
geospace.
    The committee's ranking of the Geospace Electrodynamic Connections 
(GEC) (STP) and Geospace Network (LWS) missions acknowledges the 
importance of studying Earth's ionosphere and inner magnetosphere as a 
coupled system. Together with a ramping up of the launch opportunities 
in the Suborbital Program and the implementation of both the Advanced 
Modular Incoherent Scatter Radar (AMISR) and the Small Instrument 
Distributed Ground-Based Network, these missions will provide a unique 
opportunity to study the local electrodynamics of the ionosphere down 
to altitudes where energy is transferred between the magnetosphere and 
the atmosphere, while simultaneously investigating the global dynamics 
of the ionosphere and radiation belts. The implementation of the Ll 
Monitor (NOAA) and of the vitality programs will be essential to the 
success of this systems approach to basic and targeted basic research. 
Later on in the Committee's recommended program, concurrent operations 
of a Multi-Spacecraft Heliospheric mission (LWS), Stereo Magnetospheric 
Imager (SMI) (STP), and Magnetosphere Constellation (MagCon) (STP) will 
provide opportunities for a coordinated approach to understanding the 
large-scale dynamics of the inner heliosphere and Earth's magnetosphere 
(again with strong contributions from the ongoing and new NSF 
initiatives).
    To understand the genesis of the heliospheric system it is 
necessary to determine the mechanisms by which the solar corona is 
heated and the solar wind is accelerated and to understand how the 
solar wind evolves in the innermost heliosphere. These objectives will 
be addressed by a Solar Probe mission. Because of the importance of 
these objectives for the overall understanding of the solar-heliosphere 
system, as well as of other stellar systems, a Solar Probe mission\1\ 
should be implemented as soon as possible within the coming decade. The 
Solar Probe measurements will be complemented by correlative 
observations from such initiatives as Solar Orbiter, SDO, ATST, and 
FASR.
---------------------------------------------------------------------------
    \1\ The Solar Probe mission recommended by the Committee is a 
generic mission to study the heating and acceleration of the solar wind 
through measurements as close to the surface of the Sun as possible. 
The previously announced Solar Probe mission was cancelled for 
budgetary reasons. A new concept study for a Solar Probe was begun in 
January 2002 and is currently under way. This new study builds on the 
earlier science definition team report to NASA and is examining, among 
other issues, the power and communications technologies (including 
radioisotope thermal generators needed to enable such a mission within 
a realistic cost cap). The measurement capabilities being considered in 
the study comprise both instrumentation for the in situ measurement of 
plasmas, magnetic fields, and waves and a remote-sensing package, 
including magnetograph, Doppler, EUV, and coronal imaging instruments. 
The committee notes that the Panel on the Sun and Heliospheric Physics 
recommends as its highest-priority new initiative a Solar Probe mission 
whose primary objective is to make in situ measurements of the 
innermost heliosphere. The panel does not consider remote sensing ``a 
top priority on a first mission to the near-Sun region,'' although it 
does allow as a possible secondary objective remote sensing of the 
photospheric magnetic field in the polar regions. (See the Solar Probe 
discussion in the report of the Panel on Sun and Heliospheric Physics, 
which is published in The Sun to the Earth-and Beyond: Panel Reports, 
in preparation.) While accepting the panel's assessment of the critical 
importance of the in situ measurements for understanding coronal 
heating and solar wind acceleration, the Committee does not wish to 
rule out the possibility that some additional remote-sensing 
capabilities, beyond the remote-sensing experiment to measure the polar 
photospheric magnetic field envisioned by the panel, can be 
accommodated on a Solar Probe within the cost cap set by the Committee.
---------------------------------------------------------------------------
    Similarly, because of the importance of comparative magnetospheric 
studies for advancing the understanding basic magnetospheric processes, 
the Committee has assigned high priority to a Jupiter Polar Mission 
(JPM), a space physics mission to study high-latitude electrodynamic 
coupling at Jupiter. Such a mission will provide both a means of 
testing and refining theoretical concepts developed largely in studies 
of the terrestrial magnetosphere and a means of studying in situ the 
electromagnetic redistribution of angular momentum in a rapidly 
rotating system, with results relevant to such astrophysical questions 
as the formation of protostars.
Technology Development
    Technology development is required in several critical areas if a 
number of the future science objectives of solar and space physics are 
to be accomplished.
    Traveling to the planets and beyond. New propulsion technologies 
are needed to rapidly propel spacecraft to the outer fringes of the 
solar system and into the local interstellar medium. Also needed are 
power systems to support future deep space missions.

Recommendation: NASA should assign high priority to the development of 
advanced propulsion and power technologies required for the exploration 
of the outer planets, the inner and outer heliosphere, and the local 
interstellar medium.

    Advanced spacecraft systems. Highly miniaturized spacecraft and 
advanced spacecraft subsystems will be critical for a number of high-
priority future missions and programs in solar and space physics.

Recommendation: NASA should continue to give high priority to the 
development and testing of advanced spacecraft technologies through 
such programs as the New Millennium Program and its advanced technology 
program.

    Advanced science instrumentation. Highly miniaturized sensors of 
charged and neutral particles and photons will be essential elements of 
instruments for new solar and space physics missions.

Recommendation: NASA should continue to assign high priority, through 
its recently established new instrument development programs, to 
supporting the development of advanced instrumentation for solar and 
space physics missions and programs.

    Gathering and assimilating data from multiple platforms. Future 
flight missions include multipoint measurements to resolve spatial and 
temporal scales that dominate the physical processes that operate in 
solar system plasmas.

Recommendation: NASA should accelerate the development of command-and-
control and data acquisition technologies for constellation missions.

    Modeling the space environment. Primarily because of the lack of a 
sufficient number of measurements, it has not been necessary until 
quite recently for the solar and space physics community to address 
data assimilation issues. However, it is anticipated that within 10 
years vast arrays of data sets will be available for assimilation into 
models.

Recommendation: Existing NOAA and DOD facilities should be expanded to 
accommodate the large-scale integration of space-based and ground-based 
data sets into physics-based models of the geospace environment.

    Observing geospace from Earth. The severe terrestrial environments 
of temperature, moisture, and wildly varying solar insolation have 
posed serious reliability problems for arrays of ground-based sensor 
systems that are critical for solar and space physics studies.

Recommendation: The relevant program offices in the NSF should support 
comprehensive new approaches to the design and maintenance of ground-
based, distributed instrument networks, with proper regard for the 
severe environments in which they must operate.

    Observing the Sun at high spatial resolution. Recent breakthroughs 
in adaptive optics have eliminated the major technical impediments to 
making solar observations with sufficient resolution to measure the 
pressure scale height, the photon mean free path, and the fundamental 
magnetic structure size.

Recommendation: The National Science Foundation should continue to fund 
the technology development program for the Advanced Technology Solar 
Telescope.
Connections Between Solar and Space Physics and Other Disciplines
    The fully or partially ionized plasmas that are the central focus 
of solar and space physics are related on a fundamental level to 
laboratory plasma physics, which directly investigates basic plasma 
physical processes, and to astrophysics, a discipline that relies 
heavily on understanding the physics unique to the plasma state. 
Moreover, there are numerous points of contact between space physics 
and atmospheric science, particularly in the area of aeronomy. 
Knowledge of the properties of atoms and molecules is critical for 
understanding a number of magnetospheric, ionospheric, solar, and 
heliospheric processes. Understanding developed in one of these fields 
is thus in principle applicable to the others, and productive cross-
fertilization between disciplines has occurred in a number of 
instances.

Recommendation: In collaboration with other interested agencies, NSF 
and NASA should take the lead in initiating a program in laboratory 
plasma science that can provide new understanding of fundamental 
processes important to solar and space physics. The establishment of 
such a laboratory initiative was previously recommended in the 1995 NRC 
report Plasma Science.

Recommendation: NSF and NASA should take the lead and other interested 
agencies should collaborate in supporting, via the proposal and funding 
processes, increased interactions between solar and space physics 
research and allied fields such as atomic and molecular physics, 
laboratory fusion physics, atmospheric science, and astrophysics.
Solar and Space Environment Effects on Technology and Society
    The space environment of the Sun-Earth system can have deleterious 
effects on numerous technologies that are used by modem-day society. 
Understanding this environment is essential for the successful design, 
implementation, and operation ofthese technologies.
    National Space Weather Program. A number of activities are under 
way in the United States to better understand and mitigate the effects 
of solar activity and the space environment on important technological 
systems. The mid-1990s saw the creation of the National Space Weather 
Program (NSWP), an interagency program whose goal is ``to achieve, 
within a ten year period, an active, synergistic, interagency system to 
provide timely, accurate, and reliable space environment observations, 
specifications, and forecasts.'' In 1999, NASA initiated an important 
complementary program, Living With a Star (LWS), which over the next 
decade and beyond will carry out targeted basic research on space 
weather. Crucial components of the national space weather effort 
continue to be provided by the operational programs of the Department 
of Defense and NOAA. Moreover, in addition to governmental activities, 
a number of private companies have, over the last decade, become 
involved in developing and providing space weather products.
    Monitoring the solar-terrestrial environment. Numerous research 
instruments and observations are required to provide the basis for 
modeling interactions between the solar-terrestrial environment and 
technical systems and for making sound technical design decisions that 
take such interactions into account Transitioning of programs and/or 
their acquisition platforms or instruments into operational use 
requires strong and effective coordination efforts among agencies. 
Imaging of the Sun and of geospace will play central roles in 
operational space forecasting in the future.

Recommendation: The involved agencies, in consultation with the 
research community, should jointly assess instrument facilities that 
contribute key data to space weather models and operational programs, 
both public and private, and determine a strategy to maintain them or 
should work to establish facilities necessary for operational use. NOAA 
and DOD should lead this assessment and should report on it publicly.

Recommendation: NOAA should assume responsibility for the continuance 
of space-based measurements such as solar wind data from the Ll 
location as well as near Earth and for distribution of the data for 
operational use.\2\
---------------------------------------------------------------------------
    \2\ For example, a NOAA-Air Force program is producing operational 
solar X-ray data. The Geostationary Operational Environmental Satellite 
(GOES) Solar X-ray Imager (SXI), first deployed on GOES-M, took its 
first image on September 7, 200I. The SXI instrument is designed to 
obtain a continuous sequence of coronal X-ray images at a 1-minute 
cadence. These images are being used by NOAA's Space Environment Center 
and the broader community to monitor solar activity for its effects on 
Earth's upper atmosphere and the near-space environment.

Recommendation: NASA and NOAA should initiate the necessary planning to 
transition solar and geospace imaging instrumentation into operational 
---------------------------------------------------------------------------
programs for the public and private sectors.

    Transition from research to operations. Means must be established 
for transitioning new knowledge into those arenas where it is needed 
for design and operational purposes. Creative and cutting-edge research 
in modeling the solar-terrestrial environment is under way. Under the 
auspices of the NSWP, models that are thought to be potentially useful 
for space weather applications can be submitted to the Community 
Coordinated Modeling Center (CCMC, currently located at the NASA 
Goddard Space Flight Center) for testing and validation. Following 
validation, the models can be turned over to either the U.S. Air Force 
or the NOAA Rapid Prototyping Center (RPC), where the models are used 
for the objectives of the individual agencies. In many instances, the 
validation of research products and models is different in the private 
and public sectors, with publicly funded research models and system-
impact products usually being placed in an operational setting with 
only limited validation.

Recommendation: The relevant Federal agencies should establish an 
overall verification and validation program for all publicly funded 
models and system-impact products before they become operational.

Recommendation: The operational Federal agencies, NOAA and DOD, should 
establish procedures to identify and prioritize operational needs, and 
these needs should determine which model types are selected for 
transitioning by the Community Coordinated Modeling Center and the 
Rapid Prototyping Centers. After the needs have been prioritized, 
procedures should be established to determine which of the competing 
models, public or private, is best suited for a particular operational 
requirement.

    Data acquisition and availability. The transfer functions that 
relate a given solar observation to the effects on a specific 
technological system are largely unknown. During the coming decade, 
gigabytes of data could be available every day for incorporation into 
physics-based data assimilation models of the solar-terrestrial 
environment and into system-impact codes for space weather forecasting 
and mitigation purposes. DOD generally uses data that it owns and only 
recently has begun to use data from other agencies and institutions, so 
that not many data sets are available for use by the publicly funded or 
commercial vendors who design products for DOD. Engineers typically are 
interested in space climate, not space weather. Needed are long-term 
averages, the uncertainties in these averages, and values for the 
extremes in key space weather parameters. The engineering goal is to 
design systems that are as resistant as possible to the effects of 
space weather.

Recommendation: DOD and NOAA should be the lead agencies in acquiring 
all the data sets needed for accurate specification and forecast 
modeling, including data from the international community. Because it 
is extremely important to have real-time data, both space-and ground 
based, for predictive purposes, NOAA and DOD should invest in new ways 
to acquire real-time data from all of the ground-and space-based 
sources available to them. All data acquired should contain error 
estimates, which are required by data assimilation models.

Recommendation: A new, centralized database of extreme space weather 
conditions should be created that covers as many of the relevant space 
weather parameters as possible.

    Public and private sectors in space weather applications. To date, 
the largest efforts to understand the solar-terrestrial environment and 
apply the knowledge for practical purposes have been mostly publicly 
funded through government research organizations, universities, and 
some industries. Recently some private companies both large and small 
have been devoting their own resources to the development and sale of 
specialized products that address the design and operation of certain 
technical systems that can be affected by the solar-terrestrial 
environment. The private efforts often use publicly supported assets 
(such as spacecraft data) as well as proprietary instrumentation and 
models. A number of the private efforts use proprietary system 
knowledge to guide their choices of research directions. Policies on 
such matters as data rights, inteilectual property rights and 
responsibilities, and benchmarking criteria can be quite different for 
private efforts and publicly supported ones, including those of 
universities. Thus, transitioning knowledge and models from one sector 
to another can be fraught with complications and requires continued 
attention and discussion by ail interested entities.

Recommendation: Clear policies describing government and industry 
roles, rights, and responsibilities should be developed and published 
by all agencies and interested commercial enterprises involved in space 
weather activities in order to optimize the benefits of the national 
investments, public and private, that are being made.
Education and Public Outreach
    The committee's consideration of issues related to education and 
outreach was focused in two areas:

  <bullet> How to ensure a sufficient number of future scientists in 
        solar and space physics; and

  <bullet> How the solar and space physics community can contribute to 
        national initiatives in science and technology education.

    Solar and space physics in colleges and universities. Because of 
its relatively short history, solar and space physics (SSP) appears 
only adventitiously in formal instructional programs, and an 
appreciation of its importance is often lacking in current 
undergraduate curricula. If SSP is to have a healthy presence in 
academia, additional faculty members would be needed to guide student 
research (both undergraduate and graduate), to teach SSP graduate 
programs, and to integrate topics in SSP into basic physics and 
astronomy classes.

Recommendation: The NSF and NASA should jointly establish a program of 
``bridged positions'' that provides (through a competitive process) 
partial salary, start-up funding, and research support for four new 
faculty members every year for 5 years.

    Distance education. Education in SSP during the academic year could 
be considerably enhanced if the latest advances in information 
technology are exploited to provide distance learning for both graduate 
students and postdoctoral researchers. This would substantially 
increase the educational value of the expertise that currently resides 
at a limited number of institutions.

Recommendation: The NSF and NASA should jointly support an initiative 
that provides increased opportunities for distance education in solar 
and space physics.

    Undergraduate research opportunities and undergraduate instruction. 
NSF support for the Research Experiences for Undergraduates (REU) 
program has been valuable for encouraging undergraduates in the solar 
and space physics research area.

Recommendation: NASA should institute a specific program for the 
support of undergraduate research in solar and space physics at 
colleges and universities. The program should have the flexibility to 
support such research as either a supplement to existing grants or a 
stand-alone grant program.

Recommendation: Over the next decade NASA and the NSF should fund 
several resource development groups to develop solar and space physics 
educational resources (especially at the undergraduate level), to 
disseminate those resources, and to provide training for educators and 
scientists in the effective use of such resources.
Strengthening the Solar and Space Physics Research Enterprise
    Advances in understanding in solar and space physics will require 
strengthening a number ofthe infrastructural aspects of the Nation's 
solar and space physics program. The committee has identified several 
that depend on effective program management and policy actions for 
their success: (1) development of a stronger research community, (2) 
cost-effective use of existing resources, (3) ensuring cost-effective 
and reliable access to space, (4) improving interagency cooperation and 
coordination, and (5) facilitating international partnerships.
    Strengthening the solar and space physics research community. A 
diverse and high-quality community of research institutions has 
contributed to solar and space physics research over the years. The 
central role of the universities as research sites requires 
enhancement, strengthening, and stability.

Recommendation: NASA should undertake an independent outside review of 
its existing policies and approaches regarding the support of solar and 
space physics research in academic institutions, with the objective of 
enabling the Nation's colleges and universities to be stronger 
contributors to this research field.

Recommendation: NSF-funded national facilities for solar and space 
physics research should have resources allocated so that the facilities 
can be widely available to outside users.

    Cost-effective use of existing resources. Optimal return in solar 
and space physics is obtained not only through the judicious funding 
and management of new assets, but also through the maintenance and 
upgrading, funding, and management of existing facilities.

Recommendation: The NSF and NASA should give all possible consideration 
to capitalizing on existing ground-and space-based assets as the goals 
of new research programs are defined.

    Access to space. The continuing vitality of the Nation's space 
research program is strongly dependent on having cost-effective, 
reliable, and readily available access to space that meets the 
requirements of a broad spectrum of diverse missions. The solar and 
space physics research community is especially dependent on the 
availability of a wide range of suborbital and orbital flight 
capabilities to carry out cutting-edge science programs, to validate 
new instruments, and to train new scientists. Suborbital flight 
opportunities are very important for advancing many key aspects of 
future solar and space physics research objectives and for enabling the 
contributions that such opportunities make to education.

Recommendation: NASA should revitalize the Suborbital Program to bring 
flight opportunities back to previous levels.

    Low-cost launch vehicles with a wide spectrum of capabilities are 
critically important for the next generation of solar and space physics 
research, as delineated in this report.
Recommendations:

  1.  NASA should aggressively support the engineering research and 
        development of a range oflow-cost vehicles capable oflaunching 
        payloads for scientific research.

  2.  NASA should develop a memorandum of understanding with DOD that 
        would delineate a formal procedure for identifying in advance 
        opportunities for piggybacking civilian spacecraft on certain 
        Air Force missions.

  3.  NASA should explore the feasibility of piggybacking on 
        appropriate foreign scientific launches.

    The comparative study ofplanetary ionospheres and magnetospheres is 
a central theme of solar and space physics research.

Recommendation: The scientific objectives of the NASA Discovery Program 
should be expanded to include those frontier space plasma physics 
research subjects that cannot be accommodated by other spacecraft 
opportunities.

    The principal investigator (PI) model that has been used for 
numerous Explorer missions has been highly successful. Strategic 
missions such as those under consideration for the STP and LWS programs 
can benefit from emulating some of the management approach and 
structure of the Explorer missions. The solar and space physics field 
is especially appropriate for placing many of its major science 
objectives in charge of a PI.

Recommendation: NASA should (1) place as much responsibility as 
possible in the hands of the principal investigator, (2) define the 
mission rules clearly at the beginning, and (3) establish levels of 
responsibility and mission rules within NASA that are tailored to the 
particular mission and to its scope and complexity.

Recommendation: The NASA official who is designated as the program 
manager for a given project should be the sole NASA contact for the 
principal investigator. One important task of the NASA official would 
be to make sure that rules applicable to large-scale, complex programs 
are not being inappropriately applied, thereby producing cost growth 
for small programs.

    Interagency cooperation and coordination. Interagency coordination 
over the years has yielded greater science returns than could be 
expected from single-agency activities. In the future, a research 
initiative at one agency could trigger a window of opportunity for a 
research initiative at another agency. Such an eventuality would 
leverage the resources contributed by each agency.

Recommendation: The principal agencies involved in solar and space 
physics research-NASA, NSF, NOAA, and DOD--should devise and implement 
a management process that will ensure a high level of coordination in 
the field and that will disseminate the results of such a coordinated 
effort--including data, research opportunities, and related matters--
widely and frequently to the research community.

Recommendation: For space-weather-related applications, increased 
attention should be devoted to coordinating NASA, NOAA, NSF, and DOD 
research findings, models, and instrumentation so that new developments 
can quickly be incorporated into the operational and applications 
programs of NOAA and DOD.

    International partnerships. The geophysical sciences--in 
particular, solar and space physics--address questions of global scope 
and inevitably require international participation for their success. 
Collaborative research with other nations allows the United States to 
obtain data from other geographical regions that are necessary to 
determine the global distributions of space processes. Studies in space 
weather cannot be successful without strong participation from 
colleagues in other countries and their research capabilities and 
assets, in space and on the ground.

Recommendation: To expedite international collaborations that involve 
exchanges of scientific data or information on instrument 
characteristics, the Federal Government, especially the State 
Department and NASA, should implement clearly defined procedures that 
recognize that all major scientific space missions have components that 
include participants from universities, private companies, and 
nonprofit organizations.

  Table ES.l--Priority Order and Brief Descriptions of the Recommended
                   Programs in Solar and Space Physics
------------------------------------------------------------------------
 Type of
 Program    Rank        Program                   Description
------------------------------------------------------------------------
Large          1   Solar Probe        Spacecraft to study the heating
                                       and acceleration of the solar
                                       wind through in situ measurements
                                       and some remote-sensing
                                       observations during one or more
                                       passes through the innermost
                                       region of the heliosphere (from
                                       0.3 AU to as close as 3 solar
                                       radii above the Sun's surface).
Moderate       1   Magnetospheric     Four-spacecraft cluster to
                    Multiscale         investigate magnetic
                                       reconnection, particle
                                       acceleration, and turbulence in
                                       magnetospheric boundary regions.
               2   Geospace Network   Two radiation-belt mapping
                                       spacecraft and two ionospheric
                                       mapping spacecraft to determine
                                       the global response of geospace
                                       to solar storms.
               3   Jupiter Polar      Polar-orbiting spacecraft to image
                    Mission            the aurora, determine the
                                       electrodynamic properties of the
                                       lo flux tube, and identify
                                       magnetosphere-ionosphere coupling
                                       processes.
               4   Multispacecraft    Four or more spacecraft with large
                   Heliospheric        separations in the ecliptic plane
                    Mission            to determine the spatial
                                       structure and temporal evolution
                                       of CMEs and other solar-wind
                                       disturbances in the inner
                                       heliosphere.
               5   Geospace           Three to four spacecraft with
                    Electrodynamic     propulsion for low-altitude
                   Connections         excursions to investigate the
                                       coupling among the magnetosphere,
                                       the ionosphere, and the upper
                                       atmosphere.
               6   Suborbital         Sounding rockets, balloons, and
                    Program            aircraft to perform targeted
                                       studies of solar and space
                                       physics phenomena with advanced
                                       instrumentation.
               7   Magnetospheric     Fifty to a hundred nanosatellites
                   Constellation       to create dynamic images of
                                       magnetic fields and charged
                                       particles in the near magnetic
                                       tail of Earth.
               8   Solar Wind         Three spacecraft with solar sails
                    Sentinels          positioned at 0.98 AU to provide
                                       earlier warning than Ll monitors
                                       and to measure the spatial and
                                       temporal structure of CMEs,
                                       shocks, and solar wind streams.
               9   Stereo             Two spacecraft providing stereo
                    Magnetospheric     imaging of the plasmasphere, ring
                   Imager              current, and radiation belts,
                                       along with multispectral imaging
                                       of the aurora.
Small          1   Frequency-Agile    Wide frequency-range (0.3-30 GHz)
                    Solar              radio telescope for imaging of
                   Radio Telescope     solar features from a few hundred
                                       kilometers above the visible
                                       surface to high in the corona.
               2   Advanced Modular   Movable incoherent scatter radar
                   Incoherent          with supporting optical and other
                    Scatter Radar      ground-based instruments for
                                       continuous measurements of
                                       magnetosphere-ionosphere
                                       interactions.
               3   L1 Monitor         Continuation of solar-wind and
                                       interplanetary magnetic field
                                       monitoring for support of Earth-
                                       orbiting space physics missions.
                                       Recommended for implementation by
                                       NOAA.
               4   Solar Orbiter      U.S. instrument contributions to
                                       ESA spacecraft that .
                                       periodically corotates with the
                                       Sun at 45 solar radii to
                                       investigate the magnetic
                                       structure and evolution of the
                                       solar corona.
               5   Small Instrument   NSF program to provide global-
                   Distributed         scale ionospheric and upper
                    Ground-Based       atmospheric measurements for
                   Network             input to global physics-based
                                       models.
               6   UNEX               Revitalization of University-Class
                                       Explorer program for more
                                       frequent access to space for
                                       focused research projects.
Vitality       1   NASA Supporting    NASA research and analysis
                    Research           program.
                   and Technology
               2   National Space     Multiagency program led by the NSF
                    Weather            to support focused activities
                   Program             that will improve scientific
                                       understanding of geospace in
                                       order to provide better
                                       specifications and predictions.
               3   Coupling           NASA/NSF theory and modeling
                    Complexity         program to address multiprocess
                                       coupling, nonlinearity, and
                                       multiscale and multiregional
                                       feedback.
               4   Solar and Space    Multiagency program for
                    Physics            integration of multiple data sets
                   Information         and models in a system accessible
                    System             by the entire solar and space
                                       physics community.
               5   Guest              NASA program for broadening the
                    Investigator       participation of solar and space
                   Program             physicists in space missions.
               6   Sun-Earth          NASA programs to provide long-term
                    Connection         support to critical-mass groups
                   Theory and LWS      involved in specific areas of
                    Data               basic and targeted basic
                   Analysis, Theory,   research.
                   and Modeling
                    Programs
               7   Virtual Sun        Multiagency program to provide a
                                       systems-oriented approach to
                                       theory, modeling, and simulation
                                       that will ultimately provide
                                       continuous models from the solar
                                       interior to the outer helios
                                       here.
------------------------------------------------------------------------

                               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                       

    FIGURE ES.l Recommended phasing of the highest-priority NASA 
missions, assuming an early implementation of a Solar Probe mission. 
Solar Probe was the Survey Committee's highest priority in the large 
mission category, and the Committee recommends its implementation as 
soon as possible. However, the projected cost of Solar Probe is too 
high to fit within plausible budget and mission profiles for NASA's 
Sun-Earth Connection (SEC) Division. Thus, as shown in this figure, an 
early start for Solar Probe would require funding above the currently 
estimated SEC budget of $650 million per year for Fiscal Years 2006 and 
beyond. Note that MO&DA costs for all missions are included in the 
MO&DA budget wedge.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    FIGURE ES.2 Recommended phasing of the highest-priority NASA 
missions if budget augmentation for Solar Probe is not obtained. MO&DA 
costs for all missions are included in the MO&DA budget wedge.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    FIGURE ES.3 Recommended phasing of major new and enhanced NSF 
initiatives. The budget wedge for ``New Facilities Science'' refers to 
support for ``guest investigator'' and related programs that will 
maximize the science return of new ground facilities to the scientific 
community. Funding for New Facilities Science is budgeted at 
approximately I 0 percent of the aggregate cost for new NSF facilities.

    Senator Brownback. Thank you. And that was an exciting 
presentation by all the panel members.
    I think what we'll do is run a clock here at 7 minutes, 
back and forth. Senator Nelson, you had another engagement that 
you need to get to?
    Senator Nelson. Go ahead.
    Senator Brownback. Do you want to go first with your 
questions? Would that let you get to your engagement then? I'll 
let you do that, if you'd like.
    Senator Nelson. Well, that is very kind of you, Mr. 
Chairman.
    I'm curious, Dr. Belton, do you think, from a mathematical 
probability, that there is life out in the universe?
    Dr. Belton. My conviction is that life exists elsewhere 
than the Earth, yes.
    Senator Nelson. I agree.
    Do you think in our lifetime we will see some evidence of 
that?
    Dr. Belton. Yes. In fact, this is one of the things that 
really excited us in doing this study. With the Mars-sample 
return now on the horizon--we don't think it'll happen in this 
coming decade, but we're going to be getting ready for it--when 
that sample comes back, providing it's the right sample, 
Orlando--when that sample comes back, I think we'll learn an 
awful lot.
    Senator Nelson. Well, if there's life there and there's 
life here, what is our destiny?
    Dr. Belton. Well, that's a much more complex question, and 
it has to do with limitations to the length of time that 
species exist on the Earth. And as you--I'm not a 
paleontologist, but I can read this material--and as you know, 
species live and die on this Earth, and it seems that one of 
the reasons why that might happen--not proven, but might 
happen--is the result of cosmic impacts, an impact with the 
Earth by some sizable object.
    And so if you kind of look at all the things that could 
happen to human civilization and human species, that's probably 
the one that has the shortest time scale associated with it. 
Therefore, I think it should be taken seriously. But that was 
not something that I wanted to talk about in my remarks.
    Senator Nelson. Given what you've stated--and I share most 
of that--if you were designing a goal, a mission, for NASA, 
would you want to go back to the moon with a lunar colony? I'm 
talking about the manned, human kind of mission. Would you want 
to do the bold strike to Mars? Give us some of your thoughts.
    Dr. Belton. Well, it so happens that I've just written a 
letter, maybe 2 months ago, to Dr. Martin, who is the space 
architect at NASA, on this very subject about my own personal 
views. These are not community views, by any means. But, 
basically, I feel that, in spite of the very sad events that 
occurred, these sad events also probably lead to an opportunity 
to reassess and set a new goal.
    And so in my letter to Dr. Martin, which was signed by some 
20 others of my colleagues, we tried to--made the case that 
human spaceflight should move out beyond low-Earth orbit into 
the near-Earth space and then, as an intermediate goal, toward 
Mars exploration, which certainly is something that the 
community, in general, is interested in as an intermediate 
goal; that they should look toward the near-Earth objects that 
come very close to the Earth all the time, and with the thought 
in mind that we should learn, over some protracted period, how 
to manage this problem of collisions that will happen sooner or 
later.
    Senator Nelson. For any of you, if we venture to Mars, in 
order to be not fried by solar flares there has got to be some 
kind of shielding. Can any of you comment on that? Can we 
create our own magnetic field around a spacecraft?
    Dr. Lanzerotti?
    Dr. Lanzerotti. That would be very difficult to do, the 
size of the magnetic field that you might need for the size of 
the spacecraft that you have.
    The solar flare problem is a really tricky one. As you well 
remember and know, the solar event that occurred in August 
1972, between the last two Apollo flights, would have been 
fatal for any astronauts on the moon at the time, or in transit 
to the moon. It just happened that Apollo 16 and Apollo 17 
bracketed that August 1972 event.
    So we need to know--and we did not know very much about 
predicting solar events at that time. We know a little bit more 
now, but we don't know a lot more now. That's why our committee 
devoted an entire chapter in our Decadal Report to this whole 
issue of applications and the understanding of the sun and the 
Earth's space environment, in order to get a much better 
predictive capability.
    The new X-ray imager on the NOAA GOES spacecraft is a step 
in that direction, but it's not the final word, by any means. 
The solar probe, the advanced modular--or the Frequency Agile 
Solar Radio Telescope and other things that we have going on 
will provide a lot more data, then we can do more models and 
begin to understand the sun a lot better than we know now. But 
we're a long way from very accurate prediction.
    But it may be able to progress in parallel with a human 
effort toward Mars in the future. Perhaps, if I might step in 
Mike's arena here for a moment, I guess personally I think 
perhaps going back to the moon and gaining some understanding 
of that might be a better way, particularly in lieu of needing 
to understand the space environment and the solar activity at 
the same time.
    Mr. Withee. Senator, if I may add? Your question highlights 
the need for 24/7 operational space-weather forecast and 
warning service, because the events such as has been described 
there need to be not looked at just during the 40-hour work-
week, but 7 days a week and 24 hours a day. NOAA has such a 
service. We're trying to get better at it. We're working with 
the Air Force to try to provide these kind of services for our 
own Earth, but also we have extended those services out into 
space to support missions such as you're talking about.
    Thank you.
    Senator Nelson. For any of you, do you think that there was 
life, or still is, on Mars?
    Mr. Figueroa. There is evidence that the conditions in--or 
habitable environments might have existed in the past and may 
exist today. Whether there is life on any of those, it remains 
an open question, but certainly the conditions for life to have 
emerged--and knowing how tenacious and persistent it can be on 
Earth, as we have learned over the last couple of decades--the 
probabilities are in the favor of that being a positive answer, 
but we do not know, and that is what the program is designed to 
do. A difficult question to answer directly, but we're on a 
path that we hope gets us there.
    Senator Nelson. Thank you.
    Senator Brownback. I enjoyed the exchange. This is very 
informative from all sources.
    Senator Nelson. Well, as you can see, I get excited about 
this, and----
    Senator Brownback. I do, too.
    [Laughter.]
    Senator Nelson. By the way, I was quite intrigued by Dr. 
Belton's question, ``Where did we come from?'' And you know how 
people get all tangled up in their knickers over that. I've 
never seen a conflict between the first chapter of Genesis and 
the creation of the universe, as we've seen it, because I don't 
happen to define that the Lord would define a day as 24 hours. 
So I'm very intrigued with your question, Dr. Belton.
    Senator Brownback. I've had an eminent theologian say to me 
that Genesis was written--this was God describing how He 
created; not man describing how God did it. So describe it in 
different terms in different ways.
    I've got a number of questions for different panel members, 
but I want to followup, Dr. Lanzerotti, with your comment, 
because at the heart of what we're trying to strike at here 
is--we seem to be stuck mentally in low-space orbit--mentally--
that we just kind of--where are we going with the space 
program? And where should we be going, and why? And then would 
the public support this? You seemed to articulate a point of 
view about whether we should go back to the moon to understand 
space better. Would you go ahead and finish that thought?
    Dr. Lanzerotti. Mr. Chair, I'm not really prepared to 
expand further on a comment that I'm about to make. About 12 
years ago, there was a major study, which was chaired by Norman 
Augustine. It resulted in an Augustine Report which talked 
about the future of some of our national space endeavor, and 
delved at quite some length into the directions of human 
spaceflight, as well as the robotic spaceflight, which I 
principally addressed in my testimony here.
    And the Augustine Report made some very cogent 
recommendations and statements and had some discussions of the 
need for defining our directions of human spaceflight, and 
discussed, therein, the need for defining the longer term 
vision for humans in space, both humans in space and in the 
context of a robotic program. And I'm, unfortunately, not 
prepared to discuss that in any depth.
    My personal opinion is the one that I stated. I think that 
going back to the moon would be a very beneficial enterprise 
for the Nation. And that's discussed at some extent in the 
Augustine Panel, and I would recommend that to your Committee, 
Subcommittee, and to the staff, to review some of the 
discussions in there.
    Going back to the moon would be not just an opportunity to 
understand better humans on another body, but would also 
possibly lead to a base of some scientific measurement 
capabilities, both in the Earth's magnetosphere, as well as 
perhaps some astronomical measurements made from the moon--
radio astronomy, optical measurements. And people in those 
communities are investigating those kinds of opportunities.
    It seems to me like that might be a beneficial and 
profitable direction as we go out into the solar system 
further.
    Senator Brownback. Could we discover more scientific 
exploration and useful information from going back to the moon 
than investing in continued flights into low-space orbit--or 
low-Earth orbit?
    Dr. Lanzerotti. I think I'm--I certainly have personal 
views, but I think I'm beginning to get beyond my area of 
expertise, and I would like to not answer that directly, if I 
might.
    Senator Brownback. Would anybody care to respond to that?
    [No response.]
    Senator Brownback. Your silence is deafening.
    [Laughter.]
    Senator Brownback. Dr. Belton, I want to explore with you a 
little bit further. You support the notion of near-Earth 
objects. Near-Earth space travel is where you think that we 
should be going, I believe was the term that you used in the--
answered to the question. What do you define as near-Earth 
space travel?
    Dr. Belton. Basically, from here to the moon. I don't have 
any disagreement with what Dr. Lanzerotti said about going back 
to the moon with the idea of setting up telescopes there or 
making measurements of particles and fields, so forth. I think 
that's been well studied in the past, and there are many 
positive aspects to that.
    But it seems to me, also, that this problem of collisions, 
even though they're very, very rare, is something that we do 
have to take seriously. Somebody has to start this business, 
within human society, of taking care of this problem. We don't 
know whether it's going to happen tomorrow or whether it's 
going to happen a thousand years or ten-thousand years from 
now. It's a totally random process. We've started to look. NASA 
has a very strong program, a Spaceguard Program, which was 
mandated by Congress a few years ago, looking for the very 
large objects that could cause global catastrophes.
    But there are also lots and lots--in fact, thousands of 
times more--smaller objects that we don't know where they are 
that have something like a one-percent chance in the lifetime 
of the population of this country of hitting this country with 
a--it could release the amount of energy equivalent to a ten-
megaton bomb, for example. This is a 50-meter object, like the 
one that collided over Russia in 1908, destroyed 2,000-square 
kilometers of forest. Thank goodness it was forest. Those 
things, again, are rare. One percent in a hundred years, 
roughly. One-percent chance in a hundred years.
    But it's going to take the order of 50 to 100 years just to 
learn how to do something about these things, and it may well 
be that in learning how to do something about them, we may have 
to, in fact, employ human participation in space. It's not 
sure. It's not been studied. It needs studying. Nobody's 
studying it right now. All we're doing is looking for the large 
objects coming in.
    So I think--I agree with Dr. Lanzerotti, the moon is one 
place to go. But I also think this other problem is one that 
faces humankind, and somehow we have to get ourselves in a 
position to decide what to do about it.
    Senator Brownback. So do you think we could discover more 
information, more exploration data, more research that's useful 
and that's--really, even a changing of the human mind and the 
human spirit--by going back to the moon rather than focusing 
most of our efforts in low-space orbit, low-Earth orbit?
    Dr. Belton. Well, again, there are so many things that 
happen in low-Earth orbit, that I would feel a little 
uncomfortable just talking about the things that I do know 
about that I'd like to see happen, and being negative about--
without researching it--about what happens in low-Earth orbit. 
So it's a simple question you ask, but it's a very difficult 
one to answer, and I would think that we would have to take 
care in how we answer that question.
    Senator Brownback. Well, and that's why we're asking it of 
people that are very knowledgeable, because it comes down to a 
resource allocation, then, as well.
    Dr. Belton. From a science point of view, doing solar 
system exploration, low-Earth orbit really is--it's been 
important, in the sense that the Shuttle is being used to 
launch major missions, so human participation in solar system 
exploration has been very significant.
    Senator Brownback. It's been very what?
    Dr. Belton. Significant. For example, getting Galileo 
launched on its way to Jupiter, almost a decade ago now, was 
very, very much dependent upon what human spaceflight could do 
at that time with the Shuttle----
    Dr. Lanzerotti. But it was designed----
    Dr. Belton.--and was----
    Dr. Lanzerotti.--but it was designed for that. I mean, it 
could have been designed for a unmanned rocket.
    Dr. Belton. That's right. That's right. It could have been.
    So it's a difficult question that you ask, and I would not 
want to be too negative about activities in low-Earth before I 
had thought about it a little bit more.
    Senator Brownback. Mr. Figueroa, from NASA's perspective, 
would you like to jump into this conversation and make any 
comments?
    Mr. Figueroa. Well, the comments that I may make will be 
somewhat limited, but I will say that, you know, from the point 
of view of human exploration, research and exploration around 
Earth's orbit is important, but it need not stop there, because 
human exploration expands beyond just the near-Earth vicinity. 
Whether it is the Earth or an intermediate point before we can 
venture into going to Mars, or a place like Mars, are things 
that are under study for the space architect in NASA, and one 
that I, you know, asked that be considered for a future report.
    I would also add that the predictive capabilities around 
Earth's orbit are important and essential, but not sufficient. 
I think the investments in technologies that allow us to 
protect humans outside of the shelter of a Earth's magnetic 
field are also key. And we recognize, in NASA, those challenges 
and are trying to take steps that lead us in that direction.
    Now, whether it's moon or intermediate points as which one 
is the higher priority, I'm not prepared to answer, but we are, 
as part of our studies, looking across the board at all those 
questions.
    Senator Brownback. I would just note to you and to all the 
panelists, there are a lot of questions regarding the Space 
Shuttle and the safety of this program overall, and growing 
unease amongst a number of people about the--certainly the 
safety, the efficacy, the cost efficiency, the level of 
scientific knowledge that we're gaining from going to and from 
the Space Station. These are constantly nagging questions. 
They're being repeated in the media often. And I think, like--I 
don't quite remember quite who it was; maybe it was Dr. Belton 
that said that this--we are at a tragic point; we're also at a 
very opportunistic--there's a great opportunity at this point 
for us to rethink what it is that we're doing and where is it 
that we're going.
    And so I really welcome the dialogue and the discussion, 
but it's going to come to a fine point fairly soon here when 
the Gehman Report comes out and when people start questioning, 
you know, just clearly about the safety and the efficacy of the 
Space Shuttle Program, the age of this technology, what are we 
learning from the continued--the cost of this program on each 
Space Shuttle launch. I forget what the number is now of cost-
per-launch of the Space Shuttle, but it's a factor of ten 
higher than what was predicted when we first started into this 
program, so it's--now, that's not unusual in government 
programs. I want to recognize that, that that happens to us a 
lot. But we've got a lot of big questions coming here all at 
the same time, and they're going to come to a point pretty 
quick--I think, this fall--and then you're going to see 
Congress and the Administration wrestling with the point, OK, 
now, where do we go with the future of the space program? Do we 
stay in the low-Earth orbit, where we are now, by and large--
although we have a number of missions going to different 
places, unmanned missions--or is it time for us to try to 
establish a different vision and fund that and move off of the 
Space Shuttle or, complete the Space Station, but move on 
forward? So we will need your expertise and your thoughts, and 
we need them rather quickly.
    Anything from NASA on that point?
    Mr. Figueroa. I'm afraid, Mr. Chairman, I will be stepping 
into a territory that I'm not qualified to comment on, and I 
would just like to note for the agency to have the opportunity 
to address those in the not-too-distant future.
    Senator Brownback. Well, I hope the agency's thinking a lot 
about them.
    Mr. Figueroa. Yes. We are.
    Senator Brownback. Because we're going to need to have some 
answers here.
    General Zilmer, I can't help but ask you a hypothetical 
from what you described. Let's say that sometime in the future, 
when this technology is developed to be able to move people in 
an out traveling through space, that we're involved or want 
to--going to be involved in a conflict somewhere in Central 
Africa in a time when this technology's pulled forward by your 
investment in funding. Describe how this would work and your 
vision of what you're trying to pull this forward in using 
space in the Marine Corps.
    General Zilmer. Thank you, Senator.
    Senator Brownback. Get that microphone up to you, if you 
would.
    General Zilmer. Thank you, Senator.
    Let me begin by saying, first, the Marine Corps is not 
infatuated with space travel for the sake of space travel. But 
as we look at the enduring battlefield advantages of speed, 
standoff, lethality, and now stealth, and we look to the 
technologies that are already very, very promising--the DARPA 
HyperSoar Program, NASA's X-43 system. These are technologies 
that are, as I said, very, very promising.
    And our quest to reduce our ability to react to strategic 
events around the globe really drives this needs statement that 
we articulated last year, which is to do point-to-point travel 
on any point on the globe in 2 hours or less.
    Senator Brownback. Point-to-point----
    General Zilmer. Point-to-point----
    Senator Brownback.--anywhere on the globe----
    General Zilmer.--anywhere on the globe----
    Senator Brownback.--in 2 hours.
    General Zilmer.--in 2 hours.
    Senator Brownback. Wow.
    General Zilmer. And, again, it's the technologies that are 
emerging out there that allow us to look at that.
    We understand that the bar, that bar, is set very, very 
high. The issue of fuels, the issue--the physiology of manned 
flight at those sorts of speeds, the technology, where it's 
going. We don't mean to undermine or underplay the importance 
of that technology. The vision, for that matter, is very, very 
easy to have, but it's that ability to be able to react to 
strategic events that really drives the capability that we're 
looking for.
    So, as I said, it's not the infatuation with space travel, 
and nor do we think we will ever see a craft that says ``United 
States Marine Corps'' on it, but it's that capability to 
respond quickly to events that would unfold in Central Africa 
someplace, the ability to respond to a WMD event, the ability 
to respond to some consequence-management event, the ability to 
respond with a surgical capability that arrives with some sweep 
of capabilities, perhaps autonomous weapons systems, that's the 
vision that we're looking for in the future, and that's why we 
looked at things like 25 to 30 years in the future to be able 
to do that.
    Senator Brownback. But so you would be projecting, though, 
that an event occurs or is getting ready to happen, and you 
would literally launch marines with their equipment from some 
point into low-Earth orbit to be able to land in this position. 
You've got to land in a ground-based capacity or on some sort 
of runway, I would guess.
    General Zilmer. Senator, yes, when we looked at the--when 
we developed the needs statement, we looked at, VSTOL--
Vertical/Short Takeoff and Landing--capability, the ability to 
loiter on station, to insert whatever that payload happens to 
be, whether it's marines or whether it's special forces in the 
future, a joint force of the future. But, yes, it was designed 
or conceptually looked at to have that ability to respond and 
then return from that location at the completion of the 
mission.
    Senator Brownback. Return in a low-space orbit, then, as 
well?
    General Zilmer. Possibly. It could be low-space. It could 
be return via the same means. But there may be some ability to 
look at how we operationally conceptualize that. It may be 
returning to some other intermediate staging base along the 
return route, where time is not quite as critical as it was to 
get us to the site of the incident to begin with.
    Senator Brownback. That's impressive. And are you funding 
the initial phases of that technology? Are you doing--is that 
something that you're seeking funding from----
    General Zilmer. Sir, we are not funding anything along 
these lines right now. And this gets back to--I think if 
there's an optimism to be expressed here at this hearing, is 
that the technology, we believe, is going to go there 
eventually, whether it's 25, 30 years from now. The development 
of those technologies are going to provide perhaps other 
spinoff capabilities that'll be important for military 
application. We want to be part of that development of that 
technology.
    What we contribute to this is the intellectual capacity to 
operationalize these ideas. That's what we give to this right 
now, and that's why we're so interested in some of the 
technologies that are out there that may potentially support 
that in the future.
    Senator Brownback. You might be interested to know we had a 
hearing just last week of commercial sector space travel, and 
two people testified regarding subspace travel, and the other 
one, orbital space travel on a commercial basis. Two of them 
were looking at it as a space tourism, much like aviation 
started out as just people flying around the country and 
saying, ``Hey, you want a ride?'' ``I'll give you five 
dollars,'' and, ``Hop in and we're going to take a real quick 
tour.'' They aren't suggesting five dollars for these trips. 
They were suggesting 50,000 for doing it. But they were also 
suggesting that this a way that the business takes off, that it 
moves forward in the development of this technology. Also, they 
cited, as others have, that U.S. Government military needs and 
demands may pull this on forward much more rapidly.
    So while what you're describing as 25 years, you're saying, 
down the road; the gentlemen last week were testifying about 5 
to 10 years. Now, we'll see if they're able to pull that along 
quite that fast or not. It does make an interesting and 
exciting capacity.
    NASA is looking--you've cited in your testimony about 
nuclear-powered engines by the end of the decade. Is that 
correct, Mr. Figueroa, and that you feel like that this is a 
very important part of being able to move forward?
    Mr. Figueroa. A key element of the Prometheus Project and 
the JIMO mission is the availability of nuclear electrical-
power engines. And, yes, there are some in development now that 
will be available to support such a mission.
    Senator Brownback. By when?
    Mr. Figueroa. By the end of the decade. It will be 
available for a JIMO mission at the turn of the next decade.
    Senator Brownback. These must be quite small, then, 
nuclear-powered--nuclear-power plants, then.
    Mr. Figueroa. No, I beg your pardon, there's a fission 
reactor and then the engine that takes advantage of that 
nuclear energy and turns it into electrical power, a nuclear-
electrical propulsion system.
    Senator Brownback. But your power plant can't be very big 
to do this. What size are you----
    Mr. Figueroa. In the order of----
    Senator Brownback.--designing that to be?
    Mr. Figueroa.--kilowatts of energy.
    Senator Brownback. But what physical size would it be? 
You're going to put this on----
    Mr. Figueroa. Oh, these reactors are of the size of, I 
would say, a small refrigerator or, you know, half a desk, if 
you will.
    Senator Brownback. But you'll be able to have that 
technology available to use by the end of the decade?
    Mr. Figueroa. That is our expectation. And so the plans on 
the JIMO mission on the Prometheus Program is to put us on that 
track.
    Senator Brownback. Good. Good.
    Gentlemen, thank you very much for putting forward some of 
the thoughts and the visions. I articulated to you, you know, 
what I see as our struggle coming up, and our opportunity as 
where we need to be going with the space programs. We don't 
have unlimited budgets, so it isn't that we can do everything 
that everybody would desire to do, but that we want to be 
focused and strategic in doing the things that we really need 
to do. And there is a yearning and a sense that we don't have 
the vision, the unifying vision, to date and that we need that 
to really pull us on forward.
    The final question I'd like to pose, probably to you, Dr. 
Belton, if I could, and maybe there would be others that should 
answer this: Have we failed to articulate that unifying vision? 
You've all talked about various programs that are being funded 
and the work that we're doing. Some people feel like we've 
really lost our edge in space. There are a lot of things that 
are taking place. Have we lost that edge, or is it just that 
now, instead of one goal, to the moon, we articulated in the 
1960s, that we're in many areas and it's actually moving 
forward pretty nicely, U.S. space work?
    Dr. Belton. Well, what I would say is that, from the point 
of view of robotic exploration, we certainly haven't lost our 
edge. We're doing remarkable things, and the plan for the next 
5 years and the plan that we have for the next 10 years, the 
kind of things, technological things, that Dr. Figueroa was 
talking about, these are very, very exciting. They're right at 
the edge. They're something that we can all, in this country, 
be immensely proud of.
    Now, in terms of the Shuttle and the ISS, International 
Space Station, I feel, as a private citizen, that, yes, it 
seems to us that because of the problems that the program has 
been facing for the last 15 years or so, that it has somehow 
lost its way. It's not clear what ISS is all about or what it's 
for, what the grand plan is. I don't see that. I don't see a 
grand plan that involves all of the things and capabilities 
that we've developed coming together. But, as a taxpayer, I 
don't see that we can abandon the Space Station at all. We've 
got a tremendous investment in there.
    We know that the most expensive part of space travel is 
getting off the ground and that first couple of hundred 
kilometers and so forth. And so whatever happens to the Shuttle 
or whatever its replacement might be, hopefully a less 
expensive replacement, it seems to me that the International 
Space Station is part of the future.
    I agree with you that the future is certainly not clear. 
But moving out into near-Earth space and these things that Dr. 
Lanzerotti has talked about--measuring systems, observing 
systems on the moon, or the kind of thing that I've talked 
about, with the near-Earth asteroids--are only part of the 
picture.
    So it seems to me that you're right, we need to look at it 
a little more closely. But my feeling is that ISS has got a big 
role to play in this.
    Senator Brownback. So, if I understand what you're saying, 
in the robotics, non-human area, we're doing very nicely. In 
the human spaceflight area, we're really----
    Dr. Belton. That's my----
    Senator Brownback.--stalling.
    Dr. Belton. That's my impression, yes.
    Senator Brownback. Dr. Lanzerotti, do you have some thought 
on that?
    Dr. Lanzerotti. I agree with Dr. Belton. The United States 
has no peer in robotic exploration of the solar system and the 
universe. The Decadal Strategies established by the 
astronomers, and now by the planetary exploration and by solar 
and space physics that Dr. Belton and I talked about, lay out 
visions that will keep the United States preeminent and will 
provide incredible new understandings and concepts for our 
place in the universe and in our solar system and on Earth.
    But, indeed, our vision for human exploration is sorely 
lacking, as I would say from my vantage point as a taxpayer. I 
have testified on numerous occasions in the past related to 
this, and I don't see that things have changed in the last 
decade, decade and a half, when I have been asked more 
specifically about these things in those kinds of context.
    I was a member of the Augustine panel. I was a member of a 
couple of the redesign of the Space Station panels and was 
never happy with some of the directions that were talked about 
at those times.
    And I think our vision for humans in space needs some 
really hard thinking. I think the Augustine panel provided an 
opportunity a decade-plus ago, and that might want to be 
followed up at some point to both see what was done there and 
to see whether that couldn't be expanded upon and looked at for 
the future, in terms of humans in space.
    Senator Brownback. Dr. Belton, is it time to shelve the 
Shuttle?
    Dr. Belton. No. We need a way to get to the Space Station 
and take large payloads up into space. And I think the original 
idea of the Space Station was as a way station of moving these 
things into space, from the surface into the space. I think 
whether you call it the Shuttle or whatever else you call it, 
you're going to need a very large booster to carry substantial 
payloads from the surface up into low-Earth orbit, at first. I 
think those kind of things will be needed.
    For example, if we want to go to the moon and build a 
telescope--I'm sure the radio astronomers could invent one for 
us--it's going to take a great deal of material and structures 
and so forth, the kind of things that they've been--working 
with on the Space Station itself; only, taking that to the 
moon. I don't see them doing that directly from the Earth's 
surface. Maybe other people have better ideas. But it would 
seem to me that the Space Station would be an essential element 
of getting out into space with large structures.
    The kind of things that I'm interested in with these 
asteroids--we don't know what it'll take to mitigate a 
collision. We know we have to either deflect or disrupt one of 
these objects that are coming in. And the system that would do 
that, it's not clear exactly what it would be, whether it even 
could be entirely robotic. It might involve a considerable 
degree of human participation. These things need to be looked 
at and studied. They're not being looked at right now.
    Senator Brownback. Very good.
    Gentlemen, thank you very much. It's been an excellent 
panel and a very good discussion, and I'll look forward to 
further engaging you at a later date.
    The hearing's adjourned.
    [Whereupon, at 3:55 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman,

    Thank you for holding this hearing on the space-related activities 
of Federal agencies other than the National Aeronautics and Space 
Administration (NASA). It's going to take some work for NASA to ``right 
itself'' in the wake of the Space Shuttle Columbia disaster and 
Congress will have to redouble its oversight. But that's a topic for 
another day.
    Today, we are going to hear testimony about what the National 
Oceanic and Atmospheric Administration (NOAA) is doing in space to 
learn more about climate change, weather forecasting, and coastal and 
ocean monitoring. We'll also hear about space exploration missions 
designed to help us learn more about the origins and evolution of the 
Earth, other planets, our Sun, and our Solar System. The potential 
benefits of such research probably can't be calculated.
    We'll also hear about what the Department of Defense (DOD) is up to 
in space. DoD's space budget is actually 33 percent bigger than NASA's! 
DOD is developing the capacity to detect the launch of an enemy's 
missiles so early that we will be able to use ground and sea weapons to 
destroy the missile while it is still in the boost phase. We also need 
to reduce our vulnerability in space. As dependent as we have become on 
satellites for a broad array of military and civilian purposes, I'll be 
interested to hear about what progress we are making in protecting the 
assets we deploy in space from enemy attack.
    Mr. Chairman, I would close by saying that I think all of what 
we're about to hear this afternoon is a pretty good example of what the 
Federal Government does--and does well--without attracting much 
attention from the general public. I hope we continue to do it. It's 
imperative that we continue to do it. But that takes money. When taxes 
are cut too much, and revenue streams dry up, and budget deficits 
spiral out of control, the Government's ability to undertake the 
programs and research we're reviewing here comes into question. We 
can't be for more tax cuts and these important space programs. Thank 
you, Mr. Chairman.
                                 ______
                                 
                  Belton Space Exploration Initiatives, LLC
                                          Tucson, AZ, April 4, 2003
Mr. Gary L. Martin,
NASA Space Architect,
Washington, DC.

Dear Mr. Martin,

    The Columbia tragedy has triggered a public discussion of the 
future of the space station, space station science, and the utilization 
of humans in space. The outcome that we expect from this activity is an 
endorsement of a program of human spaceflight at NASA--perhaps 
returning to the goal enunciated by President Reagan in 1988: ``To 
expand human presence and activity beyond Earth-orbit into the solar 
system''--accompanied by a prolonged and, possibly, divisive debate on 
the utility of the space station for science. As space scientists, we 
believe the latter can be avoided by adding a new, exciting, and 
affordable goal for human spaceflight and the use of the space station. 
This is the inclusion of ``mitigation'' or ``NEO deflection studies'' 
(i.e., how to prepare for a comet or asteroid that is found on an 
Earth-threatening path), as one of NASA's primary goals. This goal, 
which we believe can combine the best of robotic and human space 
capabilities, can also be thought of as a precursor to another future 
endeavor (e.g., see the discussion in Scientific Requirements for Human 
Exploration, Space Studies Board, 1993)--that of a manned mission to 
explore Mars. Also, such a goal can be thought of as logical extension 
of the congressionally mandated survey, currently being conducted in 
the Office of Space Science, to find any potentially hazardous near-
Earth objects (NEOs) larger than one kilometer.
    In a recent workshop for NASA's Office of Space Science, we 
developed a roadmap for attaining the ``Scientific Requirements for 
Mitigation of Hazardous Comets and Asteroids'' (www.noao.edu/meetings/
mitigation/report.html). This roadmap shows that to gain the basic 
knowledge needed for some future mitigation technology, a new NASA 
program is needed consisting of many novel robotic missions to acquire 
detailed geophysical information on the physical diversity, the 
subsurface, and the deep interiors of a variety of near-Earth objects. 
In addition, NASA and DoD will need to work together to ``learn'' how 
to apply deflection technologies including the application of low 
thrust devices, the application of novel in-space power sources, and/or 
the rapid application of large amounts of energy on small solar system 
bodies. We expect that a mix of both human and robotic missions to 
objects in near-Earth space and new uses for the space station will be 
required to test these technologies. The Space Science Board has 
already noted that there is a need for an optimal mix of human and 
robotic activities in such endeavors in their Scientific Opportunities 
in the Human Exploration of Space (Space Studies Board, 1993).
    All of this leads us to propose a new goal for human and robotic 
space flight: Show how humans and robots can work together on small 
objects in near-Earth interplanetary space to: (1) accomplish new 
fundamental science on planetary objects; (2) aspire to previously 
unimaginable technical achievements on objects in interplanetary space; 
and, (3) protect the Earth from the future possibility of a 
catastrophic collision with a hazardous object from space. Since these 
activities would allow human spaceflight to cross the threshold into 
interplanetary space, they could also be thought of as a precursor 
activity to provide the essential technical and medical experience for 
that more distant, but even more challenging, goal--a human exploratory 
mission to Mars.
    We also note that among the recent NRC Solar System Exploration 
``Decadal'' Survey recommendations is one that exhorts NASA ``. . . to 
make significant new investments in advanced technology in order that 
future high priority flight missions can succeed.'' Particular stress 
was put on in-space power and propulsion systems such as advanced 
RTG's, in-space fission reactor power sources, nuclear electric 
propulsion (NEP) and advanced ion engines. In the President's 2004 
budget proposal, NEP figures strongly in connection with a future 
mission to the icy satellites of Jupiter as part of the goal to 
understand the origins and extent of life in the solar system. 
``Mitigation,'' or even the gathering of the specific knowledge that 
will be needed as a prerequisite for such an activity, was not dealt 
with in the Survey, since it is a technical goal and not an exploration 
or scientific goal. But it is now clear, as a result of the mitigation 
workshop, that low thrust propulsion and the application of in-space 
power systems to collision avoidance may now be the best way to 
proceed. It is a small leap to imagine an experiment to deflect a small 
near-Earth asteroid though the application of thrust from a NEP system 
(or an advanced SEP) fueled by an advanced power source. Moreover it is 
an objective that resonates with your agency's newly stated objective 
of ``. . . Protecting the Home Planet . . . As only NASA can!'' In 
short, we see an important coupling between the requirements for the 
long-term future of solar system scientific exploration, as expressed 
by the Decadal survey, the needs of planetary protection, and a 
worthwhile program that utilizes humans, the space station, and robots 
in near-Earth interplanetary space.
    In public discussions of the President's in-space nuclear power and 
propulsion system initiative, the issue of environmental safety can be 
expected to arise even though extensive past experience has shown that 
such systems are extremely safe. Nuclear safety is a matter of great 
public concern that we share. However, we would also like to point out 
that the likely application of these kinds of technologies to a future 
NEO deflection system will also mitigate against the possibility of a 
much greater environmental hazard: that of a NEO impact itself. Thus, 
from an environmental perspective, there may be much to be gained in 
the application of these systems to the NEO collision problem.
    A cogent new goal is needed for human spaceflight and significant 
investments and experimentation are required to develop in-flight power 
and propulsion systems for future solar system exploration. In 
addition, a new program needs to be started at NASA to create an 
adequate scientific basis for a future mitigation system and, 
simultaneously, to learn how to apply future collision mitigation 
technologies. There is a nexus between these goals and objectives that 
we believe should become the basis of a new thrust for NASA as it 
emerges from the analysis and public discussion surrounding the 
Columbia tragedy. We advocate, and strongly believe, that by adopting 
this goal the United States can go forward with human spaceflight 
utilizing the space station with productive, well-supported and 
meaningful objectives.
            We are, sincerely yours,

Michael J. S. Belton, Ph.D.
Belton Space Exploration Initiatives,
LLC, Tucson, AZ

Donald K. Yeomans, Ph.D.
JPL/Cal Tech, Pasadena, CA

Steven Ostro, Ph.D.
JPL/Cal Tech, Pasadena, CA

Piet Hut, Ph.D.
Inst. Advanced Study, Princeton, NJ

Clark Chapman, Ph.D.
Southwest Research Inst., Boulder, CO

Derek Sears, Ph.D.
Univ. of Arkansas, AR

Michael F. A'Hearn, Ph.D.
Univ. of Maryland, MD

Russell L. Schweickart
Apollo 9 Astronaut,
Chairman, B612 Foundation

Nalin Samarasinha, Ph.D.
National Optical Astronomy
Observatory, Tucson, AZ

Daniel Scheeres, Ph.D.
Univ. of Michigan, MI

Michael Drake, Ph.D.
Univ. of Arizona, AZ

Keith Holsapple, Ph.D.
Univ. of Washington, WA

Erik Asphaug, Ph.D.
Univ. of California at Santa Cruz, CA

Mark Sykes, Ph.D.
University of Arizona, AZ

Alberto Cellino, Ph.D.
Astronomical Observatory of Torino, Italy

  
Lucy McFadden, Ph.D.
Univ. of Maryland, MD

Donald R. Davis, Ph.D.
Planetary Science Institute, Tucson, AZ

Timothy D. Swindle, Ph.D.
University of Arizona, AZ

Stephen M. Larson, Ph.D.
University of Arizona, AZ

Larry A. Lebofsky, Ph.D.
University of Arizona, AZ

Mark Trueblood
Winer Observatory, AZ

Beatrice E.A. Mueller, Ph.D.
National Optical Astronomy
Observatory, Tucson, AZ

Joseph Spitale, Ph.D.
Lunar and Planetary Lab., Tucson, AZ

Tod R. Lauer, Ph.D.
National Optical Astronomy
Observatory, Tucson, AZ

Robert Farquhar
Johns Hopkins University
Applied Physics Laboratory,
Laurel, MD

Daniel Britt, Ph.D.
Univ. of Central Florida, FL

Elisabetta Pierazzo
Planetary Science Institute, Tucson, AZ

Kevin Housen
The Boeing Co., Seattle, WA

Thomas D. Jones, Ph.D
Planetary Scientist and Former
Astronaut, Oakton, VA

Ronald Fevig
Univ. of Arizona, AZ

Copies to: Dr. E. Weiler, Dr Colleen Hartman, Dr. Harley Thronson, Dr. 
Alan Newhouse, Dr. Marc Allen, J. Alexander, D. Morrison, W. Huntress, 
R. Binzel
                                 ______
                                 

                Setting Priorities in U.S. Space Science

 Joseph K. Alexander, Space Studies Board, National Research Council, 
                             Washington, DC

Abstract
    Two new long-range space science strategy studies are notable not 
only for what the new reports say and do for their respective 
discipline areas but also for what they demonstrate in terms of shared 
conclusions and in terms of the feasibility of forging consensus on 
community priorities. Both studies engaged a broad segment of the 
research community to survey their respective fields, recommend top 
priority scientific goals and directions for the next decade, provide 
recommendations for programmatic directions and explicit priorities for 
government investment in research facilities, and address issues of 
advanced technology, infrastructure, interagency coordination, 
education, and international cooperation. The two studies demonstrate 
that cross-program priorities can be established when a community sees 
the effort as being beneficial to the long-term health of the field.
Introduction
    Can scientists reach consensus on priorities across a whole 
disciplinary area or is such an endeavor impossibly contentious, 
especially when there will be losers as well as winners? Can a 
scientific community come together behind a set of priorities or will 
the very attempt to do so tear the community apart? Is the effort 
required to set community-wide priorities so difficult as to make the 
process too lengthy to yield results that are timely and actionable?
    The preparation of long-range scientific strategies and 
recommendations for the scientific directions of a field of research 
has been a traditional role of study committees convened by the 
National Academies. What has been rare, however, is the development of 
consensus strategies that span the full range of the interests of a 
discipline and that set out explicit programmatic priority 
recommendations for the field. Astronomers in the United States first 
undertook this task in the 1960s <SUP>i</SUP> and that community has 
revisited the effort every decade thereafter.<SUP>ii</SUP> In 2002 the 
National Research Council (NRC) Space Studies Board oversaw the 
completion of two new reports that expanded the creation of decadal 
scale consensus strategies into two other research fields-solar system 
exploration <SUP>iii</SUP> and solar and space physics.<SUP>iv</SUP> 
This milestone is notable not only for what the new reports say and do 
for their respective discipline areas but also for what they 
demonstrate in terms of shared conclusions and in terms of the 
feasibility of forging consensus on community priorities.
    In this article we describe common features that make the new 
decadal-scale surveys particularly important, summarize some of their 
notable recurring themes and conclusions, and draw some general 
retrospective conclusions about the process of developing discipline-
wide, long-range, science strategies.<SUP>v</SUP> To be sure, there are 
also significant distinctions between the different reports, and we do 
not mean to minimize them or to suggest that the differences are 
insignificant. Rather, the two new surveys illustrate at least two 
important points. First, the process of crafting these decadal science 
strategic surveys has produced carefully articulated community 
priorities, not unconstrained wish lists. Second, there are many 
aspects of the different surveys where the authoring committees arrived 
at similar, even identical, conclusions, and those similarities are 
notable as a consequence. Finally, while both of the two new surveys, 
as well as the earlier astronomy and astrophysics models, focused on 
priorities for programs in the U.S., one might expect that much about 
the processes may be more broadly generalizable.
Commonalities
    The two new studies have a number of important attributes in 
common. First, like their predecessors in astronomy and astrophysics, 
they were derived from broad community input. Both surveys utilized 
websites, ``town-hall meetings'' at professional society conferences, 
expert panels, and other outreach vehicles to solicit the views of and 
participation by a large cross section of the relevant scientific 
communities. Both the solar system exploration and the solar and space 
physics surveys were organized around a group of topical panels 
comprised of 6-12 disciplinary experts and a steering committee that 
was charged with integrating the work of the panels and other inputs to 
create a single set of recommendations. In both studies, the panels and 
steering committee drew on formal participation from several scores of 
individuals, and several hundred more researchers participated in the 
town-hall style meetings that the Committees organized. In the solar 
system exploration survey several hundred more scientists prepared a 
collection of topical white papers for use by the Committee and panels. 
External peer review of the draft survey reports, conducted under the 
auspices of the NRC, added another 15 participants to the preparation 
of the solar system exploration report and another 40 participants to 
the solar and space physics survey.
    Other significant common attributes of the new surveys include the 
fact that they both:

  <bullet> take a long-term look at their respective fields and 
        recommend top priority scientific goals and directions for the 
        next decade (See boxes.);

  <bullet> direct recommendations to all of the principal agencies that 
        support facilities and research in the relevant fields;

  <bullet> provide recommendations for programmatic directions and 
        explicit priorities for government investment in research 
        facilities, including space flight missions; and

  <bullet> address issues of advanced technology, infrastructure, 
        interagency coordination, education, international cooperation.

        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
Shared Mission and Facility Priorities
    Each survey was carried out in the context of its own disciplinary 
framework and each survey arrived at a unique set of project priorities 
for the particular field. Consequently, it is not particularly 
meaningful to compare the specific program or project priorities in the 
two reports. However there are notable commonalities in the criteria 
that the two studies employed to arrive at priorities. Both studies 
first translated the broad scientific goals into a series of more 
detailed questions, which were then mapped into a series of
    programmatic initiatives. To winnow the potential initiatives into 
a realistic number and put them into an explicit priority order the 
survey committees used similar criteria.
    For the solar system exploration survey the criteria were as 
follows:

  1.  Scientific merit

    <ctr-circle> Will answering the scientific question have the 
            possibility of creating or changing a scientific paradigm?

    <ctr-circle> Might the new knowledge have a pivotal effect on the 
            direction of future research?

    <ctr-circle> Will the new knowledge to be gained substantially 
            strengthen the fact base of understanding?

  2.  Opportunity--Do budgetary situations, planetary orbital 
        configurations, developments in other scientific fields, or 
        concurrent program developments make timing propitious?

  3.  Technology readiness--Is the initiative technologic feasible and 
        affordable, and does it have an important technological 
        relationship to other priority initiatives?

    The solar and space physics survey used criteria that were similar 
in many respects, but which included one key difference that related to 
societal relevance of initiatives. The criteria were as follows:

  1.  Scientific merit--What is the potential scientific impact on the 
        field as a whole?

  2.  Societal relevance--What is the potential for improving 
        understanding, quantifying the impact, reducing uncertainties, 
        and creating predictive capability regarding the effects of 
        space weather?

  3.  Timing--What is the optimum affordable sequence of programs, what 
        programs need to be simultaneous, what is the state of 
        technological readiness of competing programs, and which 
        programs are most urgent in the event of unforeseen 
        limitations?

    Using their respective criteria, both surveys produced a set of 
recommended missions, ground-based facilities, and research 
initiatives. In each survey the recommended programs were sorted into 
several broad costs categories so that major facility investments 
requiring hundreds of millions of dollars were not pitted against 
relatively small augmentations, or vice versa. Each study committee 
sought to recommend an overall program whose total cost might 
realistically be expected to be affordable by the relevant agencies 
over the coming decade. As we will note below, this aspect of the 
surveys remains to be one of the most substantial challenges for 
scientific committees to handle.
Common Recommendations on Infrastructure, Coordination, and 
        Cooperation
Research and Analysis Grants Programs
    Both new survey reports agree, as did the astronomy and 
astrophysics report in 2000, that research and data analysis grants 
programs (usually referred to as ``R&A'' in NASA's program) are often 
under-funded and in need of support. They all suggest financially 
bolstering R&A programs and/or creating new ones. The solar system 
exploration report argues that R&A programs convert flight mission data 
into new understanding, create ``the knowledge necessary to plan the 
scientific scope of future missions,'' furnish ``the context in which 
the results from missions can be correctly interpreted,'' and provide 
``a prime breeding ground for . . . team members of forthcoming flight 
missions.'' The report concludes, ``Healthy R&A programs are of 
paramount importance and a necessary precondition for effective 
missions . . .'' The SSE survey recommends ``an increase . . . in the 
funding for fundamental (R&A) programs . . . that is consistent with 
the augmented number of missions, amount of data, and diversity of 
objects studied.'' The solar and space physics report stresses that 
``the underlying vitality of the . . . discipline depends heavily on 
the robustness'' of NASA's and NSF's research grant programs, and it 
recommends priorities for a number of ``existing and new activities 
that stabilize and enhance the connective fabric of the solar and space 
physics program.''
    The reports all also make recommendations regarding research 
databases, data analysis, computational studies, and theory. The solar 
system exploration report calls particular attention to problems with 
data analysis and archival programs and concludes, ``In order to get 
the maximum value out of the scientific data returned from . . . 
missions, it is essential (first) . . . to ensure that the archiving 
entity . . . has the necessary resources for the job and is treated as 
an important component of each mission from the outset'' and (second) 
``to dramatically improve the data analysis programs.'' The solar and 
space physics report stresses support for theory, computation and data 
analysis by recommending a joint NASA-NSF effort that integrates 
computational tools, fundamental theoretical analysis, and state-of-
the-art data analysis under a single umbrella program.
Advanced technology
    Both reports cite the need for investments in new space instrument 
technologies, and both specifically endorse the development of advanced 
power, propulsion, and space communication technologies. They both also 
support improvement and miniaturization of research instrumentation. 
Technology recommendations from the reports are summarized in Table 1. 
Although the scientific objectives of space missions in the two fields 
may be quite distinctive, the priority areas for technological advances 
to support future missions are remarkably similar.

             Table 1.--Recommended Advanced Technology Areas
------------------------------------------------------------------------
      Solar System Exploration             Solar and Space Physics
------------------------------------------------------------------------
Space-based technologies             Space-based technologies
<bullet> Advanced nuclear power and  <bullet> Advanced propulsion and
 nuclear electric                     power technologies
  propulsion
<bullet> Advanced optical and/or     <bullet> Advanced spacecraft
 radio communications                 technology
                                     <bullet> Advanced instrumentation
<bullet> Advanced architectures for  <bullet> Command, control, and data
 spacecraft autonomy and              acquisition technologies
 adaptability
<bullet> Planetary science           Ground-based technologies:
 instrument capability and           <bullet> Expansion of facilities
 environmental tolerance to achieve   for large-scale integration of
 less mass and power                  space and ground-based data sets
                                      into physics-based models
<bullet> Planetary landing systems,  <bullet> Support for new approaches
 in situ exploration                  to design and maintenance of
  systems, and Earth-return           ground-based distributed
 technology                           instrument networks with regard to
                                      the severe environments in which
                                      they operate
<bullet> Advanced autonomy for       <bullet> Technology for the
 mobile mechanisms                    Advanced Technology Solar
  (rovers)                            Telescope
------------------------------------------------------------------------

Inter-agency coordination and cooperation
    In agreement with earlier reports dealing with astronomy and 
astrophysics, both new reports note that contemporary scientific 
questions are growing ever larger in scope. The increase in measurement 
complexity and the ambitiousness of scientific goals are said to demand 
that all relevant Federal agencies work together.
    The solar system exploration report recommends that NASA 
collaborate with the NSF on a large ground-based telescope. The solar 
and space physics report notes that ``Interagency coordination over the 
years often has yielded greater science returns than could be expected 
from any set of single agency activities . . . In the future, it is 
possible that a research initiative within one agency could trigger a 
window of opportunity for a research initiative in another agency.'' 
The report then recommends that ``The principal agencies involved in 
solar and space physics research--NASA, NSF, NOAA, and DOD--should 
implement a management process that will ensure a high level of 
coordination in this field, and that will disseminate the results of 
such a coordinated effort widely and frequently to the research 
community. . . . Increased attention should be devoted to the 
coordination among NASA, NSF, NOAA, and DOD of research findings, 
models, and instrumentation so that new developments in each of the 
areas can quickly be incorporated into operational and applications 
programs of NOAA and DOD.''
International cooperation
    All the reports agree that international collaboration is vital for 
furthering scientific knowledge in the areas of space science, 
astronomy, and physics, and all reports cite or imply two reasons to 
continue pursuing international partnerships:

  1.  Missions and projects can be accomplished that the U.S. would not 
        otherwise be able to support financially by itself.

  2.  The exchange of resources, scientists, and ideas across 
        international boundaries will enhance scientific return.

    The solar system exploration report recommends ``that NASA 
encourage and continue to pursue cooperative programs with other 
nations.'' Similar views appear in the solar and space physics report, 
which describes how international collaboration is especially important 
in solar and space physics. The committee finds, ``The United States 
has strongly benefited from international collaborations and 
cooperative research in solar and space physics . . . Sharing the 
financial burden has allowed the space physics community to execute an 
ambitious and effective program in a cost-effective manner. The 
benefits of these international activities have permitted the 
acquisition of data and understanding that are essential for the 
advancement of science and of applications.''
Education and Public Outreach
    The surveys express concerns about the decreasing number of 
undergraduates pursuing degrees in the physical sciences. They suggest 
more effort at collaborations between educators and researchers to 
create and improve K-12 programs. The reports note that these programs 
must spark the interest of the younger population in the areas of 
astronomy, physics, and space science. They also make explicit 
references to the NASA Office of Space Science education and public 
outreach program, and they endorse better communication between the 
science and education communities and point to shortfalls in funding. 
The solar and space physics report goes on to recommend that solar and 
space physics be integrated into physical science curricula at both the 
undergraduate and graduate levels.
General Observations, Conclusions, and Lessons Learned About Decadal 
        Strategy Surveys
    In addition to the common themes in the survey reports themselves, 
there are notable conclusions from an assessment of how successful were 
the processes of conducting the surveys. The following reflect a 
sampling of the perspectives of survey committee chairs and members and 
other participants in the studies.
    Perhaps the most important broad conclusion to be drawn is that 
cross-program priorities can be established when a community sees the 
effort as being beneficial to the long-term health of the field. This 
had been demonstrated amply for astronomy and astrophysics, but whether 
other discipline communities could manage such an ambitious task had 
once been uncertain, even doubtful. The new surveys that were completed 
in 2002 serve to illustrate that debating and setting specific, 
consensus priorities for a whole field is feasible.
    One critical success factor is the extent to which the members of 
the research community have opportunities to participate in the process 
to have their views considered. Broad community involvement appears to 
have been essential to establish ownership and acceptance and to 
sustain consensus across the discipline.
    The astronomy and astrophysics surveys have a 40-year history on 
which they can be judged, and the record is one of largely successful 
impacts in terms of the staying power and actual implementation of the 
consensus recommendations. The other surveys are still new, and so they 
remain to be assessed for impact.<SUP>viii</SUP> Nevertheless, there 
are a few key attributes that do appear to be critical for success. 
First, translating explicit scientific priorities into clear program 
priorities makes the strategies more useful and more powerful. This 
step can put a clear sense of realism and commitment in the strategies 
and provide clear guidance for decision makers about the views of the 
scientific community.
    Second, there is a delicate balance between setting firm priorities 
and leaving flexibility for agency managers to deal with the vagaries 
of the Federal budget process and new developments in a field. Because 
the survey reports are advisory and not binding, agency officials 
always do have such flexibility, but the more a report appears to tie 
an official's hands or move from scientific advice to implementation 
direction, the more delicate aspects of the process become. A second 
important challenge that appears to confront all the surveys here is 
the process of making reliable, quantitative, program cost estimates by 
which to categorize recommended initiatives. Survey committees are not 
especially well equipped to perform substantive cost analyses, 
particularly without having to rely on either the agencies they are 
advising or program advocates with agendas of their own. However the 
failure to be realistic about cost assessments can ultimately undermine 
the credibility of the overall recommendations.
    Finally, to repeat an important point with which this article 
began, distinctions and discipline-unique findings and recommendations 
in each of the reports are equally important and should not be 
overlooked. While the different surveys often do reinforce one-another 
and do share important common themes, they always need to be accepted 
as unique treatments of their respective fields for which there are 
unique conclusions and recommended strategic actions that merit 
attention.
Footnote References
    <SUP>i</SUP> Ground-based Astronomy: A Ten-Year Program, NRC, 1964
    <SUP>ii</SUP> The most recent astronomy and astrophysics survey was 
Astronomy and Astrophysics in the New Millennium, NRC, 2000.
    <SUP>iii</SUP> New Frontiers in the Solar System: An Integrated 
Exploration Strategy, NRC, 2002
    <SUP>iv</SUP> The Sun to the Earth--and Beyond: A Decadal Research 
Strategy in Solar and Space Physics, NRC, 2002
    <SUP>v</SUP> While the opinions expressed in this article are 
solely the author's, the thoughtful suggestions and perspectives from 
NRC and Space Studies Board colleagues, especially Michael Belton, 
Radford Byerly, Louis Lanzerotti, John McElroy, George Paulikas, Lara 
Pierpoint, Donald Shapero, and David Smith are acknowledged with 
pleasure.
    <SUP>vi</SUP> From New Frontiers in the Solar System: An Integrated 
Exploration Strategy, NRC, 2002
    <SUP>vii</SUP> From The Sun to the Earth--and Beyond: A Decadal 
Research Strategy in Solar and Space Physics, NRC, 2002
    <SUP>viii</SUP> In fact a significant number of the initiatives 
recommended in the solar system exploration report are included in the 
Administration's NASA budget proposal for Fiscal Year 2004.
                                 ______
                                 
       Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Richard C. Zilmer
    Question. General Zilmer, the Senate has discussed the use of 
satellites for missile defense at length over the past few years. Is 
there a future for this technology?
                                 ______
                                 
       Written Question Submitted by Hon. Frank R. Lautenberg to 
                           Gregory W. Withee
    Question.Mr. Withee, I think we all would like to have more 
reliable weather forecasts for ourselves and certainly for our troops, 
but we're just not there yet. Could you discuss the level of investment 
you feel would be necessary to dramatically improve the quality of our 
weather forecasting? And how long would this take to implement?
                                 ______
                                 
 Response to Written Question Submitted by Hon. Frank R. Lautenberg to 
                      Michael J. S. Belton, Ph.D.
    Question. Mr. Belton, the quest for pure knowledge has driven the 
academic world for much of our history. Knowledge for knowledge's sake 
undeniably has great value. But as there is so much that we do not know 
about space, are you able to foresee discoveries that could lead to 
practical improvements in the lives of everyday people? If you had to 
justify increased investment in space exploration, what would be your 
overarching reason?
    Answer.
    Dear Senator Lautenberg:

    Thank you for your question, I will do my best to provide an answer 
below.
    First, in agreement with the language in your question, the quest 
for new knowledge, i.e., scientific research and exploration, is, in my 
opinion, the fundamental basis of our modern way of life. Space 
exploration is only a part of this and it effects the way we live and 
conduct our daily business in only indirect ways. Its effects are 
mainly in the way we think of and perceive the future. In the longer 
term future, the benefits of space exploration may not be so indirect. 
For example, it is a fact that sometime in the future we, i.e., all of 
us, will face the prospect of the collision of an asteroid or comet 
with the Earth. Even the smallest, most probable, of these will release 
the energy of 1--2 hydrogen bombs at a random location.If we are 
unlucky, it could be 10 or 100 times worse. Providing that we will have 
advance knowledge of this event--and we (i.e., NASA) are looking now 
with increasing capability--all that we have learned from the current 
and past exploration program of small bodies in the solar system will 
be brought into play. This is part of the value of having a continuing 
robotic space exploration program.
    I have attached a copy of a paper that I have written on the 
subject that shows that just to prepare for such an emergency will take 
the order of 25 years and $5B of U.S. treasure.
    Another part of your question asks about ``..are you able to 
foresee discoveries..'' The short answer is no, by definition of the 
word ``discovery''! However, perhaps a more satisfactory response is to 
answer that we can be sure that such discoveries will, in fact, be 
made. This is easily demonstrated in the history of robotic space 
exploration where the view of the solar system, its origins, and 
evolution has been transformed in the last 30 years. The school books 
have been rewritten several times on this subject; the minds and 
outlooks of our children have been affected in profound ways that will 
only be fully understood in a generation or so.
    Finally, if I had to justify an increased investment in robotic 
space exploration my overarching reason would be that we have in the 
last 30 years taken the current space technology as far as it can go 
and to ensure that we get the greatest return for our continuing 
investment we need a new advanced technology in space. To advance our 
knowledge further we need a new approach to in-space power, in-space 
propulsion, advance communications systems, autonomous avionics, 
microtechnology, etc. All of these things are in the proposed Project 
Prometheus that the administration has put before the congress, 
including new, exciting, and potentially enormously productive science 
missions that will employ this advanced technology.
    In the above I have mainly addressed robotic exploration, but there 
is another (expensive and worrisome) aspect--i.e., human spaceflight. 
Here I believe that we urgently need a NEW goal to make it worthwhile. 
I have recently written a letter to Dr. Gary Martin, NASA's Space 
Architect on this subject. My advice is to move human spaceflight to 
new challenges beyond LEO activities into near-Earth space. I believe 
that this activity should be coupled with something that will 
ultimately be useful to all mankind, i.e., learning how to mitigate the 
prospect of mitigating an impending collision of a sizable asteroid or 
comet with the Earth. If you have time to read my paper you will see 
that this is a non-negligible challenge that will need time, money, and 
all of the ingenuity that the human race can muster.
    I hope this response helps you answer some of the big questions 
that are facing you this year in congress.
            Yours sincerely,
                                   Dr. Michael J.S. Belton,
                                                         President,
                             Belton Space Exploration Initiatives, LLC.
                                               Emeritus Astronomer,
                                National Optical Astronomy Observatory.
                               Attachment

   Towards a National Program to Remove the Threat of Hazardous NEOs

     Michael J.S. Belton--Belton Space Exploration Initiatives, LLC

    I consider issues associated with the establishment of a national 
program in the United States to prevent asteroidal collisions with the 
Earth. I take the position that costs associated with future damage to 
social infrastructure rather than potential loss of life will stimulate 
public representatives to begin work on a system to mitigate the 
possibility of an asteroidal collision. With some uncertainty, there is 
a 0.3 percent chance of a 50-meter, or larger, sized asteroid impacting 
United States territory in the lifetime of its current population (100 
years). I show how a probable lack of concern for this small 
probability might be offset by the cost of the damage that could be 
caused by the large energy release (>10 Megatons of TNT) on impact.
    I outline four conditions, focused on the interests of United 
States citizens, that I believe will need to be met before the start of 
a national mitigation program is viable. These reflect issues of public 
concern, feasibility, cost, timing, and security. Establishment of a 
public consensus on how well these conditions have been met and some 
modestly detailed preplanning are probably prerequisites for the 
initiation of a national program. I outline a planning roadmap that 
indicates what a national program might look like up to the point where 
work on a practical mitigation project directed at a specific target 
could begin. I also indicate how responsibilities for the task might be 
divided up between different government agencies. Rough estimates of 
the time to complete these preliminary activities (25 yr), and a rough 
estimate of the cost ($5B) are given.
Introduction
    It is a demonstrable fact that asteroids of all sizes and less 
frequently cometary nuclei suffer collisions with the Earth's surface. 
The impact hazard, which is defined in Morrison et al. (2002) as ``. . 
.the probability for an individual of premature death as a consequence 
of impact,'' has undergone considerable analysis with the conclusion 
that the greatest risk is from the very rare collisions of relatively 
large asteroids that can create a global scale catastrophe in the 
biosphere (Chapman and Morrison, 1994). In the last decade, the 
question of how to deal with the hazard has lead to considerable 
activity and advocacy on the part of the interested scientific 
community, and activity at government level has been stimulated in the 
United States, Europe and Japan (a detailed overview is given by 
Morrison et al., 2002): There are now survey programs to search for 
objects that could be potentially hazardous; there are high-level calls 
for increased observational efforts to characterize the physical and 
compositional nature of near Earth objects (e.g., The UK NEO Task Force 
report, Atkinson, 2000); an impact hazard scale has been invented to 
provide the public with an assessment of the magnitude of the hazard 
from a particular object; there have been considerable advances in the 
accuracy of orbit determination and impact probability.
    Nevertheless, it seems that the question of how governments should 
go about preparing to mitigate the hazard needs some further attention. 
It has been advocated, as reflected in the review of Morrison et al. 
(2002), that because of long warning times (decades to hundreds of 
years have been suggested) we should simply wait until an actual 
impactor is identified to develop a mitigation system for asteroidal 
collisions. In the mean time, or so it is presumed, surveys to reach 
ever-smaller objects, scientific research and exploration 
characterizing these objects, basic research, etc., would continue to 
be supported by government agencies much as they are today. Such 
presumptions are, in my opinion, dangerous and, unfortunately, a high 
priority for these activities relative to other future scientific 
endeavors cannot always be guaranteed. Productive programs that enjoy 
adequate support today may face dwindling support in the future simply 
because of changing national priorities and interests. In addition, 
waiting an indeterminate amount of time for an impactor to be found 
invites, at least in my opinion, neglect; particularly at the level of 
government.
    To resolve these problems in the United States an affordable and 
justifiable national plan is needed, which incorporates the above 
scientific research and exploration and that is focused on the 
technical goal of mitigating the most probable kind of the impact that 
can cause serious damage to the social infrastructure in the lifetime 
of the current population. Such an approach requires redefining the 
hazard in terms of cost rather than deaths together with a 
demonstration that the expected cost of the plan is commensurate with 
the losses that would most likely be incurred in the impact. This 
approach also builds into a mitigation program the notion of scientific 
requirements. An operational mitigation system or device can still wait 
until an impactor is identified, but meeting the scientific 
requirements for that system is something that ought and, I believe, 
should proceed now. There are other benefits to this approach: (1) by 
defining this program as a technical imperative rather than a 
scientific one the element of direct competition with established 
science goals is removed--even while significant elements of the 
program remain scientifically productive. (2) By focusing on the most 
probable impacts, i.e., smaller asteroids, a process of learning and 
gaining experience is implied that might, unless fate and statistics 
defeat us, allow us to more effectively deal with the larger and less 
probable objects further into the future.
Goals
    The probability of impact appears to be random and the average 
impact rates of the dominant component--the near-Earth asteroids--are 
reasonably well known. In this chapter I will consistently use impact 
rates estimated by a power law distribution in Morrison et al., (2002). 
In other recent, but unpublished, work it is pointed out that the 
observed rates for objects near 50 m in size may be even less by a 
factor as large as 2 (Harris, 2002). If these new rates are 
substantiated it should be a straightforward task to adjust the 
relevant numbers given in this paper with little change to the 
argument.
    Asteroids larger than 50 meters across, roughly the minimum size 
that could cause calamitous effects at the surface, collide with the 
Earth on average once every 600 years. This is equivalent to roughly a 
0.3 percent chance that United States territory could be hit in the 
lifetime of its population (100 years). With a typical relative 
velocity near 20 km/sec (Morrison et al., 2002) the impact will almost 
instantaneously release an energy of 10\16\-10\17\ Joules into the 
local environment, i.e., roughly the equivalent of a 10 Megaton bomb or 
about half the energy that the United States Geological Survey 
estimates was released in the Mount St. Helens volcanic event. I have 
chosen to deal with objects of this size because they are the most 
likely impactors that present day American public officials may have to 
deal with. Also the effects of such natural disasters are close to the 
realm of contemporary public experience, e.g., the effects of the 1908 
Tunguska meteor explosion over the Siberian wilderness where the blast 
severely affected an area of 2000 km\2\ of forestland are widely known 
(Vasilyev, 1998). Impacts by much larger objects, i.e., larger than 
about 1 km that can cause global scale catastrophes, will, by 
definition, also affect U.S. territories whatever the location of the 
impact (Chapman, 2001). But these less frequent collisions occur at a 
global rate of about 1 per 500,000 yrs, which translates into a 0.02 
percent chance during the lifetime of the current population of the 
United States. While I include these kinds of impacts in the argument 
below, it does not depend upon them. At the present time no government 
agency in the United States has been given the responsibility to deal 
with these potentially hazardous collisions. NASA exercises a mandate 
from the U.S. Congress to locate 90 percent of the objects greater than 
1 km that exist in near-Earth space by 2008 but has no existing 
authority to act if an object on a collision trajectory is found 
(Weiler, 2002). Given the above collection of facts, it would seem that 
the primary issues that confront society with respect to mitigation 
are: When is the best time to invest in the research and development 
that would make it practical to mitigate the effects of such hazardous 
collisions in the future? Who should be responsible? And, what is the 
best way to go about it?
    One can anticipate that achieving resolution on such issues will be 
a controversial task and each of the above questions could stimulate 
wide discussion. In this chapter I will simply assume that, if the 
justifications outlined below hold up, most United States citizens will 
want their government representatives to support the development of a 
system that could prevent the impact of a dangerous asteroid (i.e., one 
greater than 50 meters in size) found on a collision course with United 
States territory, or a 1 km asteroid found on a collision course with 
the planet at large, particularly if it were to occur during their 
lives. The prevention of such collisions I take to be the goal of the 
national mitigation program.
Justifications
    There is a set of conditions that I expect would have to be 
satisfied in order to justify the expenditure of U.S. national treasure 
on an asteroid mitigation system. These conditions reflect the kinds of 
questions that I believe any reasonable citizen might ask before 
agreeing to proceed, e.g., why are such a low probability events worth 
worrying about? Is today's technology up to the job? Will the result of 
this effort be useful to us even in the absence of a collision in our 
lifetimes? Will this effort to protect our lives and property create 
collateral problems we don't need? I have tried to capture the essence 
of these questions in the following statements:

  1.  The public would need to view the prospect of an impact by a 50 m 
        asteroid within the territorial boundaries of the United 
        States, or 1 km object impacting anywhere on Earth, as a 
        serious concern.

  2.  Our technical ability to create a reliable mitigation system 
        would need to be reasonably assured, and it should be possible 
        to build it in time to give a fair chance that the next 
        hazardous object to threaten the territories of the United 
        States could be dealt with.

  3.  The net cost of creating a reliable mitigation system should be 
        no more than typical losses that might be incurred if an impact 
        of a 50 m object were to happen within the territorial 
        boundaries of the United States.

  4.  The implementation of a mitigation system must not create more 
        dangers than already exist.

    It seems self evident that the first step towards a national 
program would be a high-level, government-sponsored, study of such 
issues. This would be followed, if warranted, by the assignment of 
responsibility and the establishment of a funded program perhaps along 
the lines of existing community recommendations. (e.g., those in the 
report of Belton et al., 2003).
    The first condition involves the perception and assessment of risk 
by the public. This is apparently a topic with few experts (cf. Chapman 
2001) and maybe impossible to quantify. In my view, it is essentially a 
political issue and any assessment is almost certainly made best by 
politicians currently in office, e.g., by relevant congressional 
committees or in the administration itself. I have already noted that 
the impact rate for 50-meter and larger objects give about a 0.3 
percent chance of an asteroid collision on U.S. territory during the 
lifetime of the population. The chances that any particular location in 
the U.S. would be directly affected are approximately 5000 times less. 
These chances have to be modified for coastal cities (where much of the 
population resides) since they could be seriously inundated by a tidal 
wave, say 5m high or greater, caused by asteroids that impact in the 
ocean. Ward and Asphaug (2000) have considered such impacts, but their 
impact rates for the most efficient impactors for this process are 
about six times too high relative to those in Morrison et al., (2002). 
Correcting for this I find the respective chances of this happening are 
about 0.07, 0.03, and 0.1 percent for San Francisco, New York City, and 
Hilo in a 100-year period. To make it clear that these are small 
probabilities, I note that the chance that the population will not 
experience the effects from a collision in its lifetime is about 99.6 
percent. Such small chances are, I believe, unlikely to raise much 
public concern even though the threat is real. It is only when palpable 
knowledge of the level of destruction that a random 10 megaton 
explosion could cause on a particular area, e.g., the combined energy 
released by more than 770 Hiroshima bombs, or roughly half the energy 
of the Mt. St. Helens disaster, or roughly 10 times the energy radiated 
by the largest earthquake ever recorded in the US, is pointed out to 
the public that notice might be taken. When knowledge of this level of 
destruction is combined with an awareness that a reliable defense could 
be built for a relatively modest cost, and that some significant 
fraction of the costs could themselves be mitigated through productive 
applications to science and space exploration, then I believe there is 
a chance that the need for a mitigation effort now could become 
justified in the public mind.
    It is interesting to speculate on how typical individuals in the 
population might view these risks and trades. I would imagine that such 
persons would quickly conclude that an impact would be very unlikely to 
have any direct affect on them, their family, or their livelihood. I 
would expect that they would quickly lose interest and presume that if 
something should be done about such rare and terrible events then 
``someone'' in government would be taking care of it. They might be 
surprised to learn that the ``someone'' in government they assumed to 
be taking care of things doesn't exist and that, in fact, no one in 
government presently has any responsibility to do anything about it. 
Certainly, in the aftermath of a random 10 Megaton explosion somewhere 
in the United States, or a 5-meter tsunami wave inundating a coastal 
city, they would be both pleased at the performance of disaster relief 
and tsunami warning organizations but sorely perplexed by the lack of 
preparedness in government organizations that might have prevented the 
disaster.
    The second condition addresses whether the construction of a 
reliable mitigation system can be assured and whether it would be 
timely. There appear to be four essential elements in such a system. 
First, there must be an assured ability to locate and determine the 
orbit of the impactor with sufficient accuracy and warning time; 
second, it must be possible to reliably deduce the general physical 
properties of the impactor so that planning for a mitigation system can 
achieve a reliable result; third, we must have the ability to intercept 
it before the collision takes place; and fourth, we must have the 
ability to deflect or disrupt the impactor.
    Most objects hazardous to the earth are on near-Earth orbits 
(Chesley & Spahr, chapter 2). To reach most of the 50 m sized objects 
in 10 years, telescopic surveys would have to operate at around V = 25 
magnitude (this is based on an extrapolation of data in Morrison et 
al., 2002). By comparison, the surveys that are operating today have a 
limiting magnitude near 19.7 mag, i.e., more than a factor of 100 
brighter. These rough figures simply mean that at present telescopic 
technology is very far from what would be required to meet the goal of 
the national mitigation program. However, plans are already afoot that 
will push the present survey capability to a limiting magnitude of V=24 
where most 200 meter objects could be found in a 10 year period. The 
proposed Large-aperture Synoptic Survey Telescope (LSST) facility could 
do this if the requirement is built into the design. The implementation 
of such a telescope, which is at the edge of present engineering 
technology, has already been advocated in the reports of two 
independent committees backed by the National Research Council (Space 
Studies Board 2001, 2000a). To reach 90 percent completeness at V=25 in 
a reasonable amount of time new technological limits would need to be 
achieved on the ground or space based systems will be required (e.g., 
Jedicke et al., 2002; Leipold et al., 2002). As put succinctly by 
Jewitt (2000) if these, or similar, facilities are not made available: 
``. . . we will have to face the asteroidal impact hazard with our eyes 
wide shut.''
    Detection of near-Earth objects is only a part of the equation. 
Also essential is the capability for rapid determination of accurate 
orbits to yield long warning times and accurate calculation of impact 
location and probability. These are not minor requirements and demand 
extended post discovery follow-up observations (Chesley and Spahr, 
chapter 2), advances in astronomical radar systems (Ostro and Giorgini, 
chapter 3), and in computing technology (Milani et al., 2003). While 
the above discussion indicates that a large increase above today's 
capability is called for and a considerable amount of telescope 
building and observational and interpretive work over an extended 
period of time are implied, there appear, at least in my opinion, to be 
no fundamental showstoppers to this aspect of a mitigation system. Time 
and money are the limiting factors.
    Detailed knowledge of the general physical properties (mass, spin 
state, shape, moments of inertia, state of fracture, and a range of 
surface properties) will be needed for any hazardous asteroid that 
becomes a target (Gritzner and Kahle, chapter 9). Just the choice of a 
particular mitigation technology and its operating parameters will 
obviously be sensitive to the physical and compositional nature of the 
target. Experience shows that only a few of these parameters can be 
deduced with any precision from Earth based observations and in situ 
space missions will need to be flown to determine these parameters. 
Since this would at least take the time needed to build, launch and to 
intercept a hazardous target, typically 4 or 5 years, it is possible 
that there will not be enough warning time to accomplish this. In such 
a case the mitigation system itself may have to determine some of the 
critical properties (e.g., shape, mass, moments of inertia, internal 
state of fracture . . .) when it arrives at the target while other 
properties would have to be inferred from a database of properties that 
has been built up as part of a more general exploration and research 
program. The latter will also play a crucial role in developing several 
new and essential measurement techniques, e.g., radio tomography 
(Kofman and Safaeinili, chapter 10) and seismic assessment (Walker and 
Huebner, chapter 11; also Ball et al., chapter 12) of the interior 
structure of small asteroids, and new ways to measure the composition 
and porosity of surface materials. It seems clear that an aggressive 
near-Earth asteroid space exploration program will need to be 
integrated within the mitigation program.
    The requirement for robotic spacecraft to intercept and to land on 
a small asteroid is easily within current capability and has already 
been demonstrated by the NEAR mission at the asteroid Eros (Veverka et 
al., 2001). Mitigation techniques may require more advanced capability 
for operations around these small, very low mass, objects as discussed 
by Scheeres (chapter 14), but, again no serious impediments that could 
derail a future mitigation project are anticipated.
    Our ability to disrupt, or adequately deflect, a rogue asteroid of 
a particular size headed towards Earth is completely hypothetical at 
the present time. There are many ideas (for a summary see Gritzner and 
Kahle, chapter 9) on what should be done and there are clearly many 
serious uncertainties in the application of nuclear devices (Holsapple, 
chapter 6). Similar uncertainties are also latent in the application of 
a solar concentrator (Gritzner and Kahle, chapter 9). From a purely 
theoretical point of view it should be possible to find technical 
solutions these problems. However, it is clear that early in situ 
interaction experiments need to be done on small objects before we can 
be sure where the problems are and which techniques are viable. The 
B612 Foundation (www.b612foundation.org) has been formed to address the 
challenge of demonstrating that significant alterations to the orbit of 
an asteroid can be made in a controlled manner by 2015. Success with 
this endeavor would also be a major landmark in any mitigation program.
    In summary, it would seem that we already have experience with many 
of the elements needed for mitigation, but that significant 
development, new capability, and time will be required for success. The 
lack of a demonstrated technique for deflection or disruption is a 
particular cause for concern. There are also other serious 
uncertainties, the chief being whether or not human activities in space 
(e.g., for the assembly of parts of the system in low Earth orbit, or 
at the target asteroid) would need to be included. This could strongly 
affect the ultimate cost of a practical mitigation system and therefore 
its viability. But overall, though there are many technical areas that 
need considerable investment in time and money to achieve success, 
there appear to be no fundamental reasons why a mitigation system could 
not succeed.
    The third condition has to do with the cost of a mitigation system. 
For costs to be acceptable the mitigation program costs should be 
comparable (hopefully less) than estimates of the cost of the damage 
caused by the most probable kind collision, i.e., that of a 50 m 
asteroid, on the territory of the United States in the lifetime of the 
current population. The advantage of estimating costs this way is that 
we can deal with real examples of costs incurred as a result of damage 
to infrastructure that are provided by historical events.
    The United States is a well-developed country and has many large 
metropolitan areas and valuable, if modestly populated, rural areas. 
Even its under populated desert areas often have valuable resources 
embedded in them. The economic losses, mainly timber, civil works and 
agricultural losses associated with the 1980 Mt. St Helens event in 
rural Washington State (approximate energy release: 24 megatons) were 
estimated at $1.1 billion in a congressionally supported study by the 
International Trade Commission. In a metropolitan area near Los 
Angeles, the 1994 Northridge earthquake caused economic loss that was 
officially estimated at $15 billion with most of the damage within 16 
km of the epicentral area, and here the energy release was far less 
than that which could be released by the kind of impact that we are 
considering. I believe that these two examples are near the extremes of 
the economic losses that might be incurred as a result of a localized 
10-megaton event occurring at a random place within the United States. 
On this basis I would argue that a $10 billion cost cap to a mitigation 
program would not be out of line. In the planning roadmap developed 
below an investment of approximately $5 billion should cover the costs 
of the initial preparatory phase of a mitigation program with the 
expenditures extending over 25 years, i.e., an average funding level of 
$200 million/year. This is not far from the typical levels invested in 
major program lines at NASA today, and so the amount is not unusually 
large. This leaves a further $5 billion that would be available for the 
implementation of mitigation mission to a specific target. Providing 
human spaceflight participation is not needed, this is within the 
expected costs of other extremely large robotic missions that have been 
flown or proposed. My conclusion is that condition on cost can be met 
and that the annual budget for a mitigation program will not be too 
different from costs experienced in existing robotic space programs. If 
human spaceflight is shown to be an essential element in a mitigation 
system, then the cost argument made here will need to be substantially 
modified,
    The fourth and final condition has to do with environmental and 
civil security. Mitigation concepts that depend on even a modest 
proliferation of explosive nuclear devices in space or on the ground 
will, in my opinion, be non-starters if this condition is to be met.
Mitigation Programmatics
    Mounting a defense against a sizable incoming object from space 
will be a complex task. There are national and international issues 
that need to be resolved; there are issues involving the delegation of 
responsibility between civil and military authorities; there are 
science issues; there are political issues involving goal setting, 
mission scope, and cost containment; and, finally, there are 
environmental and civil security issues.
    Here I advocate a three-phase process to establish a mitigation 
capability that roughly separates out strategic, preparatory, and 
implementation functions. It is probably prudent if these are 
accomplished sequentially since changes in one can be expected to have 
large consequences for the phases that follow.
    The purpose of the first, or strategic, phase is to clarify the 
overall goal of the program, set up its scope, identify funding, and 
the assign responsibilities. Because of the significance of the 
mitigation program to the entire population, It should be initiated by 
a responsible entity within the Federal Government, either in the 
administration or the congress, with, presumably, expert advice from 
individuals and grass roots organizations.
    The second, or preparatory, phase includes all that needs to be 
done to achieve the scientific and engineering requirements on which 
the design of a reliable and effective mitigation system will depend. 
This phase begins once an assignment of responsibility is made and 
funds are available to proceed. It should ideally be completed before a 
target on a collision course is identified, but in case we are not this 
fortunate, it should also include an ``amelioration'' element that 
takes care of what to do if an unexpected collision occurs.
    The last, or implementation, phase can only be pursued efficiently 
after the preparatory phase is completed and a hazardous target has 
been identified. In this phase all of the specific requirements of a 
particular target are addressed and the construction, test and 
implementation of an actual mitigation device is carried out. To my 
knowledge no one has advocated beginning work on this phase at this 
time. It is probably the most expensive part of the work and may 
involve elements of human spaceflight.
The Strategic Phase
    I have already advocated that the goal of a national program would 
be to design and implement a system to negate the most probable 
collision threat to United States territories in the next 100 years: a 
50-meter or larger near-Earth asteroid. The prime task in the strategic 
phase, which might take 3-5 years to accomplish, would be to assess 
this goal in competition with alternative program concepts and make a 
definitive selection. Identification of an approximate timeline, 
suitable programmatic arrangements, and an adequate budget profile, 
i.e., a roadmap, would follow. Institutional responsibility would need 
to be assigned. Expert preliminary technical evaluation in the 
strategic phase is necessary to ensure that the goal is achievable and 
to obtain a better basis for cost estimation. There are many sources of 
advice including existing expertise within government agencies, their 
advisory committees, and committees of the National Academies.
    I have placed considerable stress on the idea that the program 
should start out as a national program rather than one that is 
international in scope. This is a matter of pragmatism rather than 
xenophobia. Fostering program growth from existing expertise within the 
national space program should be more effective and less costly than 
initiating a brand new top-down international effort. The program may 
also involve discussion and use of military assets that could be a 
sensitive issue if placed in an international context. Finally, it is 
well known that national policies and priorities change on short 
timescales tied to political cycles, while stable funding and a 
sustained effort over two or three decades is needed for a mitigation 
program. I believe that such stability is best obtained in the context 
of a national program. Cost can also be expected to be an issue in an 
international program. While it would be beneficial to share 
development costs, I would expect the total program costs to be 
enlarged over that of a national program in order to immediately 
encompass a mitigation system capable of addressing the more difficult 
goal of combating large near-Earth asteroids that can do global damage. 
With this said, it is important to recognize that the collision threat 
is worldwide and much expertise lies beyond national boundaries. 
International cooperative projects that contribute to a national 
program are obviously to be encouraged. For an indication of the level 
of international interest and direction the reader is referred to the 
conclusions reached in the Final Report of the Workshop on Near Earth 
Objects: Risks, Policies and Actions sponsored by the Global Science 
Forum (OECD 2003) that suggest actions that could be taken at 
governmental level.
    It should also be understood at the outset that the mitigation 
program advocated here is aimed at a specific technical goal and is not 
a scientific or space exploration program. To be sure, the program will 
have remarkable scientific and exploratory spin-offs, but these are not 
in any sense the primary goal. This is important because closely allied 
scientific and exploratory endeavors already have well thought out 
priorities and widely supported goals that should not be perturbed by 
the establishment of a mitigation program. This is particularly so in 
astronomy and astrophysics, in solar system exploration, and in space 
physics where goals are focused on understanding origins--particularly 
of life, physical and chemical evolution, and the processes that 
explain what we experience in space (Space Studies Board, 2001, 2002a, 
2002b). It would, in my opinion, be disruptive to try and embed a 
national mitigation program within one of these scientific endeavors. 
For mitigation, a separate program with a clear technical goal is 
required.
The Preparatory Phase
    This phase should include at least the following five elements: 
hazard identification, amelioration, basic research, physical 
characterization of targets, and, what I call, interaction system 
technology.
    Hazard Identification. The operational goal of this element would 
be to locate and determine the orbit of the next 50-meter, or larger, 
near-Earth object that will, if mitigation measures are not taken, 
collide with the Earth. This goal must be accomplished with sufficient 
accuracy to determine if the object will also collide on United States 
territory. It should also provide a sufficiently long warning time. 
Initially I propose to set the goal for this warning time as at least 
10 years, which is the minimum time that I expect it would take to 
implement a robotic mitigation system that might be capable of 
deflecting a 50 meter object. Astronomical survey systems are expected 
to yield much longer warning times (100 yr) for collisions with the 
Earth itself. But these warning times shrink when the impact error 
ellipse must fit within the area of United States territories (D. 
Yeomans, private communication).
    This is a distinctly different kind of goal from that associated 
with the Spaceguard survey and clearly goes far beyond it. Yet it is, 
in my opinion, a necessary goal if a national mitigation program is to 
be justified to the public. To pursue this goal, this element should 
contain the following components: (1) Completion of the Spaceguard 
survey. (2) Implementation of the Large-aperture Synoptic Survey 
Telescope project, along the lines recommended in the recent Solar 
System Exploration Survey (Space Studies Board, 2003), and a parallel 
development of the USAF/Hawaii PanStarrs telescope system (http://pan-
starrs.ifa.hawaii.edu) to pursue a modified Spaceguard goal which will 
lead to the detection and orbital properties of 90 percent of near-
Earth objects down to a size of 200-meters within about 10 years from 
the start of the survey. (3) Design and implementation of a 
technologically advanced survey system, or possibly a satellite project 
to take the Spaceguard goal down to the 50-meter size range. (4) A 
ground-based radar component developed from the capabilities that 
already exist at Goldstone and Arecibo in conjunction with other 
facilities (Ostro and Giorgini, Chapter 3) to provide improved orbits 
for potentially hazardous objects and to lengthen collision-warning 
times. (5) The final component is a suitably fast computing, data 
reduction, orbit determination, and archival capability. This 
capability could be part of the arrangements of one or more of the 
above telescope projects. To scope the size of the problem there are an 
estimated one million near-Earth space objects down to 50-meters in 
size and, using the results in Bottke et al., (chapter 1), only about 
250 of these may be hazardous to the Earth at the present time. 
However, there are some 210,000 objects in this population that, while 
not currently Earth impactors, could, through the effects of planetary 
perturbations, become hazardous to Earth in the relatively short term 
future (D. Yeomans, Private communication).
    In the roadmap (Figure 1) I show these projects with some overlap 
stretched out over a period of 25 years. It is envisioned that these 
telescope systems (and others available to the astronomical community) 
would provide follow-up observations for each other and, where 
possible, make physical observations.
    The goal of the Amelioration element is to mitigate the effects of 
unavoidable impacts. There are many community organizations that could 
fulfill this function throughout the United States and on a national 
level the new Department of Homeland Security would obviously be 
involved However, none of these organizations have, to my knowledge, 
been tasked on how to respond to an unanticipated impact. As the 
mitigation program progresses accurate warnings and alerts should 
become available and the newly invented Torino scale (Binzel 2000) will 
be used to communicate the level of danger to the public. Resources in 
the event of an actual disaster would presumably be allocated as is 
done today to provide relief from the effects of tsunamis, earthquakes, 
fires, and other natural disasters and not charged to the mitigation 
program itself.
    Basic Research. There is a need for a small basic research program 
within the umbrella of the mitigation effort that is unfettered from 
well-focused goals of the other components. Here a research scientist 
or engineer would be able to obtain funds to support the investigation 
of novel theoretical ideas or laboratory investigations that are 
related, but not necessarily tied, to established mitigation goals. 
Examples are investigations into the causes of the low bulk densities 
that are being found for many asteroids (Merline et al., 2002; Britt et 
al., 2002; Hilton, 2002), or the details of how shocks propagate in 
macroscopically porous materials are a couple of areas of current 
interest. There are already a number of individuals, many at academic 
institutions or private research facilities, undertaking such 
investigations in the United States who could form the core of this 
effort.
    Target Characterization. The goals of this element are twofold: (1) 
To obtain the information needed so that observations of a hazardous 
target can be confidently interpreted in terms of the surface and 
interior properties that are of most interest to mitigation; (2) To 
develop and gain experience with measurement techniques that allow 
characterization of the state of the interior of a small asteroid and 
the materials within a few tens of meters of its surface to the level 
of detail required for mitigation.
    To meet these goals the program should provide opportunities to try 
out novel types of instrumentation and perform detailed 
characterizations of the physical, compositional and dynamical 
properties of a wide sample of the primary asteroidal types with the 
purpose of creating an archive of such properties. This kind of 
research, of course, already has a substantial history with 
considerable advances in understanding spin properties (Pravec et al., 
2002), multiplicity and bulk density (Merline et al., 2002; Britt et 
al., 2002; Hilton, 2002) for asteroids as a group and the distribution 
of taxonomic groups within the NEOs (e.g., Dandy et al., 2003). 
Nevertheless, studies of the physical and compositional properties of 
these NEOs are being outstripped by their discovery rate. There are 
three elements that should run in parallel: (1) an Earth-based 
observational program focused on physical and compositional 
characterization, including radar studies, that can reach large numbers 
of objects and sample their diversity. Diagnostic spectral features 
over a broad frequency range should be sought to better characterize 
the nature of each object. (2) A reconnaissance program of low-cost 
multiple fly-by missions, similar to that advocated by the UK NEO Task 
force (Atkinson, 2000), to sample a wide diversity of objects and to 
respond quickly to particular hazardous objects so that a first order 
characterization of their properties can be accomplished. (3) A program 
of medium sized rendezvous missions that can sample their interiors, 
and get down onto their surfaces to do seismic investigations. I have 
included four of these relatively costly missions that would include 
ion drive propulsion and visit at least two targets each.
    The final component is a strong, coherent, data analysis and 
interpretation program. This should cut across all missions and include 
Earth based work. Participation beyond the membership of the scientific 
flight teams would be strongly encouraged. The goal here is to 
integrate the net experience of the entire suite of investigations and 
produce the most complete database available on the properties of near-
Earth asteroids, a database that can be confidently used to diagnose 
the properties of a potential Earth impactor.
    Interaction System technology. This element is the most technically 
oriented part of the preparation phase. Here the goal is to learn how 
to operate spacecraft and instruments in the close vicinity of the 
surfaces of very small asteroids, emplace and attach devices to their 
surfaces, learn their response to the application of various forms of 
energy and momentum, etc. All of these techniques must be learned (see, 
for example, the advice of Naka et al., 1997). Experience must be 
gained over the full range of surface environments that the various 
types of asteroids present. Experiments to test the ability and 
efficiency of candidate techniques to deflect and, possibly, disrupt 
very small, i.e., otherwise harmless, near-Earth asteroids should be 
done as part of this element. The history of space flight tells us that 
when the time comes to implement a particular mitigation device we 
should not trust the first time application to deliver on its promise. 
Much can go awry and practice will be needed. It is in this element of 
the plan that the necessary practice should be acquired.
    It is also in this element where it will become clear what, if any, 
role human spaceflight might play in a mitigation system. A completely 
robotic approach would presumably be much cheaper if, in fact, such an 
approach were feasible. But it is possible that human participation may 
be essential for the effectiveness and reliability of a mitigation 
system.
The Implementation Phase
    The goal of this phase is to safely deviate, disrupt, or otherwise 
render harmless a 50 meter or larger object found to be on a collision 
course with United States territory in the most reliable manner and at 
the lowest cost. This goal can be extended to the entire Earth if the 
hazardous object is found to be above the size that can cause global 
scale havoc. If the object is smaller than this critical size and not 
threatening U.S. territory, the United States may still be involved in 
the implementation of a mitigation device, but jointly with those 
nations whose territory is threatened. While this goal is clearly 
stated, addressing it will have some subtle difficulties due to errors 
latent in locating the precise impact point. Locating the latter within 
United States territory is much more difficult than determining that 
the Earth will undergo a collision. It may be that the implementation 
phase may have to start before it is determined for sure that United 
States territory is at risk (I thank D. Yeomans for this insight).
    It will not be possible to outline a detailed plan for this phase 
until the preparation phase is largely complete. Nevertheless, a few 
essential attributes seem self-evident: (1) It would only begin when a 
collision threat is confidently identified. (2) It would normally, 
i.e., if there were enough warning time, involve many of the same 
components found in the preparatory phase, but with their focus 
entirely oriented towards the target object itself. (3) It would 
include the design, construction, and application of the chosen 
mitigation system.
A Planning Roadmap
    Figure 1 lays out a crude timeline for the preparatory phase that 
shows how the different activities that have been described interlace 
with one another. Estimated dollar costs, without allowance for 
inflation, are simply based on personal experience in NASA flight 
programs. The timeline for the preparatory phase is presented over a 
25-year period. This time span is somewhat arbitrary and could have 
been made shorter by increasing the parallelism of the components. 
However, there are practical limits to such parallelism. These include 
the availability of facilities and qualified manpower, as well as 
acceptable limits on average and peak annual dollar costs. In my 
experience, average costs of $200-250M/yr with a peak of $300-400 in 
any one year are not untypical. The profile for this plan gives an 
average cost of $200M/year with a peak of $610M in year fifteen. This, 
relatively large peak is due to the confluence of work on six flight 
missions in a single year. Expert consideration of this plan with more 
focus on costs could presumably relieve the magnitude of this peak.
    Hazard identification includes the remainder of the Spaceguard 
program, half of the LSST, and PanStarrs programs, and, towards the end 
of the phase, a space based asteroid survey mission (SBAS) for the 
smaller objects and objects in orbits that are difficult to observe 
from the ground. In the case of the Spaceguard program, which is 
underway at the present time, I have assumed that this program would 
continue until the LSST and PanStarrs survey are well underway. The 
National Science Foundation (NSF) would presumably support the LSST and 
part of the PanStarrs program. Also included in this component are 
provisions for an underlying and continuing research and analysis 
program. One provision (HIR&A, or Hazard Identification Research and 
Analysis) is focused on providing search software, archiving, orbital 
analysis, and related tasks; the other is support for an ongoing 
program of radar observations related to high precision orbital 
determination. I have assumed that the SBAS (Space Based Asteroid 
Survey) mission would be pursued on the scale of a NASA Discovery 
program.
    For the Amelioration component I have assumed that elements of the 
Department of Homeland Security would undertake this task for a modest 
cost of $1.5M per year. This includes approximately $1M/yr for research 
into such issues as risk control, management, disaster preparation, 
etc. In the unlikely event that a collision occurs during the 
preparation period, special disaster relief funds would need to be 
appropriated as is usually done for unanticipated natural disasters on 
a case-by-case basis.
    The Basic Research component is shown as equally divided between 
theoretical and laboratory investigations. The correct balance between 
these lines would have to be judged on the basis of proposal pressure. 
The program scope is at the modest level of $2M/y, which should 
adequately support some 20 independent investigations.
    Target Characterization is broken down into four groupings: (1) A 
Reconnaissance mission line, which is conceived of a series of low-cost 
multiple flyby, impact, or multiple rendezvous missions similar to 
those recommended by the UK NEO Task Force (Atkinson, 2000). Its 
purpose is to provide basic physical and compositional data on the wide 
variety of NEOs that are known to exist. Based on experience with 
planning proposals, three targets per mission seems feasible with a new 
start every four years, i.e., six missions seems plausible. To lower 
costs, I also assume that the basic fight system will be similar in 
each mission with an average cost of $175M per mission. (2) An 
Interiors mission line consisting of three moderately complex missions 
with the goal of making a detailed survey of the state of the interior 
and subsurface of six different types of asteroids including, if 
possible, a candidate cometary nucleus. These multiple rendezvous 
mission missions are conceived of as focusing on either radio 
tomography or seismic investigations and would address at least two 
targets each. They are expected to fall near the low end of the cost 
range of the NASA New Frontiers mission line. (3) A data analysis line. 
Here the object is to encourage the larger science community (i.e., 
beyond the scientific flight teams) to get involved in the 
interpretation of the return from these missions and ensure that the 
data from all of the missions are looked at in an integrated way. (4) A 
Characterization (R&A) line which is to primarily to support Earth-
based telescopic investigations, including radar, of NEOs and 
potentially hazardous objects from the point of view of understanding 
their global physical and compositional properties.
    The Interaction system technology component is, at present, the 
most poorly defined part of the preparation phase. The necessity and 
scope of this component is based on the discussion of Naka et al. 
(1997) and in the roadmap I have broken the tasks down into two broad 
elements: (1) Interaction experiments, and (2) Intercept technology. It 
is clear that this element has goals of significant complexity and will 
need a considerable amount of detailed pre-planning. The lead 
responsibility for carrying out these missions should lie with the 
Department of Defense, although some sharing of responsibility with 
NASA may be required. I have imagined that the tasks in this element 
could be carried out within the scope of five relatively complex 
missions with costs similar to those of the Interior line.
Major milestones
    In programs of this size it is helpful to identify major 
accomplishments towards the underlying goal through a series of 
milestones. In Table 1 I list some candidate milestones showing the 
relative year in which they might be accomplished and the agency that 
would presumably be responsible.

------------------------------------------------------------------------
          Milestone                      Responsibility             Year
------------------------------------------------------------------------
Start of strategic phase                                        Congres1 or Administration
------------------------------------------------------------------------
Assignment of authority and                       Administration       2
 responsibility
------------------------------------------------------------------------
Congressional approval for a                                    Congres4
 new program line
------------------------------------------------------------------------
Start of preparatory phase                        NASA, DOD, DHS       5
------------------------------------------------------------------------
Start of reconnaissance line                                NASA       5
 missions
------------------------------------------------------------------------
Beginning of LSST survey                                     NSF       8
 (objects down to 200 m)
------------------------------------------------------------------------
Start of Interiors line                                     NASA       9
 missions
------------------------------------------------------------------------
Beginning of SBAS survey                                    NASA      20
 (objects down to 50 m)
------------------------------------------------------------------------
First demonstration of a                                     DOD      21
 deflection technique
------------------------------------------------------------------------
Determination of need for                                    DOD      21
 human participation in
 space
------------------------------------------------------------------------
Conclusion of preparatory                    NASA, NSF, DHS, DOD      30
 phase
------------------------------------------------------------------------

Summary
    I have presented what I believe is a practical approach to a 
national program to mitigate the threat from asteroidal collisions. It 
is based on a goal that addresses the most probable threat from an 
extraterrestrial object to the United States during the lifetime of the 
current population, i.e., the impact at of a 50-meter or larger near-
Earth object within the territorial boundaries of the United States 
during the next hundred years. I propose four conditions that would 
need to be met before the start of a program could proceed. In essence 
these conditions try to balance a presumed public disinterest due to 
the low probability of an impact and the relatively large cost of a 
program to deal with it, against the typical cost of damage to the 
social infrastructure that might occur and the bonus in scientific 
knowledge that the program would produce.
    The program itself is constructed from three components that would 
be pursued sequentially. A strategic phase, which lays the political 
and programmatic basis; a preparatory phase, which creates the 
necessary scientific and technical knowledge that is needed to provide 
a secure foundation for the design and implementation of a mitigation 
system; and an implementation phase, in which a mitigation system is 
built and flown with the goal of preventing a collision.
    A plan is outlined that accomplishes the strategic and preparatory 
phases within three decades at a modest annual budgetary level for a 
total cost of approximately $5 billion. The final implementation phase 
needs to be accomplished within a cost cap of $5 billion in order for 
the above argument to hold. It is expected that this can be achieved 
with a purely a robotic system. If, however, it is determined during 
the preparatory phase that human presence in space is needed as part of 
the system, the implementation costs can be expected to be larger than 
are allowed by the above arguments.
    In developing this program, I largely downplay three important 
issues often associated with mitigation: an impact by comet nucleus, an 
asteroidal collision by an object that is sufficiently large to cause a 
civilization-wrecking global catastrophe, and the large number of 
deaths that could caused by such events. This is done simply because of 
the rarity of such events, and the lack of any palpable public 
experience of the destructive force of such an incredible events on the 
Earth and, finally, what I perceive as a necessity: we must learn how 
to deal with small asteroids before we can expect much success in 
mitigating a collision involving a large one. Asteroidal collisions 
will continue to happen and, as our society grows, will have 
increasingly costly consequences. I would hope that the program that I 
have sketched out here might be considered as a first step towards the 
realization of an operational mitigation system in the United States.
Acknowledgements
    I would like to thank D. Yeomans, D. Morrison, C.R. Chapman, and W. 
Huntress for critical reviews of an early draft of this chapter.
References
    Atkinson, H., Tickell, C., and Williams, D. 2000. Report of the 
Task Force on Potentially Hazardous Near Earth Objects. British 
National Space Center, London (www.nearearthobjects.co.uk)
    Belton, M.J.S. 2003. Final Report. NASA Workshop on Scientific 
Requirements for Mitigation of Hazardous Comets and Asteroids. A copy 
of this report can be found on the Internet at www.noao.edu/meetings/
mitigation/
    Binzel, R.P. 2000. The Torino Impact Hazard Scale. Planet. Space 
Sci. 48, 297-303.
    Britt, D.T., Yeomans, D., Housen, K., and Consolmagno, G. 2002 
Gravitational Aggregates: Evidence and Evolution. In Asteroids III. 
(W.F. Bottke, Jr, A. Cellino, P. Paolicchi, and R. Binzel, Eds) 
University of Arizona Press, Tucson. 485-500.
    Chapman, C.R. 2001. Impact Lethality and Risks in Today's World: 
Lessons for Interpreting Earth History. In Proc. Conf. On Catastrophic 
Events and mass Extinctions; Impacts and Beyond. (eds. C. Koerberl & 
K.G. MacLeod; Geological Society of America Special Paper 356), 7-19.
    Chapman, C.R., and Morrision, M. 1994 Impacts on the Earth by 
Asteroids and Comets: Assessing the hazard. Nature 367, 33-39.
    Dandy, C.L., Fitzsimmons, A., and Collander-Brown, S.J. 2003. 
Optical Colors of 56 near-Earth objects: Trends with Size and Orbit. 
Icarus 163, 363-373
    Harris, A.W. 2002. A New Estimate of the Population of Small NEAs. 
Bull. Amer. Astron. Soc., 34, 835.
    Jedicke, R., Morbidelli, A., Spahr, T., Petit, J-L., and Bottke, W. 
Jnr 2003. Earth and Space Based NEO Survey Simulation: Prospects for 
Achieving the Spaceguard Goal. Icarus 161, 17-33.
    Jewitt, D. 2000. Astronomy: Eyes Wide Shut. Planetary Report XX, 4-
5.
    Leipold, M., von Richter, A., Hahn, G., Harris, A.W., Kuhrt, E., 
Michaelis, H., and Mottla, S. 2002. Earthguard-1: A NEO Detection Space 
Mission. Proc. Conf. Asteroids, Comets, Meteors ACM2002. ESA SP-500. 
107-110.
    Merline, W.J., Weidenschilling, S.J., Durda, D.D., margot, J-L., 
Pravec, P., and Storrs, A.D. 2002. Asteroids Do Have Satellites. In 
Asteroids III. (W.F. Bottke, Jr, A. Cellino, P. Paolicchi, and R. 
Binzel, Eds) University of Arizona Press, Tucson. 289-312.
    Milani, A., Chesley, S.R., Chodas, P.W., and Valsecchi, G. 2002. 
Asteroid Close Approaches: Analysis and Potential Impact Detection. In 
Asteroids III. (W.F. Bottke, Jr, A. Cellino, P. Paolicchi, and R. 
Binzel, Eds) University of Arizona Press, Tucson. 55-69.
    Morrison, D., Harris, A.W., Sommer, G., Chapman, C.R., and Carusi, 
A. 2002 Dealing with the Impact hazard. In Asteroids III. (W.F. Bottke, 
Jr, A. Cellino, P. Paolicchi, and R. Binzel, Eds) University of Arizona 
Press, Tucson. 739-754.
    Naka, F.R., 1997. Report on Space Surveillance, Asteroids and 
Comets, and Space Debris. Vol. 2 Asteroids and Comets. United States 
Air Force Scientific Advisory Board. SAB-TR-96-04.
    OECD 2003. Final Report. Workshop on Near Earth Objects: Risks, 
Policies and Actions. Organization for Economic Co-operation and 
Development (OECD), Global Science Forum.
    Pravec, P., Harris, A.W., Michalowski, T., 2002. Asteroid 
Rotations. In Asteroids III. (W.F. Bottke, Jr, A. Cellino, P. 
Paolicchi, and R. Binzel, Eds) University of Arizona Press, Tucson. 
113-122.
    Space Studies Board 2001. Astronomy and Astrophysics in the New 
Millennium, National Academy Press, Washington, D.C.
    Space Studies Board 2002a. New Frontiers in the Solar System: An 
Integrated Exploration Strategy, National Academy Press, Washington, 
D.C.
    Space Studies Board 2002. The Sun to Earth--and Beyond: A decadal 
Research Strategy in Solar and Space Physics. National Academy Press, 
Washington, D.C.
    Vasilyev, N.V. 1998. The Tunguska Meteorite Problem Today. Planet. 
Space Sci. 46, 129-150.
    Veverka, J.; Farquhar, B.; Robinson, M.; Thomas, P.; Murchie, S.; 
Harch, A.; Antreasian, P. G.; Chesley, S. R.; Miller, J. K.; Owen, W. 
M.; Williams, B. G.; Yeomans, D.; Dunham, D.; Heyler, G.; Holdridge, 
M.; Nelson, R. L.; Whittenburg, K. E.; Ray, J. C.; Carcich, B.; Cheng, 
A.; Chapman, C.; Bell, J. F.; Bell, M.; Bussey, B.; Clark, B.; 
Domingue, D.; Gaffey, M. J.; Hawkins, E.; Izenberg, N.; Joseph, J.; 
Kirk, R.; Lucey, P.; Malin, M.; McFadden, L.; Merline, W. J.; Peterson, 
C.; Prockter, L.; Warren, J.; Wellnitz, D. 2001. The Landing of the 
NEAR-Shoemaker Spacecraft on Asteroid 433 Eros. Nature 413, 390-393.
    Ward, S.N., and E. Asphaug 2000. Asteroid Impact Tsunami: A 
Probalistic Hazard Assessment. Icarus 145, 64-78.
    Weiler, E.J. 2002. In invited remarks at the NASA Workshop on 
Scientific Requirements for Mitigation of hazardous Comets and 
Asteroids. Held in Arlington, VA.
Figure 1: Roadmap for the Implementation Phase of a National Mitigaion 
        Program
    The elements of the preparatory phase of a national mitigation plan 
are listed in the left hand column and the estimated costs to 
completion in the right hand columns. This phase would be preceded by a 
strategic phase and followed by an implementation phase. The goal of 
the preparatory phase is to accomplish all that needs to be done to lay 
the scientific and engineering basis for the design of a reliable and 
effective mitigation system. The approximate phasing of each element 
within the timeline is shown by a line of x's. The reasons for the 
choice of a 25-year timeline are discussed in the text.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
